<html>
<title> - H.R. 1975, NORTHERN ROCKIES ECOSYSTEM PROTECTION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





 
     H.R. 1975, NORTHERN ROCKIES ECOSYSTEM PROTECTION ACT OF 2007

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 18, 2007

                               __________

                           Serial No. 110-50

                               __________

       Printed for the use of the Committee on Natural Resources




<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                -------




                     U.S. GOVERNMENT PRINTING OFFICE

38-381 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Dean Heller, Nevada
Lois Capps, California               Bill Sali, Idaho
Jay Inslee, Washington               Doug Lamborn, Colorado
Mark Udall, Colorado                 Vacancy
Stephanie Herseth Sandlin, South     Don Young, Alaska, ex officio
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                







                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 18, 2007.......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2
    Kildee, Hon. Dale E., a Representative in Congress from the 
      State of Michigan..........................................     6
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington...............................     6
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     9

Statement of Witnesses:
    Bisson, Henri, Deputy Director, Bureau of Land Management, 
      U.S. Department of the Interior............................    28
        Prepared statement of....................................    29
    Garrity, Michael, Executive Director, Alliance for the Wild 
      Rockies....................................................    45
        Prepared statement of....................................    47
    Holtrop, Joel, Deputy Chief, National Forest System, Forest 
      Service, U.S. Department of Agriculture....................    25
        Prepared statement of....................................    27
    King Klein, Carole, Stanley, Idaho...........................    35
        Prepared statement of....................................    37
    Macfarlane, Gary, Ecosystem Defense Director, Friends of the 
      Clearwater.................................................    42
        Prepared statement of....................................    44
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York......................................    10
        Prepared statement of....................................    12
    Newmark, William, Research Curator and Conservation 
      Biologist, Utah Museum of Natural History, University of 
      Utah, Salt Lake City, Utah.................................    53
        Prepared statement of....................................    54
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................    15
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut...................................    13
    Smith, Larry E., Executive Director, Americans for 
      Responsible Recreational Access............................    69
        Prepared statement of....................................    71
    Vincent, Bruce, Executive Director, Communities for a Great 
      Northwest, Libby, Montana..................................    62
        Prepared statement of....................................    64
    Williams, Noel E., on behalf of the Boards of County 
      Commissioners of Lincoln, Mineral and Sanders Counties, and 
      Montana Coalition of Forest Counties.......................    67
        Prepared statement of....................................    68

Additional materials supplied:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming, Statement submitted for the record.......    74
    Johnson, Rick, Executive Director, Idaho Conservation League, 
      Letter submitted for the record............................    76
    Lampe, Andrew, Chairman, Don (Bud) Hover, Member, and Mary 
      Lou Peterson, Member, Board of Commissioners, Okanogan, 
      Washington, Letter submitted for the record................     8
    Otter, Hon. C.L. ``Butch,'' Governor, State of Idaho, Letter 
      submitted for the record...................................    57
                                    



LEGISLATIVE HEARING ON H.R. 1975, TO DESIGNATE CERTAIN NATIONAL FOREST 
 SYSTEM LANDS AND PUBLIC LANDS UNDER THE JURISDICTION OF THE SECRETARY 
 OF THE INTERIOR IN THE STATES OF IDAHO, MONTANA, OREGON, WASHINGTON, 
 AND WYOMING AS WILDERNESS, WILD AND SCENIC RIVERS, WILDLAND RECOVERY 
  AREAS, AND BIOLOGICAL CONNECTING CORRIDORS, AND FOR OTHER PURPOSES.

                              ----------                              


                       Thursday, October 18, 2007

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 1334, Longworth House Office Building, Hon. Raul Grijalva 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Kildee, Holt, Sarbanes, 
Inslee, Rahall (ex officio), Bishop, and Sali.
    Also Present: Representative McMorris Rodgers.

    STATEMENT OF HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call the Subcommittee on National 
Parks, Forests and Public Lands to order for this legislative 
hearing on H.R. 1975. Let me begin.
    Today, we will hear testimony on H.R. 1975, the Northern 
Rockies Ecosystem Protection Act of 2007. H.R. 1975, introduced 
by our colleague, Carolyn Maloney, and cosponsored by a 
bipartisan list of 115 other Representatives, is an important 
proposal that designates wilderness and wild and scenic rivers 
in five States, those being Idaho, Montana, Oregon, Washington 
and Wyoming. In total, H.R. 1975 designates approximately 24 
million acres of wilderness and 1,800 miles of wild and scenic 
rivers.
    Furthermore, H.R. 1975 creates two new systems of Federal 
lands by designating over 3 million acres of biological 
connecting corridors and over 1 million acres of restoration 
and recovery areas.
    The northern Rockies region of the United States is an 
important part of our national heritage and one of our Nation's 
true wild gems. The northern Rockies ecosystem includes the 
largest block of wilderness land outside of Alaska and 
possesses some of the Nation's most treasured mountain scenery, 
wildlife and fish habitat.
    H.R. 1975 is a proposal that deserves consideration by this 
Subcommittee. This would be the second largest wilderness bill 
ever, surpassed only by the 1980 Alaska National Interest Lands 
Conservation Act. This bill has been introduced in previous 
Congresses, but has never had a hearing. I believe this 
proposal warrants the Subcommittee's attention, and I am 
looking forward to the testimony today.
    It has been said that the idea of wilderness needs no 
defense, only defenders. Today, I am pleased to welcome Carole 
King, one of our Nation's dedicated wilderness defenders, and 
look forward to her testimony. I am also pleased we are joined 
by a number of our colleagues and other witnesses to offer 
testimony on H.R. 1975. Thank you all for being here today.
    Because of the short length of the legislative session on 
the House Floor today, some members are not going to be able to 
be here. I myself will be leaving probably before the hearing 
is over. Please don't let today's attendance reflect on the 
importance of the measure before us today.
    And with that, let me turn to our distinguished Ranking 
Member, Mr. Bishop, for any comments he may have.
    [The prepared statement of Chairman Grijalva follows:]

          Statement of The Honorable Raul Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Today we will hear testimony on H.R. 1975, the Northern Rockies 
Ecosystem Protection Act of 2007.
    H.R. 1975, introduced by our colleague Representative Carolyn 
Maloney and co-sponsored by a bipartisan list of 115 other 
Representatives, is an ambitious proposal that designates wilderness 
and wild and scenic rivers in the five states of Idaho, Montana, 
Oregon, Washington and Wyoming.
    In total, H.R. 1975 designates approximately 24 million acres of 
wilderness and 1800 miles of wild and scenic rivers. Furthermore, H.R. 
1975 creates two new systems of Federal lands by designating over 3 
million acres of biological connecting corridors and over 1 million 
acres of restoration and recovery areas.
    The Northern Rockies region of the United States is an important 
part of our natural heritage, and one of our nation's true wild gems. 
The Northern Rockies ecosystem includes the largest block of wilderness 
lands outside of Alaska, and possesses some of the nation's most 
treasured mountain scenery, wildlife, and fish habitat.
    H.R. 1975 is very ambitious legislation that deserves a careful 
look by this subcommittee. We can certainly not overlook that H.R. 1975 
would be the second largest wilderness bill ever, surpassed only by the 
1980 Alaska National Interest Lands Conservation Act. Any legislation 
of this magnitude should not be taken lightly.
    It has been said that, ``The idea of wilderness needs no defense, 
only more defenders''. Today I am pleased that we are joined by one of 
our nation's most dedicated wilderness defenders, Carole King.
    I am also pleased that we are joined by a number of our colleagues 
and other witnesses to offer testimony on H.R. 1975. Thank you all for 
being here today. Because of the length of today's legislative session 
on the House Floor, some Members are unable to be here. I myself need 
to leave a bit early. Please do not let today's attendance reflect on 
the importance of the measure before us today.
    I would now like to turn to Ranking Member Bishop for any opening 
statement he may have.
                                 ______
                                 

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. If you go, we all go.
    I would like to thank all of our witnesses for coming 
today, on this day where there is essentially no other human 
being left on the Hill; and I know many of you have traveled 
great distances to testify.
    I would like to quote two Democrats who have impeccable 
environmental credentials, who spoke at the earlier hearing on 
this exact bill. Former Representative Pat Williams of Montana 
has said that this bill is political talking points, a wish 
list and if it were enacted it would create bad policy.
    Former Idaho Representative Larry LaRocca, describing the 
same bill, said it is detrimental to the environmental movement 
of the United States. Anyone can draft a bill, but to 
accomplish serious proposals requires serious legislation. The 
Chair at that time, Mr. Vento from Minnesota, said, A caring 
spirit must be wedded and welded to a sound policy and 
pragmatic reality. I don't think we have had the wedding or the 
welding that's taken place yet.
    What three different committees saw as draconian when this 
bill was first here has been repeated again in a bill that is 
just as stunning, except it is bigger. At that time it was 16 
million acres; this time it is 24 million acres in those five 
States. Last time, it was 1,500; now it is 2,000 miles of wild 
and scenic rivers and an additional 3 million thrown in for the 
fun of it, which makes it an area bigger than 19 States.
    I would specifically like to ask the sponsors of this to 
look at two particular areas when they give their 
presentations. One deals with the concept of Federal reserve 
water right language found in section 110, which does abrogate 
State water control rights. It undoes decades, if not 
centuries, of State and Federal case law, setting a new 
precedent. It is clearly contrary to the language intended of 
the Wilderness Act of 1964; and the late Senator Craig, when he 
was then a Congressman, specifically asked it be addressed 
before this bill went any further.
    I would also ask you to look at section 503 and explain the 
National Academy of Science, which is tasked with identifying 
and evaluating the roadless area exceeding 1,000 acres in all 
national forests in the five affected States. Until Congress 
acts otherwise, section 503 prohibits new road construction or 
reconstruction or timber harvest within such national forest. 
Also, further, no oil, gas or mining would be allowed on the 
lands if they appear natural or roadless qualities of land, 
with valid existing rights not being exempted.
    Lands in this section are not limited to Federal lands. 
They are creating a massive taking action by the Federal 
Government against private property holders, which is one of 
the problems we dearly have today. It is said how a government 
deals with personal property is the window to the soul of that 
particular government. Personal property is tangible, personal 
liberty is intangible, but the preservation of both with the 
historic purpose of this government and the preservation of one 
is a precondition to the preservation of the other.
    Sir Henry Maine once wrote in the village communities, 
Nobody is at liberty to attack several property and to say at 
the same time he values civilization. The history of the two 
cannot by disentangled. The desired use of personal property 
raises mankind from political slavery, and in fact, nothing has 
a better example of raw abuse of power perhaps than the 
perniciousness of this national government's refusal to abide 
by the equal footing doctrine of the Constitution.
    Having been mistreated by the British in colonial times, 
the Americans decided not to do that same thing to any part of 
the country, any part that would become a new member of the 
United States in this continent. The Articles of Confederation 
Congress asked the Canadians to join with the same rights and 
obligations and privileges of the original 13. One has to note 
the lack of takers, but the Northwest Ordinance gave equal 
footing to the new Great Lakes States and the article 4 allowed 
all new States to join the original States as equals.
    In the pre-Civil War, this was a matter of principle. In 
fact, all States north and south of the prairies benefited. In 
1845, the Supreme Court ruled that the Federal Government or 
Federal law could not divest Alabama of ownership of lands 
within the State boundary because such a divestment was not 
required of other States. And therefore, it would violate the 
equal footing doctrine.
    Post-Civil War, the Federal Government changed its opinion 
the West was screwed. If you draw an imaginary line from 
Montana down to New Mexico, everything west of that line is a 
victim of discrimination at the time of their statehood. Each 
was held hostage and forced to cede massive amounts of State 
land to the Federal Government as a condition of statehood.
    Each State was also promised, with the exception of Hawaii 
and California, that that would not be the way of things in the 
future. Each State was promised that the land would be divested 
by the Federal Government, and the States would either get the 
land back or a percentage of the money that was from the sale 
of public lands.
    Hawaii was never promised that, and California, not at the 
time of the enabling act, but 1 year later was given that 
privilege and that promise. This has never happened.
    States east of that imaginary line average 4 percent of 
their State's controlled by Washington D.C., those States west 
of it is 57 percent dominated by the Federal Government. Some 
western States were forced to cede 90 percent of the land to 
the national government.
    There is a constitutional reason for that or authority for 
the Federal Government having land, it is article 1, section 8, 
which allowed the national government to own and exercise, as 
it says, in their authority over all places purchased by the 
consent of the legislature of the State--so far, that is OK--
then goes on to say, in which the same shall be for the 
erection of forts, magazines, arsenals, dockyards and other 
needful buildings. That, unfortunately, is the part that has 
been ignored.
    If 67 percent of my State can be dominated by the Federal 
Government in what was a not-too-subtle condition of statehood, 
that has to equal to one hell of a needful building. I would be 
surprised if over a handful of eastern Congressmen or Senators 
have ever read that phrase before they insisted that western 
lands belong to all Americans for fulfillment of eastern 
citizens' recreation or other purposes.
    Many eastern politicians not impacted at home by the 
policies imposed on the West claim these newly created public 
lands belong to all Americans. One author of an e-mail sent to 
me says that each of us individually has a claim to ownership 
of the publicly held national land; we are genuine 
stakeholders. And that is patently absurd.
    Founding Fathers realized and recognized if you have a 
communal very European mind-set, it meant that no one really 
owned anything; that which was held by the group eliminated, by 
definition, the individual as a stakeholder. It was not the e-
mail--it was not the e-mail author's land. It was controlled by 
faceless Washington bureaucrats as defined by laws established 
nameless Congressmen and Congresswomen.
    Also, the Indian attempted to craft a society on that 
principle, and we should have learned from their failure. This 
policy does not work. It does not ennoble and does not benefit 
anyone. And to make matters worse, Federal studies also suggest 
5 million acres of public land serve no Federal purpose 
whatsoever. It is not wilderness, it is not parks, it is not 
habitat; it has no significant historical or cultural value, 
and yet we hold on to that land indefinitely.
    Since January, we have unleashed a slew of bills, all aimed 
at creating more parks and monuments and trails and scenic 
rivers and heritage areas, et cetera. Any excuse for the 
national government to buy out fully willing sellers to expand 
public lands has been embraced with a fervor that is 
frightening.
    It is hard to understand this mind-set, but in my mind, in 
my amateur psychology, I have concluded there are basically 
three reasons for most of this expansion. One is simply the 
desire to create a legacy for tenure. The national park and 
monument that would be not just for preservation of some 
historic site or geological significance would also be a 
permanent monument to a Member's legislative acumen.
    Second, it filled, some have recognized, national 
government's generous deep pockets to finance community 
interest or community needs. And a third, there are others who 
truly want to control what types of development would occur in 
both rural and urban settings.
    In the best traditions of the Soviet monopoly, Members of 
Congress relish the power of correcting how areas would now be 
refurbished. The idea that a private property owner might have 
a conflicting idea would not be tolerated by this vanguard of 
the proletariat who knew what was best for the landowner's real 
needs.
    This bill, in my estimation, is this third category. The 
issue is division between east and west, the division between 
urban and rural.
    I had a rural visitor who came to my office--she is a 
frequent letter to the editor writer--and told me how important 
this was to her child. She regaled me with the stories of how 
cheerfully her daughter played in a brook in the wilderness, 
and told me that that was important for her child, that there 
be more.
    I simply asked where she lived, and she told me an area of 
Salt Lake City. I simply told her then, that was a wonderful 
wilderness area before you built your house there.
    She never got it. Most of my friends in the urban setting 
don't get it. Most people here today don't get it.
    We will take this bill as seriously as it was by the three 
committees that held three other hearings in 1994, as well as 
the fourth hearing we are having today. I will tell you it will 
be taken seriously when the sponsors present legislation with 
the same percentage of eastern lands under Federal ownership as 
western lands, or when the biological corridors consuming the 
same amount of eastern land as it does western land, or land in 
your home States where it has, as you are proposing for the 
West. Then, this will be serious. This will be, as Chairman 
Vento then said, a wedding and a welding of commonsense 
practicality. Until then, I wish you luck with your pursuit of 
special interest endorsements.
    Mr. Grijalva. Thank you very much.
    Let me now turn to Mr. Kildee for any comments he may have.

STATEMENT OF HON. DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you for your indulgence. My flight has 
been changed because of a weather pattern in the Midwest, but--
I have to leave. But I talked to Carole King yesterday; I have 
talked to her through the years. I told her I would be here, I 
would keep my promise. But I do have to leave.
    I just want to say this, and I will be very brief, we have 
so many beautiful parts of our national patrimony, and we 
should save much of that in a wisdom just as it came from the 
hand of God. We can develop the Salt Lake City, that's great. 
We can develop Flint, Michigan. But there are certain areas we 
can leave as they came from the hand of God. And that's an 
obligation Congress has to look at, how much, where, and I 
think that is the purpose of this hearing.
    I was sponsor of the Michigan wilderness bill. 
Unfortunately, as you cited your history here, east of the 
Mississippi we did not have much wilderness area, but I was 
able to establish wilderness area in Michigan; and one of the 
great things about that, almost all of the people who opposed 
my wilderness bill in Michigan, which Ronald Reagan signed into 
law, afterwards were very happy over it. They really were 
pleased with what the results were and they thanked me for it 
many, many times.
    So I would hope that we look at that in this way, use our 
wisdom to know that which should be kept as it came from the 
hand of God. And Congress has that authority. And I commend you 
for having this hearing, and I commend the witnesses here, and 
I commend Carole King.
    And, Carole, you have a friend. God bless you.
    Mr. Grijalva. Let me turn to Ms. McMorris. Any comments?

 STATEMENT OF HON. CATHY McMORRIS RODGERS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. McMorris Rodgers. I thank you, Mr. Chairman, and I 
appreciate your allowing me to join the panel today, as this 
legislation does have significant impact on my district.
    In the West and in eastern Washington we are proud, and we 
have reason to be proud. We are proud of our ancestry, our 
heritage, our land and the resources we are entrusted to 
preserve and protect.
    Today, our focus is on how we preserve and protect the West 
for generations to come. This act is proposing to designate 
thousands of acres in northeast and southeast corners of my 
district, significantly limiting how we use this land in the 
future.
    It is important to note we have 30 wilderness areas in 
Washington State, covering approximately 4.3 million acres of 
land, and have experienced both the positive and the challenges 
of having wilderness designations.
    Over the past few years, as everyone is aware, our 
resources industry in eastern Washington has faced some pretty 
tough times. For example, in 2003 it was heartbreaking to watch 
the Vogin Brothers Mill close in Republic. Republic is a cowboy 
town of 950 people. The mill employed 250 at its peak; when it 
closed, it laid off the last 87 workers.
    The mill closed largely because of Canadian lumber imports 
and the lack of access to timber due to designations on the 
forest and Okanogan National Forest. It didn't close because we 
are using less lumber in this country; we are simply bringing 
it in from other countries.
    These stories have become too common throughout the West. 
Yet there are opportunities on the horizon, opportunities that 
can help our resources industry become vital once again. New 
technologies and research in renewable energy has the potential 
to help bring these industries back to the forefront.
    We live in a resource rich country, we shouldn't be 
strangling ourselves economically by not utilizing the 
resources we have been given or putting them off limits. By 
importing our resources from other countries, we are exporting 
environmental impacts to countries with lower environmental 
standards. As is too often the case with environmental issues, 
politics instead of science is setting the terms of debate.
    We share the goal of good stewardship, but the key 
difference is how we accomplish these goals. A healthy, well-
managed forest is an incredibly productive and constantly 
renewing resource. The power of a healthy forest means bio-
refining for newer and cleaner energy sources. It means healthy 
wildlife habitat, clean air, clean water. It means reduced risk 
of catastrophic wildfire hurting our homes and communities. It 
provides the timber and paper products we need and is 
sustainable. A well-managed forest will be around forever.
    A diseased, bug-infested forest leads to wildfires. 
Currently, fighting fires and managing forest to ensure we have 
a healthy, green forest can be extremely difficult with the 
current wilderness designations and restrictions.
    Last year, in eastern Washington, the Tripod Complex fire 
burned over 200,000 acres in the Okanogan National Forest. The 
cost to suppress the fires was $100 million, and it was likely 
the most costly fire in Washington State history.
    In the West, most predict we are going to see even larger 
and more catastrophic forest fires in the next decade. At a 
time when we need to be reducing the fuel load and creating a 
healthy, green forest throughout the West for everyone, this 
bill would move us in the wrong direction. Despite my respect 
and admiration for my colleagues who have introduced this 
legislation, I would like them to consider the people who live 
in eastern Washington, the citizens of Ferry, Stevens, Pend 
Oreille, Columbia and Garfield Counties, I would like them to 
come visit.
    Mr. Chairman, I would like to submit for the record 
statements in opposition for this legislation from the people 
of eastern Washington. Thank you.
    [A letter submitted for the record by the Okanogan County 
Board of Commissioners follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   STATEMENT OF HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman, I will be very brief. 
I do want to say how pleased I am that the Subcommittee is 
receiving testimony today on the Northern Rockies Ecosystem 
Protection Act. It is indeed a sweeping proposal that seeks to 
designate approximately 24 million acres of wilderness, and 
1,800 miles of wild and scenic rivers in Idaho, Montana, 
Oregon, Washington and Wyoming.
    No matter from whence we hail in this great country of 
ours, we, as Americans, treasure and value the pristine beauty 
of the northern Rockies. The wildlife, the rivers, the majestic 
scenery make the northern Rockies a critical piece of our 
national heritage.
    I want to thank our colleague, Representative Maloney, for 
bringing this legislation to us today, and our special and dear 
friend, Carole King, for promoting it as she has and for the 
vision that she has shown in bringing this ambitious measure 
before us today.
    I conclude by thanking you again, Mr. Chairman, and our 
colleagues, Mr. Shays and Mr. Rehberg, who also have taken time 
to be with us today. We welcome you.
    Mr. Grijalva. Thank you, Mr. Chairman. And let me turn to 
my colleague, Mr. Sarbanes, to see if he has any comment.
    Mr. Sarbanes. No.
    Mr. Grijalva. Let me acknowledge our three colleagues that 
are here and begin with the sponsor of the legislation, Ms. 
Maloney from New York, your testimony, please.

 STATEMENT OF THE HON. CAROLYN B. MALONEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mrs. Maloney. Thank you so much, Chairman Grijalva, and 
Ranking Member Bishop. And I thank the Chairman of the full 
committee, Chairman Rahall, and my colleagues on this committee 
for being here today. I thank you for allowing me to testify in 
support of H.R. 1975, the NREPA bill.
    So far in this Congress NREPA has garnered the support of 
115 bipartisan cosponsors from 35 different States. It has deep 
and strong support from the residents in the area affected by 
the legislation. It is supported by the Sierra Club, the 
Alliance for the Wild Rockies, Friends of the Clear Water and 
literally hundreds of the other grassroots and neighborhood 
organizations and local businesses in Wyoming, Montana, Idaho, 
Oregon and Washington State.
    Mr. Chairman, I request unanimous consent to place in the 
record a list of organizations from the affected areas that are 
supporting this legislation.
    Mr. Grijalva. Without objection.
    [NOTE: The list submitted for the record has been retained 
in the Committee's official files.]
    Mrs. Maloney. Thank you.
    Mr. Chairman, I know that there will be a healthy 
discussion and debate this afternoon. I want to start out by 
talking generally about what the bill does and what it does not 
do. I am pleased that, later on, you will hear testimony from 
experts in the region, some of whom have been working on NREPA 
longer than I have; and I first introduced it in 1993.
    NREPA differs from traditional State-by-State wilderness 
bills by offering a variety of designations that work in 
concert to achieve one goal, the protection of an entire 
functioning ecosystem on Federal public lands. I want to make 
clear that the bill only affects, Ranking Member Bishop, 
Federal public lands; it does not affect private lands at all. 
These are lands that belong to all Americans. We all have a 
right and responsibility to protect our precious resources.
    First, NREPA protects over 24 million acres of America's 
premier roadless lands as wilderness. Most of this land is not 
suitable for timber harvest or mining. According to Dr. Thomas 
Pallor, recently a retired chairman of the Department of 
Economics at the University of Montana, only 20 percent of the 
land designated in NREPA is suitable for timber harvest. NREPA 
will also protect the rivers and streams that are the last 
habitat for many of America's wild trout stocks by protecting 
1,800 miles of rivers and streams as wild and scenic rivers.
    Most importantly, NREPA emphasizes that all of these wild 
places are linked together in the most vital ways possible by 
protecting natural biological corridors. NREPA connects the 
region's core wildlands into a functioning ecological whole. 
Scientists tell us that you can't realistically try to protect 
these unique lands and everything that lives within them 
without thinking of the entire ecosystem.
    NREPA also creates jobs by putting people to work restoring 
the land, wildland restoration and recovery areas designated in 
the bill. We also recognize and agree that as far as logging on 
Federal lands goes, it only provides jobs because the 
government and the taxpayers provide millions and millions of 
dollars of subsidies to the timber industry. These forests are 
money losers. Ultimately, the American taxpayers are paying so 
that logging can continue in these particular, in some cases, 
very hard to reach Federal forests. NREPA saves taxpayers money 
by prohibiting road building and logging in the areas 
designated as wilderness.
    I also want to be clear about what NREPA does not do. NREPA 
does not impact private ownership or landowners. It only 
impacts upon Federal public lands, lands that are owned by all 
Americans.
    Now, you certainly are going to hear some people say that 
NREPA is a top-down approach. This could not be further from 
the truth. In the early 1990s local scientists, economists, 
conservation leaders, researchers and others in Montana, Idaho, 
Wyoming, Washington and Oregon became concerned with the 
fragmenting of these precious, rare lands. The potential loss 
of wildlife and their way of life, if something was not done to 
protect the northern Rockies, prompted the legislation that is 
now NREPA.
    These people in the region went to the Alliance for the 
Wild Rockies to write this bill, and then when those local 
advocates went to their officials, no one had the vision to 
sponsor it. This is what they told me, and I believe that 
everyone has a right to have their opinions and bills debated 
before this Congress. So people in the region had to seek out 
other legislators to support their vision.
    I would not be here today if it were not for the local 
grassroots advocates, scientists, economists, conservation 
leaders who have been champion in NREPA for well over 10 years. 
NREPA could not be further from a top-down approach.
    I hope you will continue to debate these issues in a 
thoughtful and responsible way. If nothing else, the American 
people should take comfort in the fact that we continue to 
debate about how much land to protect, instead of whether to 
protect land at all. Some years ago two NREPA supporters from, 
believe it or not, Manhattan, Montana wrote to me--and I saved 
the letter, not only for what it said, but because it was from 
Manhattan, Montana--and I quote, ``We feel there is a little 
ray of hope for the incredible but dwindling wildlands we are 
so lucky to live near and love.''
    All of us have a responsibility to sustain their hope.
    Again, I thank very much Chairman Grijalva and Chairman 
Rahall and Ranking Member Bishop for allowing me to be here 
today and for holding this hearing.
    Mr. Chairman, if I could, I would like to cite a page of 
the bill; it is on page 106, sections 12 through 16, which 
makes it very clear that it only pertains to public, Federally 
owned land; it does not involve private land at all. This is a 
very important aspect. I agree with my colleagues in 
championing the right to private ownership and protecting that 
ownership. This is about public land, owned by every citizen in 
this country.
    Again, I thank you for allowing me to be here today. Thank 
you.
    Mr. Grijalva. Thank you.
    [The prepared statement of Mrs. Maloney follows:]

  Statement of The Honorable Carolyn B. Maloney, a Representative in 
                  Congress from the State of New York

    Chairman Grijalva, Ranking Member Bishop, members of the 
subcommittee, I thank you for allowing me to be here this afternoon to 
testify about H.R. 1975, the Northern Rockies Ecosystem Protection Act.
    So far this Congress, NREPA has garnered the support of 115 
bipartisan cosponsors from 35 states. It has deep grassroots support in 
the areas affected by the legislation. It is supported by the Sierra 
Club, The Alliance for the Wild Rockies, Friends of the Clearwater, and 
hundreds of other organizations and local businesses in Wyoming, 
Montana, Idaho, Oregon and Washington.
    Mr. Chairman, I know there will be a healthy discussion of the bill 
this afternoon. I want to start out by talking generally about what the 
bill does and what it doesn't do. I'm pleased that later you'll hear 
testimony from experts from the region, some of whom have been working 
on NREPA for even longer than I have.
    NREPA differs from traditional state-by-state wilderness bills by 
offering a variety of designations that work in concert to achieve one 
goal: the protection of entire functioning ecosystems on federal public 
lands. These are lands that belong to all American taxpayers. We all 
have a right and responsibility to protect our precious resources.
    First, NREPA protects over 24 million acres of America's premiere 
roadless lands as wilderness. Most of this land is not suitable for 
timber harvest or mining. According to Dr. Thomas Power, recently 
retired chairman of the Department of Economics at the University of 
Montana, only 20% of the land designated in NREPA is even suitable for 
timber harvest.
    NREPA will also protect the rivers and streams that are the last 
habitats for many of America's wild trout stocks, by protecting 1800 
miles of river and streams as wild and scenic rivers.
    Most importantly, NREPA emphasizes that all of these wild places 
are linked together in the most vital ways possible. By protecting 
natural biological corridors, NREPA connects the region's core 
wildlands into a functioning ecological whole. Scientists tell us that 
you can't realistically try to protect these unique lands and 
everything that lives within them without thinking of the entire 
ecosystem.
    NREPA also creates jobs by putting people to work restoring the 
land in wildland restoration and recovery areas designated in the bill.
    We all recognize and agree that as far as logging on federal lands 
goes, it only provides jobs because the government and the taxpayers 
provide millions and millions of dollars of subsidies to the timber 
industry. These forests are money losers. Ultimately the American 
taxpayers are paying so that logging can continue in these particular 
federal forests. NREPA saves taxpayers money by prohibiting road 
building and logging in the areas designated as wilderness.
    Finally, I want to be very clear about what NREPA doesn't do. NREPA 
does not impact private landowners. It impacts only federal public 
lands--lands owned by all Americans.
    Now, you'll certainly hear some people say that NREPA is a ``top-
down'' approach. This could not be further from the truth. In the early 
1990's local scientists, economists, conservation leaders, researchers, 
and others in Montana, Idaho, Wyoming, Washington and Oregon became 
concerned with the fragmenting of these precious, rare lands. The 
potential loss of wildlife and their way of life if something was not 
done to protect the Northern Rockies prompted the legislation that is 
now NREPA. These people in the region went to the Alliance for the Wild 
Rockies to write this bill. And then, when those local advocates went 
to their elected officials, no one had the vision or courage to sponsor 
the bill. This is what they told me. So, people in the region had to 
seek out other legislators to support their vision. I would not be here 
today if it were not for the local grassroots advocates, scientists, 
economists, conservation leaders who have been championing NREPA for 
years. NREPA could not be further from a ``top-down'' approach.
    I hope you will continue to debate these issues in a thoughtful and 
responsible way. If nothing else, the American people should take 
comfort in the fact that we continue to debate how much land to protect 
instead of whether to protect land at all.
    Some years ago, two NREPA supporters from Manhattan, Montana wrote 
to me and said ``We feel that there is a little ray of hope for the 
incredible but dwindling wildlands we are so lucky to live near and 
love.'' All of us have a responsibility to sustain that hope.
    Again, I thank Chairman Grijalva for allowing me to be here today 
and for holding this hearing. Thank you.
                                 ______
                                 
    Mr. Grijalva. Let me now turn to our colleague, Mr. Shays, 
for your comments, sir.

 STATEMENT OF THE HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Shays. Thank you. Thank you for holding this hearing 
and to Mr. Rahall, the Chairman of the full committee, and to 
the Ranking Member.
    When I was involved--I was elected 1987--I often spoke to 
Newt Gingrich and said, you know, the one thing we don't have 
in this place is debate. We don't debate ideas, we don't hear 
from what other colleagues say. If we don't want a bill to come 
to the Floor, we just kill it and no debate.
    And I remember when we were working on the Contract with 
America, Newt at one said, Chris, the difference in how we 
would be and the other party that had control for 40 years, we 
are not going to be afraid to debate these issues and learn 
from each other; we are not going to be afraid to debate these 
issues. Well, as it turned out, we were just as afraid, sadly, 
as my Democratic colleagues. We didn't debate a lot of issues.
    It is very difficult for me to be part of a legislation 
where my support of it is questioned totally about motives, or 
anyone else who supports this bill. This can't be about 
motives. It has to be about whether or not we are right on some 
of these issues or wrong, whether the proponents of the bill 
throughout the country are right or wrong. And I will sink and 
swim on that, but I am not going to sink and swim based on the 
questioning of one's motives.
    I would say to you that, frankly, I don't think this 
legislation has a twit to do with whether I win reelection or 
not. I hope it doesn't mean that I would lose reelection, but I 
don't think it has much to do with whether I win reelection.
    The Northern Rockies Ecosystem Protection Act seeks to 
protect the headwaters of three great rivers--the Colorado, the 
Columbia and the Missouri. And then there is also the river 
going up into Canada from the glacier, but these three great 
American rivers, they just aren't contained in five States; 
they include well over half the United States of America.
    Now, why would I care about the northern Rockies, given I 
live in Connecticut? For the same reason Theodore Roosevelt 
cared, living in New York State, or Stephen Mather, the first 
Director of the National Park Service, who cared, living in 
Darien, Connecticut, my hometown where I grew up. Why did he 
care? He didn't live there; he lived where I live.
    Or Gifford Pinchot, the first who cared, the first Director 
of the National Fire Service, living in Simsbury, Connecticut.
    I don't know, but when I have Americans come down to 
Washington, D.C., and I take them to see the Capitol, I say, 
This is your Capitol, you own this building; this is your White 
House, you own this building; this is your property, this is 
your land.
    Maybe I made a mistake when I spent a week in Glacier 
National Park on a homestead in 1970 with a colleague of mine, 
and I was literally on this homestead. Maybe I made a mistake, 
but I looked out at this vast area and I thought, This is owned 
by the American people, this is part of my heritage, I own it 
as much as anyone else. And I would fight to my death anyone 
contending that somehow my citizens in Darien, Connecticut, or 
Fairfield, Connecticut, are second-class citizens.
    The bottom line, FDR, had he not made sure American 
citizens owned this land, it would have been sold to the 
private sector. We wouldn't even be having this dialogue, 
because we are not going to take private land. We can't talk 
about it because its private land, but it's our land. Mr. 
Bishop, it's your land and it's my land, absolutely.
    So who should care most about this land? All of us. Who 
benefits? All of us. Who gets to use and enjoy this land? All 
of us. But frankly, those who live near get to utilize it more 
and get to benefit more. And it seems to me that rather than 
condemning the Federal Government for owning this land which 
everyone gets to use, you should be saying, Thank you, because 
the alternative would be to have it owned by the private sector 
and you would not be able to enjoy this land.
    So I am very grateful that our country has protected this 
land; I am grateful that it is not in the private sector and 
that we all get to enjoy it.
    And what I would like to say is, one of the challenges we 
have is, Carolyn Maloney and I would love for the Federal 
Government to own more land. The problem is that there is a 
view in this country that you don't want the Federal Government 
to buy more land. We have land that people would sell to the 
Federal Government. We have land that the public would like to 
have sold to the Federal Government, but because of the fear 
that we would do that somehow out west, we don't have enough of 
it happening out east. And I would dearly love to see that 
happen.
    Now, I do want to say this. I understand the Federal 
Government can be obnoxious. I understand that bureaucrats can 
be obnoxious.
    We have the McKinney Wildlife. When I got elected, these 
were privately held lands all along Long Island. We were able 
to get our government to buy this land. It is called the 
McKinney Wildlife Refuge; it is tidal basins and it is islands. 
There is one island that is no bigger than half this room, and 
I finally got a little bit of the taste of what Mr. Bishop must 
find or my colleague, Ms. McMorris Rodgers, must see. And what 
was it? We went out to this island you could see the back side, 
the front side, and the four sides; it is a circle, but you 
could see it all. And there were eight signs, and it was a sign 
wider than my hand, and it said ``U.S. Government, Keep Out.''
    I thought, how obnoxious can you be? One sign might have 
done it, two might have been appropriate, three was OK, but 
eight signs?
    So I am not saying that there is not reason to be critical 
of Members of us out east who don't get what you get, but 
educate us, let's have a dialogue. But let's not question our 
motives, let's just understand what you see and what I see. We 
are one country, thank God; and we are, before we are 
Republicans and Democrats, Americans.
    Thank you.
    Mr. Grijalva. Thank you.
    Mr. Grijalva. And let me now turn to our colleague, Mr. 
Rehberg, for any comments he may have.

 STATEMENT OF THE HON. DENNIS R. REHBERG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Mr. Chairman, and members of the 
Subcommittee for allowing me the opportunity to testify on the 
Northern Rockies Ecosystem Protection Act. This is the third 
time I have testified before this Natural Resources 
Subcommittee this year; consider this my request to be formally 
put back on the committee.
    I appreciate the opportunity to express concerns I have 
with this legislation, share with you what I have heard from 
Montanans, and talk to you about our approach to public land 
management.
    After learning this bill was going to receive a hearing, I 
asked Montanans for their input on this legislation. In less 
than 1 week, I received responses from 7,117 Montanans, and I 
request unanimous consent to submit these petitions that I 
brought with me into the record.
    Mr. Grijalva. Without objection.
    [NOTE: The petition has been retained in the Committee's 
official files.]
    Mr. Rehberg. I might also point out to my colleague from 
New York City that I received within that week 12 responses 
from Manhattan, Montana, in opposition to this legislation. 
Over 96 percent of the responses were adamantly opposed to this 
act. I brought their letters, faxes and petitions to share with 
you today because these responses come from county 
commissioners, elected State representatives, ranchers, timber 
workers, recreational users and folks who just want access to 
those treasured areas.
    This overwhelming response signifies the deep respect 
Montanans have for their public lands. One of the best 
qualities of Montana's diverse landscape is our ability to 
access the outdoors. Millions of acres of public land provide a 
variety of unique and exciting recreational experiences, 
whether snowmobiling through the woods or hiking into the 
mountains for a hunting or fishing trip. These are some of the 
opportunities we cherish most, and the activities that have 
defined our State as ``The Last Best Place.''
    Montana's long tradition for protecting public access to 
public lands has been built upon the principle that sound land 
management decisions are best achieved through cooperation. We 
understand the decisions affecting lands must be consensus-
driven, local efforts that balance and protect our natural 
resources, recreation and economic development.
    Over the last few years I have had the pleasure to work 
with groups across Montana that are working on building 
consensus in their communities on public land management. These 
groups, spanning from wilderness advocates to timber companies, 
recognize the current way of doing business wasn't working. So 
they agreed to come to the table and start talking. Working 
through their ideological differences, these diverse groups 
gathered maps, visited the Forest Service and have held 
numerous public meetings to talk about their ideas and visions 
for the future of land management in their area.
    I have met with these groups numerous times since their 
formation. This year alone I have met with them 11 times in 
Washington and in Montana to discuss their draft legislation 
and proposals. Their understanding of the needs in the 
communities and management of the land are rooted in their 
experience and appreciation for what Montana has to offer.
    One of the best examples of this is the Blackfoot 
Challenge. I brought the map for you to look at. Over the past 
2 years, the Blackfoot Cooperative Landscape Stewardship Pilot 
Project has made great strides toward creating thousands of 
acres of wilderness in the Seeley Lake ranger district of the 
Lolo National Forest and balancing it with a reasonable plan 
for sustaining timber harvest motorized and nonmotorized 
access.
    Most importantly, it has brought diverse groups such as the 
Rocky Mountain Elk Foundation, Pyramid Lumber, the Montana 
Realtors Association, Rolling Stone Ranch, and The Wilderness 
Society together at the same table to hammer out a consensus 
agreement.
    On a larger scale, the Beaverhead-Deerlodge Partnership 
represents more than 500,000 acres of public land be designated 
as wilderness. Every acre has been negotiated and scrutinized 
in Montana by organizations such as the Sun Mountain Lumber, 
Trout Unlimited and the National Wildlife Federation.
    In Montana, consensus approaches created by interested 
local groups have been shown to be the most effective way of 
managing our natural resources. Unfortunately, the Northern 
Rockies Ecosystem Protection Act threatens the Montana way of 
making land management decisions and has the potential to stop 
these collaborative partnerships in their tracks. This blanket 
designation of 23 million acres of land in Idaho, Montana, 
Oregon, Washington and Wyoming is not the way folks do business 
in the West.
    The threat of locking up millions of acres in Montana and 
the surrounding States so folk from other areas can hold in 
their mind the mythical ``the way it was'' image and have a 
getaway spot for their weekend vacation or second homes is an 
affront to most Montanans. I would urge the sponsors for this 
legislation to come out, take an on-the-ground tour to see 
where multiple use management and wilderness can successfully 
coexist.
    What the sponsors of this bill don't seem to understand is 
that wholesale wilderness designation is a truly bad way of 
managing our Nation's public lands. In essence, it would 
undercut much of the on-the-ground work that is already being 
done. Cooperative approaches, such as the Beaverhead-Deerlodge 
Partnership and Blackfoot Challenge, are, while not perfect, a 
much more thoughtful and inclusive way of building consensus 
amongst diverse interests.
    The 7 million acres of public land in Montana that would be 
impacted by this act include many areas where some of the best 
local cooperative agreements are being negotiated. It would 
replace those local agreements with the top-down directive from 
Washington, D.C. Before we triple the amount of wilderness that 
currently exists in our State, we should rely on input from the 
people it would affect most, Montanans.
    A cooperative approach will ensure we address the needs of 
everyone, from hardworking firefighters who require better 
access for forest fire management, to the elderly and 
handicapped who can't access the wilderness on foot. This way, 
in the end, we can truly accomplish public assess for all.
    Again, I oppose this bill and I thank you for giving me the 
opportunity to testify.
    Mr. Grijalva. Thank you very much.
    Mr. Grijalva. Let me thank our colleagues for being here 
and for your comments and testimony.
    I don't have any questions for our colleagues. Let me turn 
to Ranking Member.
    Mr. Bishop. I have a couple, if I might.
    Ms. Maloney, let me start with you and I appreciate your 
comment, but this is something I would like you to work on in 
the bill if, indeed, it goes any further.
    The comment that you gave me as far as whether it impacts 
private property or not was coming from section 204, which is 
in Title II, which starts out, ``This title shall apply only 
to--''
    That prohibition deals with Title II. To what I was 
referring is in section 503, which deals to Title V. So Title 
II's prohibition does not have an impact on the issue at hand 
in Title V.
    There are a couple of things I want you to work on in Title 
II. You do not have prohibition against the Federal 
Government's taking of any kinds of lands over here, but you do 
allow some kind of cooperative allowance to go in there, but 
you still give them the ability of acquisitions--agreements, 
acquisitions and land exchanges. In almost every other piece of 
legislation, we have had problems about does the Federal 
Government have condemnation rights or not. This should be 
clear that Federal Government should not have condemnation 
powers in Title II, but the same thing applies to Title V.
    In Title V, you simply wrote, ``roadless lands greater 
than--'' The state-of-the-art, if you wanted to be very 
specific, you would say ``roadless Federal lands,'' or you 
would define lands somewhere else in this district.
    As you have it right now, this is very vague language; it 
is an open invitation to a lawsuit, and that language has to be 
fixed. So in 503, I would like you to look at that, also in 
section 204 to make sure those type of things go on there.
    I have a couple of questions simply about the mechanics of 
the bill. If you want to respond to that, fine,
    Mrs. Maloney. Can I say--and I thank the gentleman for his 
comments--the intent of the bill is to preserve public land and 
not in any way to infringe on private ownership. He cites 
Theodore Roosevelt, but Alexander Hamilton was the champion 
from New York State of private ownership and private land.
    I joined with my colleagues on both sides of the aisle in 
protest to the Kelo decision that expanded the Federal 
Government's authority to take land using probably one of the 
greatest powers we have domestically, which is eminent domain. 
That was not the intent.
    I would welcome the challenge of working with you and 
Chairman Grijalva to make that very clear, that this is about 
public land. We in no way want to in any way impinge on the 
right of an American citizen to own their own land and make 
decisions about what they wish to do with it.
    Now, there are some cases where people will sell their land 
to the Federal Government, but that is totally up to them. 
Right now, as you know, the program that allows the buying of 
watershed properties and so forth has not been funded as 
robustly as in the past.
    But the intent is not to in any way diminish the right of 
private ownership and the right of private Americans to make 
decisions about the use of their own land. I want to make that 
very clear. I agree with you on that point.
    Mr. Bishop. I appreciate it very much. Just, once again, as 
you look through that, the ability of private owners to be 
bought out is in 204. In 205, you once again give the Federal 
Government some authority to assist them in being bought out; 
that is the section you need to deal with, so if you would, 
look at that. What I am simply saying is, unfortunately, we 
read the bill and there are some draftsmanship problems that 
create those particular errors that are in there.
    I would like to ask you some questions simply about the 
impact of the bill as has been brought up by reading the 
testimony of others who will be here. For example, do you have 
any estimation of what the additional cost would be? I am not 
talking about net; I am talking about the gross additional cost 
to Interior and the Forest Service for the implementation of 
this. You will have to have a low wildland recovery core. You 
don't just close a roadless area by closing a roadless area; 
there is a cost attached it.
    Do you have any idea what the cost would be?
    Mrs. Maloney. We have a request into CBO to come forward 
with an estimate. We do have some estimates that have been 
prepared by scientists on how much money NREPA saves----
    Mr. Bishop. No, no.
    Mrs. Maloney. There is an estimate of 245 million over 10 
years.
    Mr. Bishop. Ms. Maloney, just what the cost would be to 
implement the act.
    Mrs. Maloney. We have a request to CBO on that.
    Mr. Bishop. It also says that there are endangered species 
plans that, because of the change in the plan management 
system, the Interior would have to come up with a new 
endangered species management plan.
    Do you have any idea how many endangered species would be 
impacted by the change in the management land--designation?
    Mrs. Maloney. No.
    Mr. Bishop. Do you know how many private inholdings are 
already within this area?
    For instance, in any given Federal area there will be 
inholdings that still are private. Do you know how many are in 
the designated--either the 16 or 24 million designated areas?
    Mrs. Maloney. There are quite a few. If you look at the 
map, the yellow areas, which are the connecting corridors, are 
privately owned land.
    Mr. Bishop. Do you know how many there are there?
    Mrs. Maloney. Do you know?
    Mr. Shays. No.
    Mrs. Maloney. No, I do not. But the map is quite----
    Mr. Bishop. And then my concern is, obviously, if you don't 
fix 503, there would be the tendency of creating more of those 
because it is still an ambiguous statement of what is 
``roadless lands'' and what is impacted by them, as well as 
what can or cannot go that way.
    GAO in looking at this talked about area that would then be 
created would be considered high-risk fire land, that 
management by fire is not necessarily the best way of handling 
the problem. In fact, when Mr. Sali gets back here from the 
White House, about talking about this, he can probably tell us 
that in the fires that Idaho had on their public forest this 
year, there was more carbon particulate sent into the air than 
from all manmade sources they have had over the last decade in 
the State of Idaho.
    Does this bill have a specific fire management plan within 
it?
    Mrs. Maloney. The biggest threat from fires is to homes and 
other structures. And the Forest Service's own experts say the 
best way to protect structures is to reduce fuels 130 feet 
around the structures. This bill protects remote lands far from 
structures.
    Mr. Bishop. Yes. But what about the areas that not close to 
structures which still spew the carbon particulate when it is 
burned?
    Mr. Shays. Let me jump in.
    Mr. Bishop. By the way, the answer to the other question 
was, yeah, you were mistaken, but that is besides the point.
    Mr. Shays. I am sorry?
    Mr. Bishop. Never mind, I will come back to that. Go ahead.
    Mr. Shays. I think it is the same basic plan that we have 
now. I would like to say to you that the area I feel least 
comfortable is on fire management, in terms of what all of you 
are dealing with and how to deal with that problem.
    Mr. Bishop. In the 1994 testimony you talked about how to 
save large mammals as part of the reason for this particular 
program. One of those that was endangered was the grizzly.
    Would it come as a surprise if, with not going to this 
program, the grizzly has now been delisted because basically it 
is off the endangered species list.
    Mrs. Maloney. I think that is a wonderful advancement, and 
it is because of these natural lands that are there that they 
can live in.
    Mr. Bishop. Send them back to Central Park where they came 
from.
    Along with Mr. Kildee, I have created a wilderness in the 
State of Utah.
    Mrs. Maloney. Congratulations.
    Mr. Bishop. With the property that Mr. Grijalva keeps 
reminding me that not all of it was necessarily great 
wilderness designation, and I admit he is right on 10 acres of 
that. Yet the process we went through was somewhat unique. As 
we did that, we had all the congressional, State and 
legislative leaders in line with us as we went forward in our 
congressional proposal.
    Does this bill have the support of congressional or State 
leaders in these five affected areas?
    Mr. Shays. The answer is ``no.''
    Mr. Bishop. All right.
    I also went through having the county government that was 
impacted working with us to the point that they were in 
support. Are there any county commissioners, or can you tell me 
how many county leaders have supported this bill so far in the 
affected areas?
    Mr. Shays. Not--hardly any, and I don't know if they are, 
who they would be.
    Mr. Bishop. I would also say that we even went so far to go 
to all the private property owners that would have an impact in 
this area, and we made adjustments to our map to make sure that 
no private property holder felt abused by this particular 
process. Fortunately, it was a smaller wilderness area that we 
are talking about than what you are doing here, which maybe can 
ask the last question--I am sorry, I will quit abusing your 
time.
    The original bill was 16 million; now you have 24 million. 
Can you tell us in which State this extra 8 million acreage of 
wilderness area now comes?
    Mrs. Maloney. It is added throughout the five different 
States in various proportions. I can get a complete breakdown 
of the exact number and the exact location of every single 
additional----
    Mr. Bishop. That would be good, especially for those people 
who are living in that particular area.
    Let's just try one other thing. Do you have any idea of how 
many people are living within 60 miles of these designations? 
How many people are we talking about who would have a direct 
impact?
    Mrs. Maloney. Do you mean how many private property owners?
    Mr. Bishop. No, no. People, just people living within 60 
miles of what you are about to designate.
    Mrs. Maloney. We can get a scientific analysis done for you 
on that.
    Mr. Bishop. All right you have helped me with some 
specifics on this bill. Thank you.
    Mr. Rehberg. Mr. Bishop, I might be able to answer that 
question. From Montana's perspective, 31 of my 56 counties, so 
literally that percentage of my population of 940,000 would be 
impacted by this legislation.
    Mr. Grijalva. Thank you.
    Mr. Sarbanes, questions?
    Ms. McMorris Rodgers, any questions?
    Mrs. McMorris Rodgers. Yes. I guess Congressman Rehberg 
said wilderness designation is the worst way to manage our 
lands, and that is where I really want to try to focus your 
attention, because this is a blanket 18 million-acre 
designation. It is huge and it ties our hands and our efforts 
to really, I think, accomplish the goals of having good 
stewardship, of having an area in the West that is full of 
forests that are green and healthy and vibrant, because that is 
important to all of us.
    Mr. Shays. Could I ask you a question in that regard that 
would help me?
    Mrs. McMorris Rodgers. Yes.
    Mr. Shays. Basically, what we want is for the land to be 
left in its natural state. We don't want it developed, we want 
people to use it. And the lands that we are talking about, the 
new wilderness area, are contiguous to existing wilderness 
area. There is the viewpoint that many of us hold that you 
don't have to manage that kind of land.
    Mrs. McMorris Rodgers. Uh-huh. Uh-huh. Well, I think 
sometimes we picture these lands different than they really 
are.
    Now, just because you designate an area of wilderness 
doesn't mean that it is going to be an area that has green and 
healthy trees in that area. What you find, more often than not, 
now in the West is that these areas have become kindling for 
forest fires, because they are dying. These are dead, they are 
full of bugs, the trees are dying. These are areas that have 
made it very difficult on us and is not accomplishing our goals 
of having healthy forest.
    And I think it was Congresswoman Maloney that mentioned--
emphasized that you are not designating private lands. I would 
argue right now that you are going to find the healthiest trees 
on private lands. You compare what is happening on our Federal 
lands, it is really a sad sight; and it is the private lands 
that are actually doing a much better job, I think, of creating 
that goal of having healthy, green forest.
    Mr. Shays. Congresswoman McMorris Rodgers, I realized that 
you were a minority leader so you have attained a title I never 
have.
    When I stayed at Glacier National Park on the homestead, I 
have obviously been to Yellowstone like any other American who 
has been blessed. I spent a week basically flying over this 
whole area. The areas that caught my attention were the areas 
with roads. What caught my attention: the unbelievable 
accumulation of chemicals for mining. Those are the areas that 
I saw, and obviously areas that have been burned out. What we 
sense is that natural inhabited areas should stay natural, 
whatever their condition.
    Mrs. McMorris Rodgers. Well, I think what I would like to 
see us accomplish is that we have healthy forests in this 
country. I think that is part of being a good steward of the 
land. And what we are going to face then in the West is some 
pretty--we are going to face more and more catastrophic fires; 
that is what we are facing. And that is not positive for anyone 
in my opinion.
    There is impact because man does live in these areas, man 
has been managing a lot of these areas for years, and there 
needs to be more collaboration, I think, in the approach. I 
guess Representative Rehberg talked about the collaboration 
taking place in Montana; that is happening in Washington State 
too.
    I would plead with you to recognize that it is not the way 
that it was 30 and 40 years ago, that there's a recognition 
that we need to do a better job of making sure that we have 
some shared goals, and that we are working together to 
accomplish those goals. And this type of legislation really 
flies in the face of what progress has been made, because it is 
the Federal Government coming in.
    And you know, I can sit here and I can fall in love with 
the idea of designating land in northeastern America. I think, 
Wow, I have never been in that area, but I have heard it is 
beautiful. I am sure that there are thousands of acres that 
would be great to set aside. And I can sit here and think, Wow, 
OK, well, maybe I want to set aside some acres for the next 
generations to follow me to come to eastern United States.
    Mr. Shays. Did Theodore Roosevelt make a mistake? Am I 
missing something here? The guy lived in New York, but he said, 
Let's protect this area where--the headwaters of three major 
rivers. Was he wrong? Should he have just basically sold all 
this land to the private sector?
    Mrs. McMorris Rodgers. I am not saying no wilderness 
designation ever, but I would just ask that you really look at 
what is happening on the ground right now, that we are making 
such progress in really not just coming in with these sweeping 
designations and saying, 18 million acres designated wilderness 
with very, very limited access, very limited.
    You talked about the signs where the gates are. That is 
what we see so often on our public lands; it is gates that say 
``No Access.'' So you fall in love with the idea that you are 
setting aside lands for the public to use, but the reality is, 
that doesn't happen.
    We are making progress and actually figuring out where is 
it best to set aside wilderness, where is it best to go in 
there and take action so that we can prevent forest fires? 
Where can allow other trails or recreational-type uses?
    We are making progress in that effort.
    Mrs. Maloney. Congresswoman, you raised many important 
points. And the point of having public access to it, if it is 
Federal lands, why isn't there a trail to the streams so people 
can carry in their canoe and enjoy it? And I would like to join 
with you in achieving more access to Federal lands by the 
public. After all, it belongs to the people.
    I would like to invite the Congresswoman to join me in New 
York. We have the second largest park in America, second only 
to Alaska, 6 million acres of preserved land. And I would love 
to come to Washington State and see some of the progress and 
challenges you are talking about. I think we share the same 
goal, and we can work together. And I think you have raised 
some important points. And I would like to work with you on 
achieving more public access to the lands that we already have. 
How dare they say you can't go on these lands? The American 
people own them. And I would like to join with you in working 
with that.
    Mr. Grijalva. Let me move on to some--thank you. We were on 
the issue of fires before I turned to Mr. Inslee for any 
questions. Wilderness designation under the Wilderness Act does 
not take away from the Forest Service the authority to take 
whatever means they find necessary in order to control fires 
and to suppress fires. So a designation doesn't augment the 
possibility that we will not be able to deal with that 
catastrophe. And also I would suggest in my humble opinion that 
if we had funded--and this administration had fully funded the 
thinning program under the Forest Service, that we might be 
dealing with--more effectively with some of the issues that 
Mrs. McMorris Rodgers brought up. Mr. Inslee, any questions?
    Mr. Inslee. Thank you. I wanted to ask my friend, Mr. 
Rehberg, a couple of questions. He is a Washington State 
Cougar, and I am a University of Washington Husky, so we don't 
always see eye to eye. But I was hoping we could--it has been a 
tough year for both of us. I want to ask you a couple of 
questions about the decision making around wilderness and 
national forests in general. We always want to get local input, 
the folks who are closest to the community. They have insights 
that others of us who might be farther away may not have. That 
is a very important part of the process. But I do want to seek 
your view on sort of our constituents' respective interests in 
the ground; you know, they are national forests. So let me just 
ask you kind of a theoretical question. How do you view your 
constituents' interests or ownership or whatever word you want 
to use in the ground in your district compared to my 
constituents' interests in that ground? How do you view that? 
Are they equal? Are they different? How should we view that?
    Mr. Rehberg. There would be differing levels of criteria. 
We clearly recognize in Montana that we collectively own the 
land just every bit as much as Mr. Shays or you and the State 
of Washington. But I can honestly tell you as a manager of 
lands, from a holistic approach, I would put my management of 
land up against Mr. Shays' management of lands any day. So 
there is a level of knowledge that needs to go into the 
holistic approach. A holistic approach will tell you there are 
going to be areas of intensive use. That would be a campground.
    In my case of the ranch, it would be a corral. Then you 
have areas where you want to have healthy wildlife. So you set 
aside certain land for healthy wildlife. Then you want to have 
areas where you can allow hunting, nonmotorized. You can walk 
in and hunt. And you may need to build something, and you may 
need a chain saw to do it. But you are not destroying the 
property. And then you need to make a living as well. That is a 
holistic approach.
    If you look at the Blackfoot Challenge, it is a group of 
people that have national and local interests, Wildlife 
Federation, Wilderness Society, a lumber company and other 
users, back country horseman who bring their collective 
knowledge from their perspective and sometimes their own 
extreme to make a better management decision on how to manage 
the land base. And so somebody sitting in Seattle, Washington, 
in a high rise I would not put in charge of my ranch because 
they wouldn't know how to protect the wildlife; they wouldn't 
know how to protect the trees. And So we look at the resources 
at the local level for their knowledge base.
    Mr. Inslee. Let us be honest. You wouldn't do it just 
because you are a husky. That is the real reason.
    Mr. Rehberg. You actually do have some good land managers 
out there, but most of them are within the timber.
    Mr. Inslee. I appreciate your answer. And what I hear you 
saying is that you certainly have skill levels, knowledge-based 
levels that are extraordinary to the people who are close, who 
live close to the area. But I guess what I want to, hope I can 
elicit to you an agreement that each of our constituents have 
equal interests in the land that we are talking about and equal 
rights to express their concerns and their value system, too. 
Because, frankly, we do represent--we do represent constituents 
with different sort of goals for this mutual----
    Mr. Rehberg. Mr. Inslee, you will never hear me question 
your motives or your desire to do something within the State of 
Montana. And I would hope that you wouldn't as well. I will 
always look to Mrs. Maloney for her recommendations on ground 
zero and what is happening in New York, but I would hope that 
she would afford me the same respect of my knowledge of the 
State of Montana. And therein lies the rub.
    If you look at the Blackfoot Challenge, which many of the 
decisions have been made at the Federal level because we have 
come back and asked to purchase land from Plum Creek and the 
other companies, you have looked to our special expertise or 
knowledge. So, no, I will never question anybody in the State 
of Washington or Connecticut's motives. But what I will 
question is, is it in the best interest of the forest? Are we 
protecting our wildlife? Are we protecting our trees? Are we 
protecting the grasses? Under-grazed grass kills grass every 
bit as dead as overgrazed grass. Under-thinning timber kills 
trees every bit as much as over-logging. And there is a balance 
that can be struck----
    Mr. Inslee. If I can, just let me ask you kind of a shorter 
question. If you have a guy sitting in, you know, Yacolt, 
Washington, and a guy sitting in Helena, Montana, and one of 
them wants the National Forest for timber production and one of 
them wants them for clean water and recreation, do you see 
either of them having a leg up on their druthers?
    Mr. Rehberg. They shouldn't. And in fact, in Montana, I 
created what is called the Consensus Council. We used to call 
it the Office of Dispute Resolution. But we didn't want to 
resolve disputes. We wanted to get in and try to solve them 
before they became disputes. So we set it up in the Governor's 
Office when I was Lieutenant Governor. We had a director. And 
it was called a Consensus Council rather than digging in the 
corners between the lumber company and the environmentalists 
and then suing our way back out, which is fruitless; it is 
pointless; it is stupid. Why not try and find the areas we can 
agree? It is called consensus.
    That is what the Blackfoot Challenge is. And that is what 
we are attempting to go through with the Beaverhead-Deerlodge 
right now. This is not a consensus process. This is just 
throwing a map out there and saying, for all intents and 
purposes, we are going to set this aside without using our 
ability to sit down and work out the agreement. Look at the map 
I handed you, and you will see that the Wilderness Society, the 
Wildlife Federation have come to the table to work with the 
other side. And that is what we want to get to in land 
management. I hope we have moved beyond the 1970s, 1980s and 
1990s, when we had the problems.
    Mr. Inslee. Thank you, Mr. Chair.
    Mr. Grijalva. Once again, I thank my colleagues for your 
testimony and comments and--did you have additional questions?
    Mr. Bishop. I have just one last postscript.
    Mr. Shays, I am going to take you up on that offer to 
discuss things here. Well, actually, two things. The first one 
is, as you redo the spill or rework it, the redesignation will 
take away mechanical thinning and roadless access, some fire 
suppression. You do have to have a new plan that you come up 
with. But I will take you up on that offer to talk about these 
things primarily because there is another issue at another 
time, which means the 13 of the 15 States that have the most 
difficult time in funding their education happen to be land-
managed States, public States in the west. I think there is a 
one-to-one correlation with why my kids are being harmed in 
their education. So we will have to talk about those things. 
But the first issue will be not necessarily what we want but 
what I think the Constitution allows us to do. And I appreciate 
that opportunity. We will take you up on it.
    Mr. Shays. Could I just make a friendly comment? One, I 
would like to take you up on your invitation to see this area 
through your eyes. So I would love to be able to come. And, 
second, I appreciate your willingness to talk intelligently 
about this bill. I think this bill may not move forward or it 
may move forward in a very different state than it is in now. 
And I also recognize it will be shaped by this committee which 
predominantly is manned and womaned by people who are closer to 
this area.
    Mr. Bishop. Thank you, both of you, for being here this 
evening. Actually, all three of you.
    Mr. Grijalva. Thank you a lot and thank you for the 
postscript. My little postscript is this: It may be very 
simplistic. It is that, as we talked about the differences 
between eastern and western and being from Arizona or a western 
State, one of the advantages that we have in the west is policy 
hindsight that--I don't think it was extortion when we became a 
State. It was the wise hindsight to say we are going to set 
some land aside, look at places like the Grand Canyon, look at 
those--look at those special places and set them aside. And so, 
as we look at this legislation, I think we need to also look at 
it through that prism and say, we are also talking about policy 
hindsight that maybe what didn't occur in the east, we are 
fortunate did occur in the west. With that, thank you very 
much.
    Mr. Shays. Thank you very much, Mr. Chairman.
    Mr. Grijalva. We call the next panel up, please. Thank you 
very much, gentlemen.
    Mr. Grijalva. And let me begin with Mr. Holtrop, Deputy 
Chief of the National Forest System, USDA Forest Service.
    Sir?

           STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, 
          NATIONAL FOREST SYSTEM, USDA FOREST SERVICE

    Mr. Holtrop. Mr. Chairman and members of the Subcommittee, 
I appreciate the opportunity to appear before you today to 
provide the department's view on the Northern Rockies Ecosystem 
Protection Act. The Department of Agriculture opposes----
    Mr. Grijalva. If I may, sir, just to interrupt you for a 
second. And excuse my lack of courtesy, if any of our 
colleagues--Ms. Maloney--would wish to join us at the dais, 
please do, and be a part of this deliberation. I apologize for 
not bringing that up earlier.
    Sir, I am sorry for the interruption.
    Mr. Holtrop. No problem. So I appreciate the opportunity to 
appear before you today. The Department of Agriculture opposes 
H.R. 1975. There is current State-by-State work already being 
accomplished to achieve the objectives of H.R. 1975. We have 
testified in support of numerous specific wilderness area and 
wild and scenic river designations in the current Congress. Our 
planning process includes criteria for evaluating public lands 
for designation as wilderness and for identifying areas for 
specific management emphasis, such as for restoration and 
recovery, or habitat connectivity. Collaboration involves all 
interested parties who can assist us in finding balanced 
solutions to competing demands for natural resources. H.R. 1975 
removes the collaborative public involvement process used in 
our land and resource management planning activities. H.R. 1975 
would restrict the Secretary of Agriculture's management of 
significant portions of the renewable resources of the northern 
rocky mountains. There are currently 35 million acres and 418 
Forest Service administered wilderness areas across the 
country. The wilderness designations in Title I and II of the 
bill would increase that amount significantly.
    H.R. 1975 proposes designation of some areas that are 
consistent with our forest plan recommendations and others that 
are not. There are 101 designated wild and scenic rivers 
already being managed in our current system with more being 
analyzed each year. Removing the analysis of suitability for 
designation prior to designation of wild and scenic rivers 
under the bill would be likely to create issues with private 
property owners, mining claimants, timber companies, State 
resource agencies in relation to hunting access and 
opportunities and permittees whose livelihood may depend on 
their use of national forests.
    We believe our process of ecosystem management is working 
toward the same benefits as this bill without the adverse 
impacts, such as designating large areas without public input. 
Also, our planning process considers these issues for areas on 
a forest-by-forest or State-by-State basis and is superior to 
the approach provided by H.R. 1975. Our planning process 
involves the public in determining the variety of issues 
related to a potential designation.
    Researching these specific issues identified through public 
involvement helps ensure the best use of our natural resources. 
I want to conclude by expressing again how much I personally, 
the Forest Service and the American people, cherish their 
National Forest and grasslands. We have supported the 
designation of appropriate wilderness and am proud of our 
heritage of leading that concept. We have been pleased to 
support the designation of appropriate additional wild and 
scenic rivers. We recognize the importance of biological 
corridors and the value of ecosystem restoration. So many of 
the objectives of H.R. 1975 are consistent to values important 
to us. But this bill goes about this in the wrong way, through 
the lack of collaborative public involvement and the lack of 
full consideration of all the impacts.
    This concludes my prepared statement, and I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Holtrop follows:]

Statement of Joel Holtrop, Deputy Chief for the National Forest System, 
          U.S. Forest Service, U.S. Department of Agriculture

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to provide the Department's view 
on the Northern Rockies Ecosystem Protection Act.
    The Department of Agriculture opposes H.R. 1975.
    Title I of H.R. 1975 would add approximately 19,360,630 acres to 
the existing National Wilderness Preservation System in the states of 
Idaho, Montana, Oregon, Washington and Wyoming. Title II of the bill 
would designate approximately 8,471,252 acres as ``biological 
connecting corridors'', with some acres designated as wilderness and 
others subject to special corridor management requirements under title 
II. Title III would designate approximately 2,000 miles of rivers in 
Idaho, Montana, and Wyoming as wild, scenic or recreational under the 
Wild and Scenic Rivers Act across the 5 states.
    Title IV of H.R. 1975 would also designate approximately 1,022,769 
acres as wildland recovery areas and components of a National Wildland 
Recovery and Restoration System. Title IV would establish a National 
Wildland Recovery Corps to develop a wildland recovery plan for each 
area of the Recovery System and evaluate the success of the recovery 
efforts.
    Title V of H.R. 1975 require the Secretaries of Agriculture and the 
Interior to establish an interagency team to monitor, evaluate, and 
make recommendations to ensure long-term results required by the bill. 
Title V would require the team to develop a Geographic Information 
System for monitoring the Northern Rockies Bioregion and to assess the 
potential for facilitating wildlife movements across major highways and 
rail lines in the biological corridors established under title II of 
the bill.
    Title V would also require a panel of independent scientists to 
evaluate and make management recommendations regarding National Forest 
System roadless areas located in Idaho, Montana, Oregon, Washington and 
Wyoming that are greater than 1,000 acres and that are not designated 
as wilderness.
    Under title V, Native Americans would continue to be provided non-
exclusive access to protected areas under the bill for traditional 
cultural and religious purposes. Cooperative management agreements 
would be entered into with Indian tribes to assure protection of 
religious, burial and gathering sites and to work cooperatively on the 
management of all uses that impact Indian lands and people.
    Title VI states that water rights secured by the United States in 
Idaho, Montana, Oregon, Wyoming or Washington would not be relinquished 
or reduced by the bill.
    There is current state-by-state work already being accomplished to 
achieve many of the objectives of H.R. 1975. We have testified in 
support of numerous specific Wilderness Area and Wild and Scenic River 
designations in the current Congress. Our planning process includes 
criteria for evaluating public lands for designation as wilderness and 
for identifying areas for specific management emphasis, such as for 
restoration and recovery, or habitat connectivity. Collaboration 
involves all interested parties who can assist us in finding balanced 
solutions to competing demands for natural resources. H.R. 1975 removes 
the collaborative public involvement process used in our land and 
resource management planning activities which creates two different 
processes for wilderness designation, one for National Forest System 
lands within the bill, and another for all other National Forest System 
lands.
    H.R. 1975 would restrict the Secretary of Agriculture's management 
of significant portions of the renewable resources of the Northern 
Rocky Mountains. There are currently 35 million acres in 418 Forest 
Service-administered wilderness areas across the country. The 
wilderness designations in titles I and II of the bill would increase 
that amount significantly. H.R. 1975 proposes designation of some areas 
that are consistent with our forest plan recommendations and others 
that are not.
    There are 101 designated Wild and Scenic Rivers already being 
managed in our current system, with more being analyzed each year. 
Removing the analysis of suitability for designation prior to 
designation of Wild and Scenic Rivers under the bill would be likely to 
create issues with private property owners, mining-claimants, timber 
companies, State resource agencies in relation to hunting access and 
opportunities, and permittees whose livelihood may depend on their use 
of National Forests.
    H.R. 1975 does address Native American issues (uses, access, 
cooperative agreements, water rights, and treaty rights); however, 
issues such as the need for motorized access related to Native 
Americans' need to visit their heritage areas are not mentioned. 
Additionally, with new wilderness designations, there would be 
potential for increased recreational use by the public to areas of 
great Native American cultural significance, which should be considered 
on a case-by-case basis to protect these sites.
    Many wildlife species benefit from providing large connected 
patches of habitat within and across landscapes, which H.R. 1975 seeks 
to accomplish. However, H.R. 1975 creates new categories of land 
management (i.e., biological connecting corridors and special corridor 
management areas. The Forest Service has no experience with these new 
categories, and there may be unknown but significant impacts on the 
duties of the agency.
    Also, without further and substantial examination by the agency, we 
cannot determine whether the actual land areas identified in H.R. 1975, 
those that would be converted from multiple use to wilderness 
designation, will meet the management and recovery goals for threatened 
and endangered species, and for other wildlife the agency is 
responsible for conserving. In addition, excluding management 
activities from large expanses of upland habitat in the Northern 
Rockies will not benefit many species that evolved in habitats 
sustained by periodic (and sometimes frequent) disturbances. Finally, 
the grizzly bear, gray wolf and bald eagle are just three (of the 
hundreds) of species the agency is responsible for conserving in the 
Northern Rockies. In 2007, the bald eagle was delisted nationwide, the 
Yellowstone grizzly bear population was delisted, and the population of 
gray wolves has steadily increased. The current configuration, use 
designation, and management of National Forest System lands in the 
Northern Rockies have contributed in part to these successes.
    We have additional concerns, such as:
    <bullet>  Livestock grazing. Livestock grazing is not addressed in 
H.R. 1975. A large amount of land identified by this Act could impact 
permitted livestock grazing.
    <bullet>  Mining and oil and gas development. These activities are 
not addressed in H.R. 1975. Current mining claimants and oil and gas 
companies with permits to explore and drill could be impacted.
    <bullet>  Implementing titles II, IV, and V of H.R. 1975 would 
require a shift in management of our National Forests, redirecting 
Forest Service funding to the Northern Rockies at the expense of other 
Regions whose ecosystems are just as biologically diverse and important 
to the nation. Also, surveying new administrative boundaries for areas 
that would be designated as wilderness under the bill would redirect 
millions of dollars.
    <bullet>  There is potential for private in-holdings to be created 
by the bill. Enacting wilderness designations under H.R. 1975 could 
create numerous land acquisition issues that could take many years to 
be resolved.
    We believe our process of ecosystem management is working towards 
the same benefits as this bill, without the adverse impacts such as 
designating large areas without public input. Also, our planning 
process considers these issues for areas on a forest-by-forest or 
state-by-state basis and is superior to the approach provided by H.R. 
1975. Our planning process involves the public in determining the 
variety of issues related to a potential designation. Researching these 
specific issues identified through public involvement helps insure the 
best use of our natural resources.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me now turn to Mr. Bisson, 
Deputy Director, Bureau of Land Management.
    Sir?

          STATEMENT OF HENRI BISSON, DEPUTY DIRECTOR, 
                   BUREAU OF LAND MANAGEMENT

    Mr. Bisson. Thank you, Chairman Grijalva and Mr. Bishop. It 
is nice to see you again, sir. And I appreciate this 
opportunity to testify on H.R. 1975, the Northern Rockies 
Ecosystem Protection Act. We believe that this broad brush 
approach to wilderness designation lacks the local input and 
consensus building that were essential ingredients in previous 
wilderness bills supported by this administration.
    Consequently, the Department of the Interior opposes H.R. 
1975. H.R. 1975 is a wide-ranging bill that, according to its 
sponsors, designates approximately 23 million acres of land as 
wilderness and as biological corridors. The bill also 
designates wild and scenic rivers. It proposes such 
designations on lands managed by the Bureau of Land Management, 
the National Park Service and the U.S. Forest Service in 
Washington, Oregon, Idaho, Montana and Wyoming. In areas either 
wholly or partially managed by the BLM, the bill appears to 
designate 40 wilderness areas, two wild and scenic rivers, as 
well as 22 biological corridors. It also appears to designate 
wilderness areas in three national parks, Glacier, Yellowstone 
and Grand Teton. The National Park Service areas appear to be 
the same as those previously studied and found suitable and 
recommended for wilderness designation in the 1970s. The vast 
majority of lands proposed for designation under this act are 
managed by the Forest Service, and we defer to the Forest 
Service on these provisions in the bill. The administration has 
supported a number of wilderness bills that the Congress has 
passed.
    During the 109th Congress alone, over half a million acres 
of wilderness were designated on BLM managed lands in 
California, Utah and Nevada, which supported the efforts of 
delegations in those States to reach legislative solutions by 
working toward consensus and compromise through local, State 
and Federal input that takes into consideration the needs and 
concerns of the various stakeholders and interest groups that 
are impacted by wilderness designation. H.R. 1975 does not show 
the same spirit of consensus and compromise that has resulted 
in previously successful wilderness bills. It is not the result 
of a local collaborative effort undertaken by the congressional 
delegations of the affected States.
    Those proposals that have reached fruition over the last 
decade have been more limited in scope, spanning a county, a 
congressional district or a single wilderness area. We believe 
a collaborative process is essential for success. While only 
Congress can determine whether to designate wilderness study 
areas as wilderness or release them for other multiple use 
purposes, we support the resolution of WSA issues and stand 
ready to work with Members of Congress toward solutions. Thank 
you for the opportunity to testify. I will be happy to answer 
any questions.
    [The prepared statement of Mr. Bisson follows:]

Statement of Henri Bisson, Deputy Director, Bureau of Land Management, 
                    U.S. Department of the Interior

    Thank you for inviting me to testify on H.R. 1975, the Northern 
Rockies Ecosystem Protection Act (NREPA). We believe that this broad 
brush approach to wilderness designation lacks the local input and 
consensus-building that were essential ingredients in previous 
wilderness bills supported by this Administration. Consequently, the 
Department of the Interior opposes H.R. 1975.
    H.R. 1975 is a wide-ranging bill that, according to its sponsors, 
designates approximately 23 million acres of land as wilderness and as 
biological corridors. The bill also designates wild and scenic rivers. 
It proposes such designations on lands managed by the Bureau of Land 
Management (BLM), the National Park Service, and the U.S. Forest 
Service (Forest Service) in Washington, Oregon, Idaho, Montana and 
Wyoming. While the impact of the bill is potentially vast, it is 
difficult to find specific information on the areas proposed for 
designation. We have only been able to find a single overview map of 
the areas with no exact details on the boundaries of the parcels 
proposed for designation.
    From the overview map, in areas either wholly or partially managed 
by the BLM, the bill appears to designate 40 wilderness areas, two wild 
and scenic rivers, as well as 22 biological corridors, a new concept 
with which we have some concerns as described later in the testimony. 
It also appears to designate wilderness areas in three national parks--
Glacier National Park, Yellowstone National Park, and Grand Teton 
National Park. The areas appear to be the same as those previously 
studied, found suitable, and recommended for wilderness designation in 
the 1970's. The vast majority of lands proposed for designation under 
H.R. 1975 are managed by the Forest Service. We defer to Forest Service 
on these provisions in the bill.
    This Administration has supported a number of wilderness bills that 
the Congress has passed. During the 109th Congress alone, over half a 
million acres of wilderness have been designated on BLM-managed lands 
in California, Utah and Nevada. We supported the efforts of delegations 
in those states to reach legislative solutions by working toward 
consensus and compromise through local, state, and Federal input that 
takes into consideration the needs and concerns of the various 
stakeholders and interest groups that are impacted by wilderness 
designation.
    H.R. 1975 does not show the same spirit of consensus and compromise 
that has resulted in previously successful wilderness bills. It is not 
the result of a local collaborative effort undertaken by the 
Congressional delegations of the affected states. Those proposals that 
have reached fruition over the last decade have been more limited in 
scope, spanning a county, a Congressional District, or a single 
wilderness area. We believe a collaborative process is essential for 
success.
    We also are extremely concerned that H.R. 1975 introduces a new 
concept of designating biological connecting corridors as units of the 
National Wilderness Preservation System, as well as special corridor 
management areas with wilderness-like management. These provisions 
would introduce a significant new element to designations under the 
1964 Wilderness Act, and we would be cautious about such a revision 
without more considered debate. Moreover, we are unclear as to the need 
for this new designation. Where protections are necessary for wildlife 
corridors, we recommend using existing designations and administrative 
tools, rather than creating a novel designation whose scope and 
interpretation are as yet unclear.
    We support the resolution of wilderness designations throughout the 
West. Some of the areas proposed for designation could bring about a 
consensus, and we are generally aware that there are some areas 
included in the bill (depending on specific boundaries) that we could 
support. At the same time, we understand that other proposed 
designations would result in resource conflicts or pose serious 
management challenges. For example, it appears that oil and gas 
production currently exists on some of the BLM-managed lands proposed 
for wilderness designation under H.R. 1975, and well-used vehicle 
corridors crisscross others.
    While only Congress can determine whether to designate Wilderness 
Study Areas (WSAs) as wilderness or release them for other multiple 
uses, we support the resolution of WSA issues and stand ready to work 
with Members of Congress toward solutions. There are currently a number 
of efforts throughout the West by Members of Congress working 
collaboratively with local and national interests to reach consensus on 
wilderness proposals. We will continue to support this approach. 
Unfortunately, H.R. 1975 does not meet this basic test and, therefore, 
the Department opposes its enactment.
    Thank you for the opportunity to testify. I will be happy to answer 
any questions.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Let me just--some general questions.
    Mr. Holtrop, you mentioned in the testimony that the Forest 
Service opposes H.R. 1975 because you believe that the current 
forest planning process is superior and involves the public. My 
question is this: If this planning process is indeed superior, 
then explain to the committee why the 2005 planning rule was 
enjoined in Federal court March 30, 2007, when the court ruled 
that the Forest Service had violated NREPA, an essential part 
of that public process.
    Mr. Holtrop. The planning processes that were involved 
include more than just the forest management planning process 
that you are referring to. But addressing specifically the 
forest management planning process, most of the forest plans 
that are associated with this area were those forest plans and 
revisions, and perhaps all of them were accomplished under the 
planning rule that was promulgated in 1982. And we are 
currently working on our response to the issues that were 
raised in 2005 with our work on the planning rule. The main 
emphasis of our work on our planning rule is trying to again 
improve our ability to have public involvement in that process. 
That is the objective of the work on our planning rule as well 
as making sure it is a scientifically based approach.
    Mr. Grijalva. Thank you for dealing with that 
contradiction.
    On page 3, I think that you state that H.R. 1975 would 
convert lands from multiple use to wilderness designation. You 
are aware that the Multiple-Use Sustained-Yield Act clearly 
states that wilderness is consistent with multiple use.
    Mr. Holtrop. Of course, like my testimony also states, we 
are proud of our support for wilderness designation within the 
whole suite of activities that the National Forest need to be 
managed for. Wilderness is one of them, as well as other 
multiple uses that would not be allowed within the wilderness 
designation.
    Mr. Grijalva. And utilizing your expertise, does the 
Wilderness Act give the Forest Service the necessary authority 
to take such measures that may be necessary to control fires, 
insects, disease?
    Mr. Holtrop. I would like to answer that in two ways. One 
way I would like to answer it is, when there is an actual fire 
emergency occurring, the Wilderness Act and our rules and 
regulations do allow us to make exceptions to wilderness in 
order to effectively fight fire. However, we do consider 
wilderness to be a serious matter, and we don't just cavalierly 
make those types of decisions when we are fighting fire. We 
fight fire in wilderness taking into full account that it is 
wilderness. Does it give us the authority to make exceptions to 
what would otherwise be allowed in wilderness during fighting 
fires? The answer is yes.
    The second way I would like to answer that question is 
perhaps the most effective thing that we can do and what 
surveys of our wild land firefighters tell us what they 
consider to be the most effective thing that we can do to 
improve their safety is to pretreat these forests prior to the 
forest fires occurring by reducing the density of the forest 
and by improving the forest health. That is a situation in 
which the Wilderness Act would certainly reduce our likelihood 
of being able to do that effectively in much of the area.
    Mr. Grijalva. Thank you.
    For either or both gentlemen, I think both of you mentioned 
concerns about mining and oil and gas development not being 
addressed in H.R. 1975. The Forest Service itself has withdrawn 
a significant portion of the Rocky Mountain Front in Montana 
from oil and gas development. Just for the committee to know, 
what areas of the Northern Rockies do either of you think are 
appropriate for mining and oil and gas development that would 
be withdrawn if H.R. 1975 were enacted? What are those places 
in the Northern Rockies that are prime for this development 
that this legislation affects?
    Mr. Holtrop. Well, I appreciate that question, Mr. 
Chairman, because it gives me an opportunity to mention one of 
the concerns that we had as we were looking at this piece of 
legislation, is we didn't have the type of information in front 
of us, the types of maps in front of us, that we would normally 
have when looking at the designation of wilderness. We don't 
even have all of the information I would need to have to be 
able to effectively answer that question. We have some 
generally defined areas with acreage associated with that. But 
where those lines are and how those lines affect, whether it is 
mining activities or grazing activities or private roads that 
cross public lands for private input.
    Mr. Grijalva. I think, if that information does exist, I 
think the committee would be interested in that overlay of 
those areas that you feel should be withdrawn because of the 
potential--the certainty of development in those areas. So I 
appreciate that.
    Mr. Bisson. Mr. Chairman, could I expand on that for just a 
quick second? We haven't seen specific maps, so we don't know 
exactly which areas could likely be affected. Many of the areas 
proposed for wilderness contain both BLM and Forest Service. 
There is an acreage data, but we haven't seen specific maps on 
each of these areas to be able to come back to you and identify 
where the conflict is. But I can tell you there is one area in 
Montana, the Wales area that includes significant mining 
activity. It is along Yourname Creek. There are 28 unpatented 
mining claims covering 568 acres. There is also two very long 
roads in that area that clearly we feel do not allow that area 
to be qualified as wilderness.
    There is an area in Wyoming called the WSA Badlands area. 
Virtually the entire area is already leased for oil and gas. 
The bill would prevent new leasing, but now you have these 
rights out there for people who will look to develop these 
leases, and virtually, the whole area is already leased. It 
would create a significant conflict. And there are a lot of 
roads in that area as well.
    Mr. Grijalva. Sir, that is the kind of information that we 
would appreciate. One more follow-up if I may, sir. You stated 
in your testimony that Forest Service and BLM have testified in 
support of numerous wilderness designation in the current 
Congress. Can you tell us which ones those were? Because either 
my memory is fading faster than this day--but I can't recall 
any.
    Mr. Bisson. I will speak to the BLM.
    Mr. Grijalva. We are talking about the current Congress; 
right? That is the time frame----
    Mr. Bisson. During the 109th Congress. The BLM has not been 
invited to testify on any wilderness bill during this Congress 
until this one. But during the 109th Congress, we have 
testified and supported five wilderness bills which were 
subsequently passed, as I understand it.
    Mr. Grijalva. Just a matter of current versus----
    Mr. Bisson. Yes, sir.
    Mr. Holtrop. In my case, I have personally testified in 
support of many of the designations in the Virginia Ridge and 
Valley Act on the George Washington and Jefferson National 
Forest as well as the Copper Salmon in Oregon.
    Mr. Grijalva. Just a difference between in----
    Mr. Holtrop. That approach and this approach. Yes, sir.
    Mr. Grijalva. I don't have any questions anymore.
    Mr. Bishop.
    Mr. Bishop. Thank you.
    Mr. Holtrop, I appreciate you and Mr. Bisson coming here. 
Mr. Bisson, I appreciate what you are doing in your current 
job. I congratulate you for all your work there. You really 
should go back to where you were. Selma does a great job for us 
in Utah, but we miss you back there. Let me pick on you first, 
if you would. One of the things that we tried to bring up very 
early on, and it still has not been talked about, deals with 
the water rights. The Federal Reserve Water Right language in 
the Wilderness Act says nothing in this act shall constitute an 
expression or implied claim or denial on the part of the 
Federal Government as to exemption from State water laws. Do 
you believe that section 110 of this particular bill dealing 
with water is in direct conflict with not only the Wilderness 
Act but also the decades of Federal law? And, Mr. Holtrop, you 
can answer that, too. But let me direct that to Henri.
    Mr. Bisson. Mr. Bishop, I guess the way I would respond is, 
we defer to the Congress on this particular issue. But the 
language that is in this bill is exactly like the language that 
was in the California Desert Protection Act that was passed in 
1994. All the wilderness bills since then have been somewhat 
different in their language compared to that. Some of the bills 
have not even had any water rights language in them. But we 
defer to the Congress on the appropriate language, sir.
    Mr. Bishop. OK. Mr. Holtrop, if I could, what effect on the 
prohibition of section 503--I am sorry--What is the effect that 
the prohibition in section 503(b), would this effectively 
freeze all roadless lands that are greater than a thousand 
acres in size in all the national forests in these five States?
    Mr. Holtrop. Well, as we read the bill, the prohibition 
would not allow any new road construction or reconstruction or 
timber harvesting, except for firewood gathering, in any 
roadless area over 1,000 acres in any of the National Forest 
System lands in any of the five States. So stretching from the 
Olympic Peninsula to North and South Dakota.
    Mr. Bishop. Let me stop you. If I heard you right, then it 
would stop any kind of timber harvesting in all of these 
forests in these five States. That would include emergency 
action, like to stop a fire, disease, insect infestation?
    Mr. Holtrop. In areas that are over--in the roadless areas 
over 1,000 acres in size, I think there is some uncertainty as 
to how some of the emergency provisions would apply in those 
circumstances.
    Mr. Bishop. Is it possible if one were to try and expand 
this very broad reading of this language, you could even deal 
with closures of campgrounds or visitor facilities?
    Mr. Holtrop. Well, I think that one would assume that a 
campground and a visitor facility would have roads associated 
with it and therefore would not qualify as roadless under the 
designation here. Although the way the bill is worded, it says 
that all of those areas greater than 1,000 acres would be 
identified by and analyzed by this committee of the National 
Academy of Scientists within 3 years. I think--we are talking 
over 70 million acres of National Forest System lands in these 
five States. A thousand acres is not a size of roadless area 
that we have analyzed before. Roadless analysis has been to 
5,000 acres. A thousand acres is not a very large area in a 70 
million acre expanse of public land.
    I think it would be interesting at least as to what actions 
we would be able to take until even the identification of 
whether an area qualifies as part of the 1,000 acres or not. I 
think there would be some concerns that would be raised at that 
point. But once the 1,000 acre areas are identified, I would 
expect that we would be able to carry on activities outside 
those areas. It is unclear to me as to how much of that would 
exist.
    Mr. Bishop. In my previous question, I cut you off in the 
middle of the answer. Did you get a chance to finish your 
answer on that one?
    Mr. Holtrop. I think I supplemented it. That was the last 
thing I just did.
    Mr. Bishop. Let me just ask one last question then. How 
many of the areas and acres proposed for designation in this 
bill have been identified through the forest planning process 
as meeting the criteria for wilderness?
    Mr. Holtrop. We have not done the analysis to be able to 
answer that question. It would take a considerable amount of 
staff work in order to accomplish that work. I can tell you 
that a quick look at them indicates that some of them have 
qualified and are consistent with recommendations that we have 
made in our forest planning process, and some of them are 
inconsistent with recommendations that we have made. The actual 
assessment of all of them, we have not done that.
    Mr. Bishop. That is a fair enough answer.
    Mr. Chairman, I will also make you a deal. You didn't time 
me on the first panel. And I went way over. So I will make you 
a deal on the next panel. I won't even ask a question to 
compensate for that. And I thank these two.
    Mr. Grijalva. I can't express my gratitude at this point. 
Thank you very--Mr. Sarbanes, I am sorry. Any questions?
    Mr. Sarbanes. Real quick. Just a couple of questions. There 
is something inherently misguided, is there, about a multi-
State designation of a wilderness area with connecting 
biological corridors and so forth in your view?
    Mr. Holtrop. I don't believe there is anything inherently 
misguided about that. I think there are some inherent 
difficulties of doing that in a way that accomplishes the type 
of collaboration that is necessary and to make sure that all of 
the unforeseen circumstances that might apply. And let me 
clarify that just a moment if I could.
    I was a forest supervisor on the Flathead National Forest 
in Northwestern Montana, so much of the area that is associated 
with this. I was the area supervisor there in the 1990s. I am 
familiar with some of the areas that are set aside, for 
example, for ecosystem restoration. What the ecosystem 
restoration tells us that we are to do is to try to restore 
that to a roadless character. Some of those areas that would be 
restored to a roadless character would not--would cut off 
access to large sections of the National Forest far beyond the 
area that is identified as that restoration area. I believe 
those are the types of things that when you look at something 
with a magnitude of this in a multi-State way, I think you lose 
some of the opportunity to catch those types of probably what I 
would assume to be unintended consequences of this bill.
    Mr. Sarbanes. Well, I guess that would mean you would want 
to make sure you had rigorous due diligence involved. But it 
seems like the scope of it is the thing that is getting in the 
way, not the ability to do the--do our homework, if you will, 
to make sure things would work properly. So maybe there is a 
little extra that has to happen. Maybe there is a lot extra 
that has to happen in terms of dotting i's and crossing t's. 
But there is no reason that that can't happen from what I am 
hearing.
    And so, for example, to pick up on your idea about the--the 
following question was asked about being able to fight forest 
fires in these areas that are designated as wilderness areas. 
And there was a question about--I think you introduced on your 
own the notion that pretreatment of some of these forests in 
these wilderness areas would be harder to do or complicated 
more by the fact of the wilderness designation than would 
normally be the case. But certainly it has got to be the case 
now that, in existing wilderness areas that have been 
designated as such, we ought to be looking at all of the 
different methods of making sure that we are combating forest 
fires and so forth. So there is nothing different about what is 
being proposed here, is there, with respect to that issue?
    Mr. Holtrop. Well, the exception I would make to that is, 
in our existing wilderness system, we don't do pretreatment, 
except in maybe some very rare instances. Again, wilderness 
designation is a serious designation. It is a designation where 
there is no mechanized equipment use. There is no travel by 
vehicles to access that wilderness. And we take wilderness 
designations seriously. So we manage wilderness differently 
than we manage nonwilderness on things such as vegetation 
treatment, such as use of mechanized equipment. That is----
    Mr. Sarbanes. I accept that. And I think it goes with the 
designation that, if you manage carefully and differently and 
everything else. But that in and of itself is not a reason not 
to designate something of this--of this size and scope. I have 
no more questions.
    Mr. Grijalva. Thank you.
    Ms. Maloney, do you have questions?
    Thank you very much, gentlemen. We appreciate your 
testimony.
    And let me call the next panel up.
    Mr. Sarbanes. [Presiding] If all the panelists are ready, 
why don't we start with Ms. Carole King? You can begin.

         STATEMENT OF CAROLE KING KLEIN, STANLEY, IDAHO

    Ms. King. Thank you, Mr. Chairman, Ranking Member Bishop 
and other members and the subcommittee. I want to thank you.
    Mr. Sarbanes. Is your mick on?
    Ms. King. You know, this is something I should know. Mr. 
Chairman, Ranking Member Bishop, members of the subcommittee, 
thank you for holding this hearing. And I also want to thank 
Representatives Carolyn Maloney and Christopher Shays for their 
commitment, dedication and perseverance on this important 
national issue.
    This bill will preserve the Northern Rockies ecosystem, 
save taxpayers money and create jobs. That is why grassroots 
activists from all around the country, as well as the NREPA 
states support it. And contrary to what opponents claim, local 
support is strong. The bill was drafted by scientists and 
economists from the region, and I have already submitted a 
list, as Ms. Maloney has, I believe, of local organizations and 
businesses that support it.
    I am a local supporter. I have lived in Idaho for 30 years, 
and I have been working on this legislation for 17 of them. I 
am 65-years old. I am closing in on the elderly that Mr. 
Rehberg referred to. I keep coming to D.C. because the 
grassroots supporters from the region don't have the budget of 
the timber industry or the off-road vehicle manufacturers who 
can afford to send large numbers of protesters here. What 
supporters do have is the science and the economics and the 
will to persist until this bill becomes law.
    No one ever attacks the science or the economics. All they 
do is complain about top-down legislation and easterners 
telling westerners what to do. But it is important to remember 
that these are national lands, and it takes national 
legislation sometimes to accomplish something that is in the 
national interest. For example, if the mayor of New York 
decided to dismantle the statue of liberty and give the crown 
to the Bronx and the torch to Brooklyn and the arm to Staten 
Island, the people of the NREPA states would not only have the 
right but the obligation to protect Lady Liberty and insist 
that she stay intact.
    Some people have said--we were just talking about breaking 
the bill into smaller bills. But we can't do that because it is 
not about political boundaries. It is about science. This is an 
ecosystem bill. And I was kind of surprised that Denny Rehberg 
was opposing NREPA because of the Yellowstone bison hearing. He 
said, Are you going to allow sound science to manage your 
parks, or are you going to let political science manage your 
parks?
    You know, the other thing that was brought out earlier is 
that this bill keeps water at higher elevations until later in 
the season when it is most needed, which affects many more 
States than just the five NREPA States.
    I have a little story. I live among wildlife. A couple of 
weeks ago, I saw a family of Canadian grey wolves--a male, a 
female and two pups--right outside my window. It was unnerving, 
magnificent and a vivid reminder that I am the one that moved 
into their neighborhood.
    So the thing is, we have to coexist with wildlife. We 
cannot keep pushing them into smaller and smaller areas. The 
biological corridors in this bill give these animals the room 
to move and diversify. There are also psychological benefits of 
what this bill is going to do. You can have the same experience 
in wilderness today that you might have had centuries ago. 
Wilderness is like stopping time. And we need, in today's 
stressful world, to preserve places where we can stop time.
    As for global warming, which is an important issue, NREPA's 
biological corridors allow the species to move to cooler 
climates. And I just learned recently the term carbon sink; 
that is a place where carbon is absorbed and stored. A large 
carbon sink can slow global warming. When you look at this map 
and you see all that green, you are looking at a large carbon 
sink. How can you not protect that?
    There are many ways to misuse public land. Calling them 
wise-use doesn't make them wise. Words have power. It is 
interesting how often vehicle proponents have co-opted the word 
recreation. The recreation community is now widely understood 
to mean motorized users, trail users. But other uses qualify as 
recreation, and all these other uses will be allowed in these 
areas that they say are being locked up. They are not locked 
up. Hunters, anglers, hikers, skiers, people on horseback, all 
will be able to recreate in the NREPA wilderness.
    I do both, motorized and nonmotorized. Motorized has over 
80 percent of public land to ride around on. Motorized doesn't 
need to ride everywhere. You wouldn't ride a four-wheeler down 
the aisle of a church. Wilderness is kind of like a church. It 
keeps God's creations pretty much as God made them. We need to 
respect that.
    We also need to understand that the lands that are going to 
be newly designated wilderness are not really changing what 
they are. They are just changing their designation. 
Economically, in my county, Custer County, Idaho, last year 
anglers spent roughly $28 million. I think local officials act 
against interests if they fail to make the connection between 
wild and scenic rivers, in this bill, a healthy population of 
fish and $28 million a year.
    I want to say something to my conservation colleagues who 
have lost heart in recent years. Today is a great day. The 
Northern Rockies ecosystem is having a hearing. Let this bill 
embolden and energize you to pursue solutions that are true to 
the principles of why you got into this work in the first 
place.
    And, Mr. Chairman and members, I ask you to give these 
people the inspiration of success by your passage of this bill. 
Remind them that when Americans aim high, we touch the stars. 
Thoughtful men set these lands aside and preserved them for us, 
and now it is your turn. Pass NREPA and protect this ecosystem 
for future generations. It is a legacy worthy of your great 
grandchildren. Thank you.
    [The prepared statement of Ms. King follows:]

             Statement of Carole King Klein, Stanley, Idaho

    Chairman Grijalva and members of the Subcommittee:
    I appreciate the invitation to submit testimony regarding H.R. 
1975, and I sincerely hope you'll read it personally.
    Nearly twenty years ago a group of well-respected scientists 
consulted with economists and drafted a proposal that would
    <bullet>  protect the Northern Rockies as an integrated, intact 
ecosystem;
    <bullet>  save the taxpayers roughly $245 million dollars the first 
ten years after passage;
    <bullet>  and create jobs in the region.
    They called it the Northern Rockies Ecosystem Protection Act 
(NREPA). Its acronym is pronounced Ner-EE-pa.
    I turned 65 this year. I've lived in Idaho for 30 years. That's 
longer than I've lived anywhere else. I've spent the last 17 of them 
working to pass NREPA. My four children are grown now. I have four 
grandchildren.
    Over the years I've met with grass-roots citizens from the affected 
states who've been working tirelessly for NREPA's passage and defending 
areas within it against constant pressure from industrial interests and 
developers.
    I'm thinking of
    <bullet>  the octogenarian Stewart Brandborg, who was actively 
involved in the successful effort to pass the Wilderness Act of 1964;
    <bullet>  Arlene Montgomery, Steve Kelly, and other Friends of the 
Wild Swan in Montana;
    <bullet>  Dave and Kathy Richmond, my neighbors downstream who work 
to protect wildlife and habitat in the mountains along Idaho's Salmon 
River;
    <bullet>  Howie Wolke, the outfitter who introduced me to Mike 
Bader, whose vision for an ecosystem bill was the seed from which NREPA 
grew;
    <bullet>  Mike Garrity and Gary Macfarlane, whose extensive 
knowledge about the legislation informs all of us;
    <bullet>  members of Friends of the Clearwater in Idaho; Alliance 
for the Wild Rockies in Montana; the Lands Council in Washington; Hells 
Canyon Preservation Council in Oregon, Wyoming Wilderness Association, 
and other groups representing a broad array of citizens in all five of 
the affected states who support NREPA; Exhibit 1--organization support 
list
    <bullet>  business owners who know that the right thing for the 
bioregion is also the right thing for the region's economy. Exhibit 2--
business support list
    But NREPA supporters don't come just from the five states. They 
come from around the country, from all walks of life, including but not 
limited to
    <bullet>  religious leaders;
    <bullet>  teachers;
    <bullet>  schoolchildren who collect pennies to pay for NREPA 
brochures and other materials;
    <bullet>  taxpayers who are tired of subsidizing the timber 
industry with their tax dollars;
    <bullet>  farmers, ranchers, outfitters, guides, photographers, 
hikers, hunters, anglers, and others who will benefit from the passage 
of NREPA;
    <bullet>  and a former president.
    When Marilyn Bruya (an artist and now-retired professor) wrote to 
Jimmy Carter to ask for his support of NREPA, President Carter sent her 
letter back with a note on it in his handwriting saying:
    To Marilyn Bruya ``You may include me among the supporters of 
NREPA. Jimmy C.
        Exhibit 3--Bruya letter with Carter note
        President Carter subsequently wrote a more formal letter of 
        support, saying:
        ``NREPA heralds a new era in public lands management, based 
        upon securing the integrity of the ecosystem in a biologically 
        and economically sustainable way. NREPA is also cost-effective 
        legislation. It will eliminate the practice of below-cost 
        timber sales that have burdened taxpayers to the tune of 
        hundreds of millions of dollars.
        ``NREPA has the strong support of the American People, who own 
        these public lands. At a time when only 5% of America's 
        original pristine forests still remain, it is our duty and 
        obligation to protect and restore these national treasures as 
        we have enjoyed them and been sustained by them physically, 
        mentally, and spiritually.''
    The italics are mine, as is this note:
        The number of America's original pristine forests is now down 
        to 3%.
    Opponents downplay local support and complain about ``top down'' 
legislation. But I was there when NREPA's lead sponsors visited the 
region. They were welcomed by local supporters who thanked them for 
their leadership in introducing this national-interest legislation that 
will also benefit local communities.
        ``If we keep waiting for our own representatives to save the 
        Northern Rockies,'' said a resident of one of the affected 
        states, ``it'll never happen.''
        ``He's right,'' said another. ``We can't afford to wait.''
    Mr. Chairman and members, I wish each and every one of you could 
see the vast, wild, unspoiled country out there. I wish every one of 
you could meet the supporters of NREPA. They're why I keep coming back 
to Capitol Hill every few months to convey their unshakable 
determination to protect that wild country and ensure the survival and 
biological diversity of every creature in the Northern Rockies, from 
the tiniest birds and mosquitoes--yes, even the mosquitoes!--to bull 
trout, wild salmon, grizzly, and caribou. I come and speak on behalf of 
ranchers and farmers who know that NREPA will protect headwaters and 
keep water at higher elevations for use later in the season when it's 
most needed.
    My neighbors in the greater Northern Rockies ecosystem live among 
bears, badgers, bunnies, beavers, otters, deer, elk, and moose. People 
who grew up there may take those things for granted but I don't. I grew 
up in New York, and the sheer size of the landscape and the wildlife it 
sustains are a constant wonder to me. They've informed my life and my 
songs, and in return I made a commitment to make sure we don't lose 
them.
    When I first moved to Custer County in 1981, the creeks were orange 
with kokanee salmon. I haven't seen that many kokanee for a long time. 
In the winter months I snowshoe and ski on trails with wolf paw prints 
the size of a grapefruit. A couple of weeks ago I awoke to see a family 
of Canadian gray wolves less than 50 feet from my home: a male, a 
female and two pups. It was unnerving but magnificent--and a vivid 
reminder that I'm the one who moved into their neighborhood. My dog 
barked from a safe distance (where she prudently stayed.) I hoped her 
barking would encourage the wolves to move to a quieter and more 
distant location, which they did. The next morning I found a yearling 
elk in the upper meadow that the wolves had killed in a lupine version 
of grocery shopping.
    The wolves could have hurt me or my dog, but they didn't. I could 
have hurt them, but I didn't. And so we co-exist.
    Why shouldn't we protect places of sufficient size and ecological 
function where humankind can co-exist with wildlife? Why do some people 
object to legislation that allows wildlife to roam great distances 
without roads or motors? Why is it necessary for humankind to build 
roads everywhere?
    Opponents of NREPA offer reasonable-sounding answers to these 
questions, but if you look behind the curtain you're likely to find 
industrial interests and developers who do not want to lose their 
taxpayer-subsidized benefits.
    I find it interesting that advocates for off-road vehicle use say 
``lock up'' when they talk about wilderness and ``lock in'' when they 
talk about off-road vehicle trails. And they have co-opted the word 
``recreation.'' ``The recreation community'' is widely understood these 
days to mean motorized trail users.
    But use doesn't have to be motorized to qualify as ``recreation.'' 
Hunters, anglers, hikers, skiers, people on horseback and other non-
motorized users will still be able to enjoy their preferred method of 
recreation in NREPA's designated wilderness areas with respect and 
minimal impact without fear of being interrupted by the sound of a 
motor. If we don't protect the Northern Rockies ecosystem against such 
incursions, then motorized wilderness--an oxymoron, to be sure--will be 
the only kind of wilderness we'll have left.
    NREPA comprises the largest area in the lower 48 where we can still 
preserve enough land to support a diverse range of wildlife. A 
protected Northern Rockies ecosystem with biological corridors will 
provide the room and maneuverability they need. Surely God's creatures 
have as much right to be there as we do.
    In addition to the biological benefits, there are psychological 
benefits. Vast, wild places replenish the human spirit and give us 
sanctuary from an increasingly stressful world.
    Experiences in the wild bring families together. They connect 
family members to each other and to the Creator of the natural 
environment around them. What they are experiencing in wilderness is 
not much different than what they might have experienced centuries ago. 
NREPA's passage will ensure that those same experiences are still there 
for you and your grandchildren. Wilderness is like stopping time. We 
need more places where we can stop time.
    One day on a hike I was carrying my grandson in a backpack. As I 
watched him touch the rough bark of an old fir tree I could feel him 
absorbing his grandmother's love for the wild forest, just as trees 
absorb carbon dioxide from the atmosphere and give us back oxygen.
    As rising levels of carbon dioxide in the atmosphere play a crucial 
role in climate change, NREPA is a science-based solution that even a 
third-grader can understand. Trees turn carbon dioxide into oxygen. 
Large connected ecosystems full of old growth forests like those in the 
Northern Rockies absorb and store carbon. Scientists call this a 
``carbon sink.'' By protecting the Northern Rockies ecosystem, NREPA 
will significantly slow global warming and benefit the entire world.
    A little NREPA history: when I first came to Capitol Hill in 1990 
to meet with Members of Congress about NREPA, few people even knew what 
an ecosystem was. I was with a group of five men from Idaho, Montana, 
and Oregon who, in their suits, ties, and dress shoes, were clearly not 
in their natural habitat, but if that's what it took to sit down with 
folks on Capitol Hill, they were willing to fly to DC and put on their 
town-goin' clothes.
    Members and staff were kind enough to meet with us, but no one took 
the bill seriously. It was like that cartoon, where these little shmoo-
like figures are rolling around on the floor laughing, and the caption 
is, ``You want it when???''
    For years we've heard the question ``How are you going to get the 
bill through Congress?'' Now we're hearing ``How are you going to get 
President Bush to sign it?''
    Mr. Chairman and members of the subcommittee: give us the chance to 
persuade President Bush to sign NREPA, and we'll let you know how we 
did it.
    Back to NREPA history: in 1991, Rep. Peter Kostmayer was NREPA's 
first lead sponsor.
    In 1993, Rep. Carolyn Maloney took the lead and made a commitment 
not only to introduce NREPA, but to work hard for its passage.
    In 1994, Chairman Bruce Vento held a hearing on NREPA before the 
Subcommittee on National Parks and Public Lands. There were no 
objections to the science, the economics, or the creation of jobs. The 
only objections were from westerners complaining about easterners 
telling them what to do. When Mrs. Maloney reminded members that the 
lands in question were (and still are) owned by all Americans, the 
objections got more vociferous and more personal. But there were still 
no objections to the science, the economics, or the creation of jobs.
    In 1995, Rep. Christopher Shays joined Mrs. Maloney in advocating 
for NREPA. The bill grew to include as many as 187 bipartisan 
cosponsors in addition to Mr. Shays. Among its cosponsors were (and 
still are) members from some of the affected states.
    Phrases from nay-sayers included ``political reality;'' ``local 
solutions;'' and ``compromise.''
    Regarding compromise:
    1.  NREPA already has compromise built into it. Roughly 50% of the 
federal lands in the region will remain available for multiple use. 
This reflects the well-thought-out design of this bill by those who 
drafted it. They took into consideration that logging, road-building, 
and off-road vehicle use could not be completely stopped. The areas 
proposed as wilderness were carefully selected for their ecological 
value and integrity.
    2.  In 1994, when we met with then-Speaker Tom Foley, he asked if 
we could take the Washington wilderness out of the bill. We replied, 
``Mr. Speaker, it's an ecosystem bill. Without the wilderness 
protection in Washington, it won't function as an ecosystem.''
    So NREPA might have passed the House in 1994 without the Washington 
wilderness, but we couldn't compromise the science. We've been ignoring 
scientists' warnings about climate change for years. We ignore science 
at our peril. Meanwhile, the science in NREPA was so strong and 
prescient that this bill, drafted nearly two decades ago, had the 
biological corridors in it then that we know today will mitigate the 
effects of global warming on species in the region.
    In recent years I've watched some wilderness advocates get caught 
up in an approach encouraged by certain funders during the years when 
the Resources Committee was, shall we say, not inclined towards 
wilderness protection? Some groups whose mission statements include 
wilderness protection became so frustrated with the failure to pass 
clean wilderness bills that they focused on achievable victories. In 
some cases ``achievable'' meant accepting quid pro quo conditions 
inconsistent with their group's advocacy for things like the Wilderness 
Act of 1964, public land remaining in public hands, and the need to 
protect areas of sufficient size and connectivity to sustain wildlife 
populations.
    Proponents of one such bill admit their bill isn't perfect, but, 
they say, ``we mustn't let the perfect be the enemy of the good.''
    First of all, I would argue (and have argued in both chambers) that 
a bill that gives away thousands of acres of nationally owned public 
land isn't ``the good.'' But more to the point, when you have the 
chance to pass a bill like NREPA that is the right solution for so many 
problems, there's no need to settle for less.
    As for ``local solutions,'' if the mayor of New York decided to 
dismantle the Statue of Liberty and give the arm to Staten Island, the 
torch to Brooklyn and the crown to The Bronx, the people from the five 
NREPA states would have every right--and indeed, the obligation--to 
insist that this icon of American freedom and democracy remain intact.
    Chopping up an ecosystem to meet local political needs is equally 
inappropriate. We cannot accept ``local solutions'' that divide parts 
of a national treasure among competing local interests. It's wrong for 
the American people and it's wrong for local communities.
    The long-term economic health of communities is better when they're 
adjacent to large, intact wilderness areas. In the past a social 
climate of negativity towards conservation activists prevailed in many 
rural communities, but a growing number of people in these communities 
are starting to realize that their longstanding antipathy toward 
wilderness is hurting them economically.
    Studies affirm that protecting large intact wilderness is the best 
investment in the long-term economy of adjacent communities. You'll see 
ghost towns all over the west where an economy based on an extractive 
industry has petered out, but you won't see a single ghost town where 
the economy is based on adjacent wilderness. When you drive into 
Stanley or Challis (near where I live) you'll see signs proclaiming 
each town a gateway to wilderness. The signs do not say ``Gateway to 
Off Road Vehicle Trails'' or ``Gateway to Cyanide Heap Leach Mines.''
    Last year, anglers spent roughly $28 million in Custer County.
    I have trouble understanding why my county commissioners are 
failing to make the connection between the wild and scenic rivers in 
NREPA, a healthy population of wild salmon and steelhead, and $28 
million dollars a year to a single county from anglers alone.
    I have trouble understanding why some elected officials aren't 
making the connection between the severe erosion caused by the 
motorized trail vehicles they're fighting so hard to allow in 
inappropriate places, and the degradation of habitat of the fish that 
bring so much money to their county.
    Michelangelo said, ``The greatest danger for most of us lies not in 
setting our aim too high and falling short, but in setting our aim too 
low, and achieving our mark.''
    Imagine if Michelangelo had set his aim lower. The ceiling of the 
Sistine Chapel would not exist.
    The Northern Rockies ecosystem is America's Sistine Chapel. In 
fact, many people would agree that no man-made church, temple, or other 
religious structure could approach the magnificence of God's own 
cathedrals made of mountains, forests, and the limitless sky.
    We're lucky enough to have had some of those places already 
protected by such visionary forebears as:
    Gifford Pinchot: ``The vast possibilities of our great future will 
become realities only if we make ourselves responsible for that 
future.''
    John F. Kennedy: ``It is our task in our time and in our 
generation, to hand down undiminished to those who come after us, as 
was handed down to us by those who went before, the natural wealth and 
beauty which is ours.''
    Rachel Carson: ``It is a wholesome and necessary thing for us to 
turn again to the earth and in the contemplation of her beauties to 
know of wonder and humility.''
    And Theodore Roosevelt: ``Leave it as it is. The ages have been at 
work on it and man can only mar it.''
    Mr. Chairman and members, it's your turn now. You're charged with 
the responsible stewardship of the nationally owned public lands in the 
Northern Rockies ecosystem, and the American people are counting on you 
to rise to that responsibility.
    I've met with many of you, and I'm confident that not only will you 
rise to the occasion, you will lift others--including my friends and 
colleagues who've worked for so long to protect wilderness but in 
recent years have lost hope and heart.
    To my friends and colleagues I say, let NREPA embolden you. Let 
this visionary legislation and the unwavering commitment of its 
supporters energize you to seek solutions that are true to the values 
of wilderness and wildlife preservation that have been the underlying 
principles of your work for so many years. NREPA is a worthy and well-
crafted solution. You don't have to settle for less.
    To you, Mr. Chairman and members, I say, give these good people the 
inspiration that comes with success. Remind them that when Americans 
aim high, we touch the stars.
    Take this opportunity to protect the Northern Rockies ecosystem; 
create jobs; and save your constituents money. The people who wrote 
this bill have made it easy for you to do the right thing. All you have 
to do to stop the nay-sayers is say YES to NREPA.
    A YES vote will affirm your responsibility to the Creator, to your 
constituents, to a majority of the American people, and to our troops. 
Why the troops? Because the Northern Rockies are as much a part of the 
America they are fighting to protect as freedom and democracy.
    With NREPA based on sound science and solid economics, and with all 
Americans owning the lands under consideration, Congress has an 
affirmative obligation to protect the Northern Rockies ecosystem 
against motorized incursions and destruction and, where possible, to 
restore damaged areas as close as possible to the way they were 
created.
    Summing up: passing NREPA will
    <bullet>  protect some of America's most beautiful and ecologically 
important lands;
    <bullet>  save taxpayers money;
    <bullet>  create new jobs;
    <bullet>  keep water available at higher elevations until it's 
needed for farmers and ranchers downstream;
    <bullet>  mitigate the effects of global warming on species in the 
Northern Rockies; and
    <bullet>  slow global warming by protecting this bioregion as a 
large carbon sink.
    There are many ways for people to misuse our public land. Calling 
those ways ``wise use'' doesn't make them wise. The fact that we have 
any protected land at all in this country is because people like Frank 
Church, Bruce Vento, Jimmy Carter, Jack Kennedy, Teddy Roosevelt, 
Gifford Pinchot and other sagacious leaders took action to protect 
these extraordinary places for future generations.
    I hope you'll follow their lead and vote YES on NREPA. It's a 
legacy worthy of your great-grandchildren.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Sarbanes. Thank you for your testimony. We will now 
hear from Mr. Gary Macfarlane, who is the Ecosystem Defense 
Director at Friends of the Clearwater.
    Mr. Macfarlane.

   STATEMENT OF GARY MACFARLANE, ECOSYSTEM DEFENSE DIRECTOR, 
                   FRIENDS OF THE CLEARWATER

    Mr. Macfarlane. Thank you, Mr. Chairman and members of the 
subcommittee, for holding this hearing. Incidentally, I am from 
Troy, Idaho, or outside of Troy. I live in a rural area.
    The U.S. Northern or Wild Rockies is perhaps the only place 
in the lower 48 that has retained all of its native species 
since the arrival of people of European descent. H.R. 1975 does 
right by the land because it is based upon science, and it will 
serve as a precedent for landscape-scale conservation on a 
bioregional scale. The bill also honors the spirit and intent 
of the Wilderness Act and upholds integrity of the National 
Wilderness Preservation System.
    This region is one place in the lower 48 where large-scale 
ecosystem conservation is still possible. The reason it is 
still relatively intact and well is because this part of the 
Rockies is largely public land and owned by all Americans.
    The bill's time has come. NREPA's time has come. Citizens' 
values, biological literacy and political dialogue are finally 
catching up to the vision embodied in this bill. And we heard 
that earlier today from some of the people who testified. A 
couple of examples illustrate this point. NREPA pioneered the 
idea of recovery and restoration over a decade ago. One of its 
integral components is Title IV. This would restore degraded 
landscapes through watershed restoration and road removal, 
while creating jobs.
    An October 4, 2007, article by Michael Moore, a staff 
writer for the Missoulian, quotes Montana Governor Brian 
Schweitzer speaking of ecosystem restoration, ``It is in its 
infancy, but when we can quantify it, people are going to 
recognize it for the economic force it is.'' The article 
further quotes Governor Schweitzer, ``What is driving this 
economy,'' the Governor said, ``is quality of life. And that's 
going to drive it for a long time.''
    The article then addresses a dam removal and cleanup 
project near Missoula but also notes watersheds damaged by 
years of logging and road building need help as well.
    That is precisely what H.R. 1975 does, restore watersheds 
damaged by years of logging and road building. The Northern 
Rockies Ecosystem Protection Act's time has come because it is 
time for--because the time for restoration has come.
    The second example of how political dialogue and biological 
literacy are catching up to H.R. 1975 deals with grizzlies and 
habitat connectivity. Since its inception, H.R. 1975 has 
pioneered the idea of legislatively protecting biological 
corridors. In an October 2nd article of this year by Eric 
Barker, the outdoor and environment reporter for the Lewiston 
Morning Tribune--and it is an article that reports on a grizzly 
that was recently killed in the Clearwater National Forest in 
an area that would be protected by H.R. 1975. DNA work was done 
on the grizzly, the first confirmed grizzly in this area in 
many years. The grizzly apparently was related to those in the 
Selkirk Mountains well over 100 miles to the north. Barker 
alludes to an Idaho Fish and Game press release about the 
grizzly, ``the press release said the distance traveled 
underscores the importance of corridors of wild land connecting 
different populations of grizzly bears play in the effort to 
recover grizzlies, which are listed as a threatened species in 
much of the Rocky Mountains.''
    Again, corridors are a key component of the Northern 
Rockies Ecosystem Protection Act and have been since its 
inception. Title II in the bill is about biological corridors. 
These examples again underscore the timeliness of the bill. 
When first introduced, it was visionary and ahead of its time 
with widespread recognition of corridors and restoration. As 
key components of both biological and economic help for the 
region, the act's time has come.
    Though I have been to all the large ecosystems in the Wild 
Rockies, the Clearwater region has a special place in my heart. 
The wild Clearwater country is the northern half of the largest 
relatively intact wild ecosystem or smaller ecosystem in the 
lower 48 States. This area goes by many names, including the 
Greater Salmon-Selway in H.R. 1975. Greater Salmon and 
Clearwater are simply the big wild. No place in the lower 48 is 
there a feeling of big wild country like here.
    The Clearwater portion of the U.S. Northern Rockies is 
wetter and, according to a 2001 study by noted conservation 
biologist Carlos Carroll, Reed Noss and Paul Paquet, is the 
most important place in the entire Rockies, including Canada, 
for large carnivores like grizzly bears, wolves and cougars. 
The rich diversity of the area is remarkable as recently noted 
by New York Times writer Timothy Egan in a feature article. 
Stands of mountain hemlocks, giant cedars and a variety of 
rain-loving plants remind one of the great rain forests of the 
coast. The fauna of this region is equally diverse with an 
endemic species, including the rare Coeur d'Alene and Idaho 
giant salamanders. Salmon, steelhead, wolves, wolverine, 
harlequin ducks and the great bear, the grizzly, are all found 
here. It is the climate and relatively low elevation that makes 
the Clearwater biologically unique.
    NREPA would protect real places in the Clearwater, large 
wild places that form the core of this most important wildlife 
habitat. For example, meadow creek--it looks like we are on the 
previous presentation. A prime edition to the Selway-Bitterroot 
wilderness is an important wild steelhead habitat. Even the 
Forest Service recognized the ecological uniqueness of the 
meadow systems in this watershed. Several years ago, I went 
with a group of friends, including my nephew from San Diego, on 
a winter snowshoe backpacking trip in Meadow Creek. We tracked 
otters who slid over the creek on 8 feet of snow. They dug snow 
tunnels for shelter to ascend and descend into the stream. Like 
the otters, we dug snow shelters for protection. My nephew is 
now a grown man, but I am certain the self-reliance he learned 
while being in wild country helped him on his life's journey. 
And unfortunately, that is some of the damage that is now 
occurring in Meadow Creek from off-road vehicle use.
    In September of this year, on Weitas Creek, I encountered a 
black bear--a picture from Weitas Creek there--I heard elk 
bugle and wolves call. I saw wild trout in icy streams in 
addition to the Selway-Bitterroot wilderness. In past years, I 
have followed elk near the snow line in Big Mallard and Rhett 
Creeks, climbed Pot Mountain and saw what appeared to be 
grizzly tracks in Kelly Creek. All of these wild things and 
wild places are connected, and we to them. The Northern Rockies 
Ecosystem Protection Act would preserve these wild connections 
for future generations; future generations of bears, future 
generations of salmon and future generations of American 
citizens, their children and their families.
    [The prepared statement of Mr. Macfarlane follows:]

 Statement of Gary Macfarlane, Ecosystem Defense Director, Friends of 
     the Clearwater, Board President, Alliance for the Wild Rockies

    Thank you Chairman Grijalva, and members of the subcommittee for 
holding this hearing on H.R. 1975, the Northern Rockies Ecosystem 
Protection Act (NREPA).
    The U.S. Northern or Wild Rockies is perhaps the only place in the 
lower 48 that has retained all of its native species since the arrival 
of people of European descent. H.R. 1975 does right by the land because 
it is based upon science and will serve as a precedent for landscape 
scale conservation on a bioregional scale. H.R. 1975 also honors the 
spirit and intent of the Wilderness Act and upholds the integrity of 
the National Wilderness Preservation System. This region is the one 
place in the lower 48 where large-scale, ecosystem conservation is 
still possible. The reason the area is still relatively intact and wild 
is because this part of the Rockies is largely public land owned by all 
Americans.
    The Northern Rockies Ecosystem Protection Act's time has come. 
Citizens' values, biological literacy and political dialogue are 
finally catching up to the vision embodied in this bill. Two examples 
illustrate this trend.
    The Northern Rockies Ecosystem Protection Act pioneered the idea of 
recovery and restoration over a decade ago. One of its integral 
components is Title IV, a wildlands recovery and restoration system. 
This would restore degraded landscapes through watershed and road 
removal while creating jobs. An October 4, 2007 article by Michael 
Moore, a staff writer for the Missoulian, quotes Montana Governor Brian 
Schweitzer speaking of ecosystem restoration:
        ``It's in its infancy, but when we can quantify it, people are 
        going to recognize it for the economic force it is.''
    The article further quotes Governor Schweitzer:
        ``What's driving this economy,'' the governor said, ``is 
        quality of life. And that's going to drive it for a long 
        time.''
    The article then addresses a dam removal and cleanup project near 
Missoula, Montana but also notes:
        Watersheds damaged by years of logging and road-building need 
        help, as well.
    That is precisely what H.R. 1975 does--restore watersheds damaged 
by years of logging and road-building. The Northern Rockies Ecosystem 
Protection Act's time has come because the time for restoration has 
come.
    The second example of how political dialogue and biological 
literacy are catching up to H.R. 1975 grizzlies and habitat 
connectivity. Since its inception, H.R. 1975 has pioneered the idea of 
legislatively protecting biological corridors. In an October 2 article, 
by Eric Barker the outdoor and environment reporter for the Lewiston 
Morning Tribune, reports on a grizzly that was recently killed in the 
Clearwater National Forest in an area that would be protected in H.R. 
1975. DNA work was done on the grizzly, the first ``confirmed'' grizzly 
in the expansive Clearwater wildlands in many years. The grizzly 
apparently was related to those in the Selkirk Mountains well over 100 
miles to the north. Barker's alludes to an Idaho Fish and Game press 
release about the grizzly:
        The press release said the distance travelled underscores the 
        importance of corridors of wildland connecting different 
        populations of grizzly bears play in the effort to recover 
        grizzlies, which are listed as a threatened species in much of 
        the Rocky Mountains.
    Again, corridors are a key component of the Northern Rockies 
Ecosystem Protection Act and have been since its inception. Title II in 
H.R. 1975 is about biological corridors. These two examples show the 
timeliness of H.R. 1975. When first introduced, it was visionary and 
ahead of its time. With widespread recognition of corridors and 
restoration as key components of both biological and economic health 
for the region, the Northern Rockies Ecosystem Protection Act time has 
come.
    Though I have been to all of the large ecosystems in the Wild 
Rockies, the Clearwater region has a special place in my heart. The 
Wild Clearwater country is the northern half of the largest relatively 
intact wild ecosystem in the lower 48 state. This larger ecosystem goes 
by many names including the Greater Salmon-Selway Ecosystem (in H.R. 
1975), Greater Salmon Clearwater, or simply the Big Wild. No place in 
the lower 48 is there a feeling of big wild country like here. The 
Clearwater portion of the U.S. Northern Rockies is wetter and--
according to a 2001 study by noted conservation biologists Carlos 
Carroll, Reed Noss and Paul Paquet--is the most important place in the 
entire Rockies, including Canada, for large carnivores like grizzly 
bears, wolves and cougars. The rich diversity of the area is 
remarkable, as recently noted by New York Times writer Timothy Egan in 
a feature article. Stands of giant ancient cedars, mountain hemlocks, 
and a variety of rain-loving plants reminds one of the great 
rainforests of the coast. The fauna of this region is equally diverse, 
with endemic species including the rare Coeur d'Alene and Idaho giant 
salamanders. Salmon, steelhead, wolves, wolverine, harlequin ducks, and 
the great bear--grizzly--are all found here. It is the climate and 
relatively low elevation that makes the Clearwater biologically unique.
    NREPA would protect real places in the Clearwater--large, wild 
places--that form the core of this most important wildlife habitat. For 
example, Meadow Creek, a prime addition to the Selway ``Bitterroot 
Wilderness, is important wild steelhead habitat. Even the Forest 
Service recognized the ecological uniqueness of the meadow systems in 
this watershed. Several years ago I went with a group of friends, 
including my nephew from San Diego, on a winter snowshoe backpacking 
trip in Meadow Creek. We tracked otters who slid over the creek on 
eight feet of snow. They dug snow tunnels for shelter and to ascend and 
descend into the stream. Like the otters, we dug snow shelters for 
protection. My nephew is now a grown man, but I'm certain the self-
reliance he learned while being in wild country helped him on his 
life's journey.
    In September of this year on Weitas Creek, I encountered a black 
bear, and heard elk bugle and wolves call. I saw wild trout in icy 
streams in additions to the Selway-Bitterroot Wilderness. In past 
years, I have followed elk near the snow line in Big Mallard and Rhett 
Creeks, climbed Pot Mountain, and saw what appeared to be grizzly 
tracks in Kelly Creek. All these wild things and wild places are 
connected, and we to them. The Northern Rockies Ecosystem Protection 
Act would preserve these wild connections for future generations--
future generations of bears; future generations of salmon: and future 
generations of American citizens, their children and their families.
                                 ______
                                 
    Mr. Sarbanes. Thank you, Mr. Macfarlane.
    Now we will hear from Michael Garrity, Executive Director, 
Alliance for the Wild Rockies.

       STATEMENT OF MICHAEL GARRITY, EXECUTIVE DIRECTOR, 
                 ALLIANCE FOR THE WILD ROCKIES

    Mr. Garrity. Mr. Chairman, members of the committee, thank 
you for inviting me here to testify today in support of H.R. 
1975. My name is Michael Garrity.
    Besides being the Executive Director of the Alliance for 
the Wild Rockies, I am also a Ph.D. Candidate in economics at 
the University of Utah, and I taught natural resource economics 
at the University of Utah from 1992 to 1998.
    NREPA will save at least $245 million over the next 10 
years and is the most cost-effective means of protecting 
endangered species in the Northern Rockies. In addition to 
restoring watersheds and saving taxpayers' money, NREPA creates 
more than 2,300 high-paying jobs for the region. NREPA saves 
taxpayers money by prohibiting road building and logging in 
roadless areas designated as wilderness. Logging in the areas 
NREPA would protect at levels desired by the U.S. Forest 
Service would result in a net loss of U.S. taxpayers of 
approximately $375 million over the next 10 years. Furthermore, 
this figure underestimates this loss because it does not 
include the millions of dollars in maintenance expenses that 
logging roads incur. Central Idaho along with the Federal 
Government spends millions repairing roads damaged by 
landslides. The Forest Service has estimated that logging 
caused 80 percent of these slides.
    NREPA produces more jobs because of the habitat restoration 
work associated with the wild land recovery areas. The cost of 
this work would be approximately $130 million over 10 years. 
This cost is $245 million less than the $370 million projected 
net loss for logging use areas. Removing the roads and 
restoring the recovery areas will save the Federal Government 
tens of millions of dollars in reduced road maintenance 
expenses, which will help reduce the $8 billion backlog of road 
maintenance needs in our National Forest. The Forest Service in 
a 2000 report titled, ``Water and the Forest Service,'' found 
that water originating from lands NREPA would protect has a 
value of at least a billion dollars. It makes no economic sense 
to lose hundreds of millions of dollars on logging that harms 
the most valuable commodity our forests produce, which is 
water.
    NREPA saves taxpayers millions of dollars, creates a net of 
hundreds of more jobs, provides maximum production for 
endangered species, habitats, shortens the total timeframe for 
endangered species recovering and improves the economic 
vitality of the Northern Rocky States. NREPA creates jobs.
    People live in the Northern Rockies because of its natural 
beauty. The question of jobs versus the environment is a false 
one. These States would actually end up with more jobs if these 
lands were left in their natural state. It would directly 
create 2,300 jobs by obliterating environmentally destructive 
jobs. Only 1,400 jobs would be lost in the wood products 
industry when these unique wild lands were preserved. NREPA 
will indirectly create thousands of more jobs by preserving the 
pristine environment and the economic base of the Northern 
Rocky States.
    These States' current economic vitality is dependent on 
their high-quality natural environment, not declining 
extractive industries. Further damage to these pristine areas 
will threaten the economic future of these States. We can also 
expect further technological advancement in the timber 
industry, and the future resulting employment in the timber 
industry due to continue to decline.
    NREPA proposes nearly 1 million acres as national recovery 
areas, 6,500 miles of roads would be closed and soils 
recovered. Because soils are essential building blocks at the 
core of nearly every ecosystem on earth and because soils are 
critical to the health of so many other natural resources, 
including at the broadest level, water, air and vegetation, 
they should be protected at a level of least as significant as 
other natural resources. These activities would employ people. 
This is not a jobs versus the environment scenario.
    NREPA will protect the environment, create jobs and save 
taxpayers money. The trade-off is between permanently damaging 
the environment for the sake of a few hundred temporary jobs in 
the timber industry at the expense of destroying the Northern 
Rockies economic space, its natural landscape and thousands of 
jobs it attracts to the region every year. Thank you very much.
    [The prepared statement of Mr. Garrity follows:]

           Statement of Michael Garrity, Executive Director, 
                     Alliance for the Wild Rockies

    Mr. Chairman, Ranking member, members of the committee, thank you 
for inviting me to testify here today, in support of H.R. 1975, the 
Northern Rockies Ecosystem Protection Act.
    My name is Michael Garrity. I am the Executive Director of the 
Alliance for the Wild Rockies, a non-profit environmental group based 
in Helena, MT. I am also a Ph.D. candidate in Economics at the 
University of Utah and I taught economics at the University of Utah 
from 1992- 1998.
    The proposed Northern Rockies Ecosystem Protection Act (NREPA) will 
save a least $245 million dollars over ten years and is the most cost-
effective means of protecting endangered species in the northern 
Rockies. In addition to restoring watersheds and saving the taxpayers 
money, NREPA creates more than 2300 high paying jobs for the region.
    NREPA saves taxpayers money by prohibiting road building and 
logging in roadless areas designated as wilderness. Logging areas NREPA 
would protect at levels desired by the U.S. Forest Service would result 
in a net loss to U.S. taxpayers of approximately $375 million over the 
next ten-years (see Tables I-V). Furthermore, this figure understates 
the loss because it does not include the millions of dollars in 
maintenance expenses that logging roads incur. In central Idaho alone, 
the federal government spends millions repairing roads damaged by 
landslides. The Forest Service estimated that logging caused eighty- 
percent of these slides.
    NREPA produces more jobs because of the habitat restoration work 
associated with the wildland recovery areas. The costs of this work 
will be approximately $130 million over ten years (see Table VI). This 
cost is $245 million less than the $375 million net projected loss for 
logging these areas. Removing the roads and restoring the recovery 
areas will save the federal government tens of millions of dollars in 
reduced road maintenance expenses which would help reduce the $8 
billion back log of road maintenance needs in our National Forests.
    The Forest Service in a 2000 report titled Water and the Forest 
Service found that water originating from lands that NREPA would 
protect has a value of at least $1 billion. It makes no economic sense 
to lose hundreds of millions of dollars on logging that harms the most 
valuable commodity our forests produce, water.
    Since the total savings associated with this alternative are much 
greater than the total costs, a conservative estimate of the net 
savings would be at least $245 million (see Table VII).
    NREPA saves taxpayers millions of dollars, creates 900 more jobs, 
provides maximum protection for grizzly bear and other endangered 
species habitat, shortens the total time frame for endangered species 
recovery and improves the economic viability of the northern Rockies 
states.
    The Northern Rockies Ecosystem Protection Act (NREPA) creates jobs. 
People live and work in the Northern Rockies because of its natural 
beauty. The question of jobs versus the environment is a false one. 
These states would actually end up with more jobs if these lands were 
left in their natural state. It will directly create 2338 jobs by 
obliterating environmentally destructive roads. Only 1400 jobs will be 
lost in the wood products industry when these unique wildlands are 
preserved. NREPA will indirectly create thousands of more jobs by 
preserving a pristine environment, the economic base of the Northern 
Rockies' states.
    These states' current economic vitality is dependent on their high 
quality natural environment, not declining extractive industries. 
Further damage to these pristine areas will threaten the economic 
future of these states.
    Using Forest Service data, Professor Thomas Power, the former 
Chairman of the Economics Department at the University of Montana, 
estimated 1400 jobs would be lost if we preserve these roadless lands 
as wilderness. If we log all of this land today 1400 people would be 
employed for one year. But the loss of 1400 jobs could be made up in 
less than three weeks with normal job growth (Power). The job loss is 
small because most of these roadless lands are not suited for timber 
production. The trees are too small and too few. Moreover, the number 
of timber jobs will continue to decline with technological advancement 
and the diminishing supply of trees. Capital intensive technology is 
the main cause of the fall in timber related employment, not lack of 
trees. Employment in the wood products industry in Montana peaked in 
1979 when 11,606 employees cut and milled 1 billion board feet of 
timber. In 1989, the timber industry harvested a record amount of 
timber, almost 1.3 billion board feet, but only 9,315 people were 
employed. In 2006, 926 million board feet was cut and milled by 3,524 
people. In the last 27 years employment has decrease 70% while timber 
production has only decreased 7%.
    The data the Forest Service used in projecting job loss is from 
1972. They estimate that for every one million board feet of timber cut 
9 jobs will be created for one year. If current data is used only 1.5 
to 2 jobs will be created for every million board feet logged. The 
number varies depending on how the wood is processed.
    Fewer jobs are created now than 30 years ago because of advances in 
technology. One person can cut in an hour what a two-person crew could 
cut in a day twenty years ago. With today's technology only 560 timber 
industry jobs would be lost if we preserve these lands as wilderness. 
If we cut all of these lands today 560 people would be employed for one 
year. We can expect further technological advancements in the future. 
Employment in the timber industry will continue to decline.
    NREPA proposes nearly one million acres as National Recovery areas. 
6,556 miles of roads would be closed and restored and fish and wildlife 
returned. These activities would employ people. The Forest Service 
estimates it costs an average of $10,000 to totally obliterate a mile 
of road in the Northern Rockies. Obliterating 10,000 miles of roads 
would create approximately 625 jobs for heavy equipment operators. And 
these are good jobs that could be spread out far into the 21st century. 
Heavy equipment operators earn approximately $25 per hour. The 
employment created by this method will greatly ease the transition from 
a timber-based economy. The money to pay for this could come from 
ending timber subsidies. In the last ten years, the Forest Service has 
lost over $2 billion on its timber program. In addition, the General 
Accounting Office (GAO, 2003) reported ``the Forest Service has not 
been able to provide to Congress and the public with a clear 
understanding of what its 30,000 employees accomplish with the 
approximately $5 billion it received every year.''
    The justification for this corporate welfare is job creation. NREPA 
can produce more quality jobs and do so without destroying the west's 
major resource.
    It is also argued that when we build roads we create something 
economically valuable but when we destroy roads we only make the 
mountains beautiful. In actuality, when we build roads we create a 
liability. Ninety per cent of the increase in silt from logging comes 
from roads. Roads contribute sedimentation to streams for an indefinite 
period. The road cut creates soil conditions that do not stabilize over 
time (Richard Hauer, PhD Flathead Lake Biological Station, personal 
interview). ``Instream sedimentation deposited in the stream bottom 
decreases the success rate of egg hatching and fry development by 
impeding water flow through the gravels in which the eggs undergo early 
development'' (Final Report, Montana Environmental Quality Council, 
December 1988).
    The bull trout was recently listed as an endangered species. 
Logging harms these fish as well. Sediment originating from logging and 
logging roads can reduce embryo survival of bull trout and westslope 
cutthroat trout and decrease the available pools used for rearing bull 
trout. Bull trout are selective in the streams they choose. They only 
spawn in twenty-eight streams of the hundreds available in the Flathead 
Lake water basin (Weaver, Fraley).
    In central Idaho erosion rate along roads was 750 times greater 
than in undisturbed areas. The silt fills spawning pools and has led to 
population declines in fish such as bull trout, salmon and westslope 
cutthroat trout (Noss). Salmon population supports 60,000 jobs and a 
billion dollar industry. The federal government is spending millions of 
dollars trying to save these fish. It would be more cost effective to 
deal with one of the sources of the problem which is logging and the 
soil erosion it causes as the National Forest Management Act mandates.
    Lacy, 2001 examines the importance of soils for ecosystem 
functioning and points out the failure of most regulatory mechanisms to 
adequately address the soils issue. From the Abstract:
        Soil is a critical component to nearly every ecosystem in the 
        world, sustaining life in a variety of ways--from production of 
        biomass to filtering, buffering and transformation of water and 
        nutrients. While there are dozens of federal environmental laws 
        protecting and addressing a wide range of natural resources and 
        issues of environmental quality, there is a significant gap in 
        the protection of the soil resource. Despite the critical 
        importance of maintaining healthy and sustaining soils, 
        conservation of the soil resource on public lands is generally 
        relegated to a diminished land management priority. Countless 
        activities, including livestock grazing, recreation, road 
        building, logging, and mining, degrade soils on public lands. 
        This article examines the roots of soil law in the United 
        States and the handful of soil-related provisions buried in 
        various public land and natural resource laws, finding that the 
        lack of a public lands soil law leaves the soil resource under 
        protected and exposed to significant harm. To remedy this 
        regulatory gap, this article sketches the framework for a 
        positive public lands soil protection law. This article 
        concludes that because soils are critically important building 
        blocks for nearly every ecosystem on earth, an holistic 
        approach to natural resources protection requires that soils be 
        protected to avoid undermining much of the legal protection 
        afforded to other natural resources.
    The rise of an ``ecosystem approach'' in environmental and natural 
resources law is one of the most significant aspects of the continuing 
evolution of this area of law and policy. One writer has observed that 
there is a--
        fundamental change occurring in the field of environmental 
        protection, from a narrow focus on individual sources of harm 
        to a more holistic focus on entire ecosystems, including the 
        multiple human sources of harm within ecosystems, and the 
        complex social context of laws, political boundaries, and 
        economic institutions in which those sources exist. 
        <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Michael M. Wenig, How ``Total'' Are ``Total Maximum Daily 
Loads''?--Legal Issues Regarding the Scope of Watershed-Based Pollution 
Control Under the Clean Water Act, 12 TUL. ENVTL. L.J. 87, 89 (1998). 
There are, however, major questions to ask of what exactly is the focus 
of ``ecosystem management'' in some agency plans--the ecosystem or the 
management? See, e.g. Michael C. Blumm, Sacrificing The Salmon: A Legal 
And Policy History Of The Decline Of Columbia Basin Salmon (2000) 
(forthcoming) (manuscript at 359-63, on file with author).
---------------------------------------------------------------------------
As federal agencies focus increasingly on addressing environmental 
protection from an holistic perspective under the current regime of 
environmental laws, a significant gap remains in the federal statutory 
scheme: protection of soils as a discrete and important natural 
resource. Because soils are essential building blocks at the core of 
nearly every ecosystem on earth, and because soils are critical to the 
health of so many other natural resources--including, at the broadest 
level, water, air, and vegetation--they should be protected at a level 
at least as significant as other natural resources. Federal soil law 
(such as it is) is woefully inadequate as it currently stands. It is a 
missing link in the effort to protect the natural world at a meaningful 
and effective ecosystem level.
    ...This analysis concludes that the lack of a public lands soil law 
leaves the soil resource under-protected and exposed to significant 
harm, and emasculates the environmental protections afforded to other 
natural resources.
    The Northern Rockies Ecosystem Protection Act will help protect 
soils by protecting roadless areas from logging and road building and 
restoring areas where have been damaged by logging and road building.
    The Forest Service closes many roads after logging in an area has 
ended. But the simple closing of these roads does not mean an end to 
their maintenance costs. The Forest Service spends between $300 and 
$500 per mile for minimum road maintenance. The Forest Service 
estimates that it is more cost efficient to obliterate a road if it is 
not going to be used for the next 20 years. By obliterating these roads 
up to $5 million in normal annual maintenance cost would be saved. The 
minimum maintenance does not take into account floods. Flood damage to 
roads runs in excess of a million dollars a decade per ranger district. 
This is due to maintenance costs alone. It does not take into account 
the tremendous environmental damage roads cause.
    Elk population directly declines with road density. Two miles of 
roads per square mile leads to a 50 percent reduction in the elk 
population and six miles of roads per square mile eradicates virtually 
all elk in that area (Noss). The hunting of elk brings in a billion 
dollars a year into Montana every year and creates more jobs than 
logging according to the Montana Department of Fish Wildlife and Parks. 
The continued destruction of these lands will directly harm the hunting 
industry. Roads also increase poaching. The majority of poaching occurs 
from roads because they offer easy access into previously remote areas.
    Grizzly bears avoid roads by an average distance of one half mile 
(Noss). This leads to a tremendous reduction in their habitat. But 
costs are more than just what the market measures. We cannot replace 
animals when they become extinct. Professor John Craighead believes 
additional road construction will mean the end of the grizzly bear in 
the continental United States.
    This is not a jobs versus the environment scenario. NREPA will 
protect the environment, create jobs, and save the taxpayers money. The 
trade-off is between permanently damaging the environment for the sake 
of a few hundred temporary jobs in the timber industry at the expense 
of destroying the Northern Rockies economic base, its natural 
landscape, and the thousands of jobs it attracts to the region every 
year.
References
General Accounting Office (GAO), 2003. FOREST SERVICE: Little Progress 
        on Performance Accountability Likely Unless Management 
        Addresses Key Challenges. Report # GAO-03-503; May 2003.
Noss, Reed F.,1993. The Wildlands Project Land Conservation Strategy. 
        Wild Earth Journal, Special Issue: 10-26
Weaver, T. and J.J. Fraley. 1991. Fisheries habitat and fish 
        populations. Pages 53-68 in: Flathead Basin Cooperative Program 
        Final Report. Flathead Basin Commission. Kalispell, MT.
Wolf, Robert. Analysis of 2002 U.S. Forest Service Budget, unpublished.
                                 ______
                                 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 
    Mr. Sarbanes. Thank you, Mr. Garrity. We will now hear 
from Mr. William Newmark.
    Mr. Newmark.

       STATEMENT OF WILLIAM NEWMARK, SALT LAKE CITY, UTAH

    Mr. Newmark. Mr. Chairman, members of the committee, I 
would like to thank you for inviting me to testify today. It is 
a great honor. I am a research curator and conservation 
biologist at the Utah Museum of Natural History at the 
University of Utah. My testimony today represents my own views 
and not those of the Utah Museum of Natural History nor the 
university of Utah.
    As a way of background, I hold a doctorate in ecology from 
the University of Michigan. I have been conducting research for 
over 25 years in western North America and East Africa related 
to patterns of extinction of vertebrate species, optimal 
reserve design and large mammal movement. I published two books 
and more than 75 scientific and technical reports.
    One hundred and thirty-five years ago, Congress established 
the first national park in the world initiating a modern era in 
conservation. Since 1872, more than 57,000 national parks and 
related reserves have been established worldwide. Indeed, the 
creation by Congress of the national park to conserve species 
and ecological processes in perpetuity is one of the most 
important and far-reaching contributions that the United States 
has made to the global community.
    Today, we are in the midst of the sixth major global 
extinction event. Scientists estimate worldwide species are 
being lost at a rate of one every 2 hours, which is 1,000 to 
10,000 times the normal background rate. The two most important 
factors that are contributing to species loss worldwide are 
habitat loss and fragmentation. Yet a third factor, global 
climatic change, is looming on the horizon, which can and will 
interact with habitat loss and fragmentation to further 
endanger many species.
    Without a dramatic expansion in protected area coverage 
worldwide, it is predicted that upwards of 50 percent of the 
world species will be committed to extinction by the end of 
this century. Scientists now recognize that even the largest 
national parks in western North America, such as Yellowstone 
and Glacier, are not large enough to conserve long-term viable 
populations of many species. I am attaching several of my own 
scientific reprints that document this as attachments to my 
written testimony.
    Furthermore, with global climatic change, many plant and 
animal species that were thought previously to be viable will 
not be unless they are able to relocate to new geographic 
areas. Indeed, it is estimated that for mammal species alone, 
upwards of 20 percent of all species currently found in 
selected U.S. national parks may be lost if atmospheric carbon 
dioxide concentrations were to double.
    To conserve species and ecological processes in perpetuity, 
we need to conserve and manage large ecosystems, which means 
protecting large corridor areas, such as national parks and 
wilderness areas, and enhancing ecological connectivity among 
these protected areas for the establishment of movement and 
dispersal corridors.
    The Northern Rockies Ecosystem Protection Act is an 
extremely important and innovative piece of legislation because 
it adopts an ecosystem approach to conserving species and 
ecological processes. This legislation is also important 
because of the protection it gives to many roadless areas. 
These areas play a critical role in not only maintaining water 
quality and quantity, providing recreational opportunities and 
protecting critical habitat for many species, but also because 
they often contain old growth forests that are important in 
sequestering carbon and thus reducing potential greenhouse 
emissions.
    Furthermore, the Northern Rockies Ecosystem Protection Act 
is important because of the new management categories it 
establishes for Federal lands that are essential for conserving 
species and ecological processes. These are biological 
connecting corridors and wild land restoration and recovery 
areas. If the Northern Rockies Ecosystem Protection Act is 
enacted, this bill will be precedent setting in relation to how 
Federal lands are managed for biodiversity. Indeed, the 
Northern Rockies Ecosystem Protection Act, because of its 
emphasis on conserving ecosystems, has the potential to 
influence and promote biodiversity conservation globally, as 
much as did the establishment of the first national park 135 
years ago by Congress.
    Due to the enormous influence that the United States has 
scientifically, I strongly urge Congress to pass the Northern 
Rockies Ecosystem Protection Act, and I thank you for allowing 
me to testify today.
    [The prepared statement of Mr. Newmark follows:]

    Statement of William Newmark, Research Curator and Conservation 
     Biologist, Utah Museum of Natural History, University of Utah

Bioprofile of William Newmark
    William Newmark is a research curator and conservation biologist in 
the Utah Museum of Natural History at the University of Utah. He holds 
a B.A. in biology from the University of Colorado, a M.S. in wildland 
management from the University of Michigan, and a Ph.D. in ecology from 
the University of Michigan. His research is focused on patterns of 
extinction of vertebrate species, protected area and wildlife corridor 
design, and animal movement. His findings on patterns of extinction of 
large mammals in western North American (Nature Vol 325: 430-432 
January 1987) and Tanzanian parks and birds on tropical forest 
fragments have highlighted the problems that nature reserves face in 
conserving biological diversity and have provided an important 
justification for a series of worldwide initiatives to link national 
parks and related reserves with wildlife corridors. Technical as well 
as popular reviews of his research have appeared in many publications 
including Science, Science News, Nature, The New York Times, The 
Washington Post, and The Independent and his findings have been 
extensively cited in undergraduate and graduate ecology and 
conservation biology textbooks. He has been conducting field research 
for over twenty-five years in western North America and East Africa. He 
has written two books and more than 75 scientific papers and technical 
reports.
Testimony
    I first would like to thank the Committee on Natural Resources for 
inviting me to testify today. It is a great honor. My testimony today 
represents my own views and not those of the Utah Museum of Natural 
History nor the University of Utah.
    One hundred thirty-five years ago, Congress established the first 
national park in the world initiating a modern era in conservation. 
Since 1872, more than 57,000 national parks and related reserves have 
been established worldwide. Indeed the creation by Congress of the 
national park to conserve species and ecological processes in 
perpetuity is one of the most important and far-reaching contributions 
that the United States has made to the global community.
    Today we are in the midst of the sixth major global extinction 
event. Scientists estimate worldwide species are being lost at of rate 
of one species every two hours hour which is 1,000 to 10,000 times 
higher the normal background rate. The two most important factors that 
are contributing to species loss worldwide are habitat loss and 
fragmentation. Yet a third factor, global climatic change, is looming 
on the horizon which can and will interact with habitat loss and 
fragmentation to further endanger many species. Without a dramatic 
expansion in protected area coverage worldwide, it is predicted that 
upwards of 50% of the world's species will be committed to extinction 
by the end of this century.
    Scientists now recognize that even the largest national parks in 
western North America such as Yellowstone and Glacier National Parks 
are not large enough to conserve long-term viable populations of many 
species. I am attaching several of my own scientific reprints that 
document this as attachments to my written testimony. Furthermore with 
global climatic change, many plant and animal populations that were 
thought previously to be viable will not be unless they able to 
relocate over time to new geographic areas. Indeed it is estimated that 
for mammal species alone upwards of 20% of all species currently found 
in selected U.S. national parks may be lost if atmospheric carbon 
dioxide concentrations were to double.
    To conserve species and ecological processes in perpetuity, we need 
to conserve and manage large ecosystems which means protecting large 
core areas, such as national parks and wilderness areas, and enhancing 
ecological connectivity among these protected areas through the 
establishment of movement and dispersal corridors.
    The Northern Rockies Ecosystem Protection Act is an extremely 
important and innovative piece of legislation because it adopts an 
ecosystem approach to conserving species and ecological processes. This 
legislation is also important because of the protection it gives to 
many roadless areas. These latter areas play a critical role in not 
only maintaining water quality and quantity, providing recreational 
opportunities, and protecting critical habitat for many threatened 
species, but also because they often contain old-growth forest that is 
important in sequestering carbon and thus reducing potential green 
house emissions. Furthermore, the Northern Rockies Ecosystem Protection 
Act is important because of the new management categories it 
establishes for federal lands that are essential for conserving species 
and ecological processes. These are biological connecting corridors and 
wildland restoration and recovery areas.
    If the Northern Rockies Ecosystem Protection Act is enacted this 
bill will be precedent setting in relation to how federal lands are 
managed for biodiversity. Indeed the Northern Rockies Ecosystem 
Protection Act, because of its emphasize on conserving ecosystems, has 
the potential to influence and promote biodiversity conservation 
globally as much as did the establishment of the first national park by 
Congress one hundred thirty five years ago due to the enormous 
influence that the United States has scientifically.
    I strongly urge Congress to pass the North Rockies Ecosystem 
Protection Act and I thank you again for allowing me to address this 
Committee.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Sarbanes. Thank you. I thank all the panelists for 
their testimony. Very interesting. I just had a couple of 
questions I wanted to ask before we move to other members here.
    Ms. King, you talked about the local support that exists 
for this act, for the Ecosystem Protection Act. There has been 
criticism that this is sort of a top-down idea or effort. Maybe 
you could just speak a little bit more to the local support and 
how some of the large organizations that have gotten on board, 
of course, reflect, as I understand it, support that is coming 
up from the grassroots level.
    Ms. King. That is correct. For example, the Sierra Club 
support is based on a lot of local support. That isn't a top-
down decision that comes from the ground. And I submitted and I 
believe that Ms. Maloney has also submitted a long list of--not 
only local supporters in terms of, you know, environmental 
groups and people like that, but businesses, local businesses. 
The people that you see on this panel, three of us come from, 
you know, the affected States.
    And we represent other people. I could just cite names of 
people that I think--the reason I am here is that I am the 
voice for people that can't get here because they don't have 
the resources, the funding to get here. But they care about 
this bill, and they come from the affected states.
    Mr. Sarbanes. I just know your testimony, at one point, 
where you talked about fish habitats, echoed President Bush's 
statement that fish and human beings can co-exist. You may 
remember him saying that. And I am not sure that means he would 
endorse the proposal here.
    Ms. King. Let us give him the chance.
    Mr. Sarbanes. Yeah. One never knows. The ecosystem concept 
is fascinating to me. And a number of you have referred to it 
as being precedent-setting and part of a new way of thinking of 
habitat preservation and a new basis for identifying, 
designating wilderness areas and, in particular, this idea of 
these biological corridors that exist. So I would like anyone 
who wishes to, to maybe respond or comment on why this wouldn't 
work, if you think it is the case, it wouldn't work if you took 
those corridors out of the equation. In other words, my 
perception is the corridors reflect why you need to designate 
all of the this acreage simultaneously, that they are so 
engaged and entangled in the concept here, that to eliminate 
any one piece of the equation as it is laid out would represent 
a threat to what we are trying to do here.
    Mr. Newmark. Well, one of the lessons we have learned over 
the last 20 years in ecology is that you need connectivity 
between areas, particularly if you are trying to connect areas 
with relatively small populations, and this is important in 
terms of maintaining genetic diversity within a population and 
this is also important in terms of reducing these accidental 
demographic deaths.
    So corridors are critical to the success, if you will, of 
this approach, of this ecosystem approach. Without designating 
them, then I think the probability that such a strategy will 
work would be much less.
    Mr. Sarbanes. And is another way of looking at it that you 
can't segregate these wilderness areas from the corridors? In 
other words, you can't segregate and contain just one portion 
of the acreage that is being described here without leaving 
something out that relates to the overall ecosystem. Is that 
fair to say?
    Mr. Newmark. Well, once again, another lesson of ecology is 
that we need to manage large areas if we are to conserve entire 
intact communities. And therefore, managing wilderness parks 
and the multiple use lands in addition to corridors is very 
critical in terms of maintaining functioning ecological 
communities.
    Mr. Sarbanes. Thank you. Mr. Bishop. Mr. Sali.
    Mr. Sali. Thank you, Mr. Chairman. First of all, I do have 
a copy of a letter that was sent by Idaho Governor Butch Otter 
that he asked be included in the record today. So I would ask 
unanimous consent that be included.
    Mr. Sarbanes. Without objection, that will be included.
    [The letter submitted for the record by Governor Otter 
follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. King. The answer is, I couldn't tell you an exact 
percentage. However, people with disabilities have told me 
personally and have written letters in past hearings and made 
the point of saying that it doesn't matter as much whether they 
can drive in. It matters that they are there, that these areas 
are there, and protected for the people that can. And I also 
want to say that people with disabilities can get in on 
horseback, and there are programs even in our own State where 
they do bring people with disabilities in on horseback.
    Mr. Sali. Do you have any support from groups that deal 
with people with disabilities in support of this act?
    Ms. King. We are working on that.
    Mr. Sali. I have done an awful lot of work with folks with 
disabilities over the years. And frankly, I would be quite 
surprised if they were willing to give up access to a public 
property anywhere. In fact, part of what happens under the 
Americans With Disabilities Act is they want access to private 
property in many cases. I would be very interested in any 
information that you could come up with in that regard.
    You know that wildfires are an unfortunate reality in 
Idaho. What wildfire precautions does this bill make, if any? I 
note that we had a significant amount of the Frank Church 
Wilderness in Idaho that was burnt up this year with the 2 
million acres in Idaho. Is there any provision in the bill for 
wildfire precautions?
    Ms. King. There is a provision in the general approach to 
this. May I just go back and just follow up on your question 
about people with disabilities. I have spoken to people with 
disabilities who deeply resent that they are being used as an 
argument not to protect these places. So I just want to put 
that on the record.
    As far as fires, you are speaking to the right person 
because in 2005 where my ranch is, my home was actually 
threatened by fire. And because I had talked to local 
officials, firefighters and people in the Forest Service, I 
knew what to do to protect my home and the structures on it 
against fires. And that is what the Forest Service actually 
recommends, where you clear away fuels from within a certain 
distance from structures. But many other things, metal roofs, 
keeping the area as moist as you possibly can, many things that 
we did. And that was part of the reason why my place wasn't 
damaged. And there were other reasons but----
    Mr. Sali. Is your property in a wilderness area?
    Ms. King. My property is adjacent to an area that is not 
designated wilderness but it is functionally wilderness. And it 
would be under this act.
    Mr. Sali. OK. My question actually goes to the wilderness 
areas themselves.
    Ms. King. Yes. And I will get to that. First of all, there 
is nothing that precludes firefighting without using motors. 
And I often ask myself, I wonder why people are so eager to 
build roads so that they can drive gasoline-powered vehicles 
into where the fire is. But there are ways to manage these 
things. I know that in past years, the Forest--you know, long 
past years, the Forest really hadn't let these areas burn the 
way they should for good silviculture. But now they are 
starting to do controlled burns where they walk in on foot and 
do it. And there are ways to deal with it. But when you are 
dealing with the wilderness and people talk about the beetle 
trees in that area. And Mrs. McMorris Rodgers spoke of healthy 
forests. One of the ways to get a healthy forest is to allow 
natural fires to burn.
    I don't like the smoke any more than a lot of people do, 
but it is healthy for the forest. And in the areas where there 
are homes and structures, there are usually roads.
    Mr. Sali. My question is about the wilderness areas 
themselves. Are you suggesting there will be roaded areas in 
these wilderness areas?
    Ms. King. I am saying that you don't have to worry about 
fire protection as much in the wilderness areas because nothing 
is threatened in terms of human habitation. What is actually--
it is actually good for the forest.
    Mr. Sali. And so the plan here would be to just let the 
forest burn naturally, is that----
    Ms. King. Not entirely. But there are ways to fight the 
fires without roads or motors.
    Mr. Sali. When the fires do occur routinely, there is 
significant silt and impact and what not, runoff into rivers. 
Your answer in the bill would be just to allow that to happen, 
is that correct?
    Ms. King. Well, I will turn this over to Mr. Macfarlane. I 
know the answer. But he is much better.
    Mr. Macfarlane. Natural fire is a natural process in the 
Northern Rockies. It has taken place since time immemorial. 
Basically there are two kinds of impacts, one from natural fire 
they call pulse impact. Generally 5 years after a fire, 
sediment is back to normal. But the systems in these watersheds 
evolved with large fires, including standard placing fires. 
That photo, that whole area was burned in 1910 in the Great 
Burn. That is Hanson Meadows in the proposed Great Burn-Hoodoo 
Wilderness, by the way. Press effects are those that happen 
from a chronic source rather than an acute source of sediment. 
And in general they include things like roads, and that bleeds 
sediment year after year into these systems. These watersheds 
didn't evolve with that kind of influence. So natural fire 
generally in the long run, maybe not in the short term but the 
long run is good for watershed function. And the fish 
biologists have stated this, and in fact the Montana Bull Trout 
Team, which is a team of Federal scientists have said, you 
know, if you want to protect watersheds, don't use fire or fire 
prevention as an excuse. Remove the obstacles to watershed 
recovery, which are roads and the culverts that prevent this 
passage.
    Mr. Sali. Thank you.
    Mr. Sarbanes. The gentleman's time has expired. Mr. Inslee.
    Mr. Inslee. Thank you. I just wanted to reiterate one of 
the things Ms. King talked about is this issue of disability. 
It has been kind of a heartache of mine to hear people whose 
real interest is to clear-cut forests, to hide behind the 
skirts of people who, you know, who do have disabilities. And I 
just tell you, the pressure for building roads and cutting down 
trees is not from the disability community. It is from the 
folks who want to do timber harvest. And I think we ought to be 
straight about that subject. And I have done quite a bit of 
work with folks to try to maintain access to 
telecommunications. That is what I hear the disability 
community telling me they want to see. And I am talking to 
folks that want to see the preservation of these ecosystems.
    Another thing I just want to say is there are a lot of 
folks who have said, when we prevent road building in some of 
these pristine areas, you know, we prevent access for 
Americans. I have to tell you, I see Americans age 60, 70, 80 
up walking in these hills. You know, I was up at Robin and Tuck 
Lakes, which is a 3,000-foot climb, and I see a guy who is 68 
coming up with a knee brace up there. And he is up there 
because he likes it. And to say you can't get up there, if you 
can walk, you can get up to these places. So I just want to 
kind of put that on the record.
    I want to ask for the biological connecting corridors that 
are in this bill. First, I think the concept is very 
intriguing. I am a cosponsor of the bill. Could you tell us how 
these were designed in the design of the mapping itself? Were 
they done with any specific species in mind? Were they done 
with the general science that would suggest, when you have 
these land masses, you have to have a certain percentage 
connected by certain areas? Could you just tell us the 
rationale used for them?
    Mr. Macfarlane. The general rationale I think was using 
general science, although the grizzly was a major concern. As 
my understanding, I wasn't involved in the original writing of 
the bill, but I knew about it. I happen to be from Mr. Bishop's 
home State. That is where I was born and raised. But the 
grizzly bear was a major concern in drawing up these. But it 
was kind of a general biological principles of connectivity.
    Mr. Inslee. Thank you. I want to ask about Idaho 
specifically. I was up in Ms. King's neck of the woods last 
winter, last couple of winters, up there by the lake. And I ran 
into a fellow who one of his jobs was responding to the beetle 
kills and the fire danger as a result. And you know, the beetle 
kills are just unbelievable in that country going on. And the 
best evidence that we have been able to ascertain, they are 
probably in part because of climate change, reducing the kills 
of the beetles and allowing multiple life cycles of the beetles 
to become--you know, they have been there forever. But now they 
are raging because of climate change.
    Now to me, some people have argued because of climate 
change and because of beetle kill, we should reduce the 
protection for these forests and allow more roads rather than 
increase the protection for them. Do you have any comment on 
that, Ms. King?
    Ms. King. I probably do. But I think probably Mr. Newmark 
would be more knowledgeable. Yes.
    Mr. Newmark. Let me see if I understand your question 
properly. As a result of beetle kill, should we build more 
roads?
    Mr. Inslee. Yeah. I mean some people argue, that geez, 
these are dead forests. They have a lot of beetles. Let's just 
build more roads in, cut them down and call it a day. My 
concern is, frankly, when you build more roads, all of the 
evidence shows you actually increase the fire risk by a factor 
of two or three, at least when you build roads into forests.
    Is that correct as far as you understand?
    Mr. Newmark. I couldn't comment on that specific fact. But 
one thing to recognize is that these forests evolved with fire, 
and that by suppressing fires continuously all you do is build 
up the fuel load and at some point you get these massive fire 
outbreaks.
    So what many of us are arguing is that if we are going to 
be managing these ecosystems, what we need to do is allow 
natural processes to operate on the scale that they operated at 
historically. So instead of trying to suppress fires for 100 
years, which will be impossible, what we need to do is permit 
these natural fires to burn at the cycle that they have burned 
historically.
    Mr. Macfarlane. A couple quick points, Mr. Inslee. Selway-
Bitterroot Wilderness has had a natural fire program for about 
35 years and what the Forest Service tells me is the fires 
there aren't as big because of that program. I don't know if 
that is true or not because there is other science that 
suggests otherwise in other places. But that is one point.
    Second point about the beetles, a lot of these are new 
lodgepole pine forests and beetles do naturally have outbreaks 
from time to time. They are probably exacerbated by climate 
change, whether that is a true thing.
    A third point is that ignitability of beetle killed forests 
generally is actually less. The big fires we saw in Yellowstone 
were generally in green trees because of the volatile oils that 
are in the green needles. But if the beetle kill trees do burn, 
yes, they can generally burn very hot. But they aren't as 
ignitable. Of course when we have very hot, dry summers, you 
know, when we have dry fuels, then that is a different story.
    But those are just a couple of the factors. There is a good 
book about the history of fire put out by Island Press that I 
think answers a lot of these questions. And I can certainly 
provide citations later written to the testimony to the 
committee.
    Mr. Inslee. There is another good book by Island Press 
called Apollo's Fire. I just wrote it, talking about how to 
solve this problem of climate change. But that is another 
matter. Thank you.
    Mr. Sarbanes. Mr. Holt.
    Mr. Holt. Thank you. And I recommend that book Apollo's 
Fire. Thank you, Mr. Chairman. And thank you, all the witnesses 
for coming today. As you may know, I have been a cosponsor of 
this legislation, and I think it will do great things.
    There is strong building evidence that this ecological 
approach makes sense. I mean, the string of emeralds going back 
to Olmsted and others gave us, you know, an aesthetic 
appreciation of it.
    But you, Dr. Macfarlane, Dr. Garrity, Dr. Newmark, some of 
my constituents at Princeton and others have really built a 
solid ecological foundation for this legislation.
    Now, of course the ecological zones don't know State or 
even national borders, which is one of the reasons that we need 
this Federal legislation. But also I think it ties into what is 
happening, Yellowstone to Yukon. What I wanted to ask is what 
do you know that Canada is doing that supports what we would do 
here or obviates what we would do here? In other words, it 
provides all the habitat that is necessary, or not, and that 
would affect the rate at which we should act here. And I am not 
sure to whom to direct this. But if any of you have any 
comments on how Canada's actions should inform what we are 
doing.
    Mr. Macfarlane. Well, I do know there is a big issue, and I 
think even Mr. Rehberg is very concerned about it in the North 
Fork of the Flathead. There is a large coal mine on the 
Canadian side that may make this fairly imperative. And it is 
interesting that a lot of U.S. conservationists and U.S. 
elected officials really want Canada to protect their wild 
lands up there in the area of the coal mines. So that is one 
issue.
    I do know there are several provincial initiatives in this 
Y to Y region that you talk about, but I don't know specific 
details since I don't live in those areas, although I do see 
from time to time the proposals on e-mail list servers.
    Mr. Holt. Well, in the interest of letting the hearing move 
along, I will forgo my other questions. Again, thank you for 
coming. Thanks for your advocacy here, some of you. And thank 
you, Mr. Chairman and staff, for doing this.
    Mr. Sarbanes. I want to thank the panel very much for your 
testimony. Appreciate your being here today, and we will move 
on to the fourth panel now.
    I want to welcome you all today. Why don't we begin with 
Mr. Vincent?

STATEMENT OF BRUCE VINCENT, EXECUTIVE DIRECTOR, COMMUNITIES FOR 
               A GREAT NORTHWEST, LIBBY, MONTANA

    Mr. Vincent. Mr. Chairman and members of the committee, I 
am honored to testify today. My county, Lincoln County, 
Montana, is 80 percent Federally owned. While reading this 
bill, one thing kept jumping out at me, and that was 
environmental justice, whose definition is fair treatment and 
meaningful involvement of all people regardless of race, 
ethnicity, income or education level, in environmental decision 
making.
    This bill is classic environmental injustice at its worst. 
The perpetrators of this huge wilderness scheme note that the 
people of the Northern Rockies have suffered from histories of 
economic instability and high unemployment rates. They fail to 
mention the unemployment in the region from the actions of an 
environmental conflict industry that has the timber management 
of Federal lands to one-tenth of the growth of timber on 
Federal lands and forced the closure of scores of family owned 
mills and the loss of thousands of logging jobs since 1990.
    For over a hundred years, communities like mine, Libby, 
underwent periods of recessions that tracked with the timber 
market. But with the total collapse of public timber 
management, we now have persistent poverty and permanently 
closed timber mills.
    Recreation is a part of our economic future--we understand 
that--but a study on the Kootenai National Forest found that 93 
percent of the recreational use of our forest is road access 
dependent use. Proponents say setting aside over a million 
acres of wilderness in our area will sustain our economy. This 
finding is flat wrong. When we decommission roads, we 
decommission recreational sales in our town. We have learned 
it. You can bet on it.
    The bill proponents also state that local economies will 
thrive with remediation jobs in the forest areas. These jobs 
are not sustainable by the letter of this bill. When the areas 
have recovered sufficiently, they will then be annexed into 
wilderness. The jobs will be gone.
    Even the short-term forestry discussion in the bill is 
flawed. This bill states that no ``even aged management of 
timber will be used'' in biological corridors. And yet in the 
Cabinet-Yaak Ecosystem, much of what they proposed for 
wilderness and biological corridors is the mature, single age 
class, lodgepole remnants of the largest fire in North American 
history. It was referred to by the previous panel. That was the 
blaze of 1910. That fire burned 3 million acres in 2 days 
without filing an environmental impact statement and the 
resulting single age class regrowth is ready to burn again.
    In fact, the 1998 GAO study of forest health stated that 
the single biggest threat to the forest of the inland West were 
single event, catastrophically huge, hot, stand and watershed 
destroying wildfires. Indeed we now watch as our endangered 
species habitats and watersheds as large as the one serving 
Denver are turned to ashes.
    The GAO report mapped areas with the greatest risk of loss 
to fire and many of the H.R. 1975 areas are at high risk of 
loss. The proponents would have us believe that setting these 
acres aside for management by fire is better for our wildlife, 
better for our watersheds, better for our economies. And we 
should pretend we have no responsible methods of restoring the 
health of this land, except for wilderness set-asides.
    I disagree. Interestingly, many of these fires use single 
age class management, sometimes 100,000 acres at a time. I also 
believe that the reservation of water as stated in section 210 
of this bill is untenable. I can envision a flurry of lawsuits 
aimed at the State of Montana and Federal Government for not 
adjudicating enough water for the purpose of this act and the 
deciding jurisdiction being the Ninth Circuit Court. This is a 
lawyer's dream and a State's nightmare.
    These facts and more frame the reason that not one of the 
elected representatives from the areas suggested for wilderness 
in this act are sponsors of the act. Those who live closest to 
the proposed set-asides know that there are better options for 
our forests, for our grasslands, our watersheds, our 
sustainable economies than hardcore wilderness proponents or 
those from thousands of miles away can envision.
    I know many sponsors of this bill are well intentioned. 
They believe the land at issue is public land, and they have a 
right to weigh in on behalf of their constituents. I have a 
similar interest in Federal housing projects in the Bronx. I 
rode a train through them yesterday. I have seen their decline 
into criminal-infested enclaves. However, since I know very 
little about urban housing and the issues surrounding that 
complex issue, I would no sooner weigh in with a sledgehammer 
piece of legislation that mandated specific management of those 
projects than I would attempt to fly. It wouldn't be right, 
especially without the support of the leaders from the Bronx.
    People of the Northern Rockies compromise certain monetary 
standard of living qualities to live there because we love the 
environment. We are working hard to find a sustainable future. 
We are sitting at the table with each other building trust and 
building a future as we deal with the issues of the healthy 
economic systems that coexist with healthy ecosystems.
    The Earth Summit in Rio stated that global sustainability 
would be defined and defended at the local landscape level.
    This bill undermines our local efforts. It acts as a SCUD 
missile, flying in from afar to smack down right on our table 
of building trust. It does not take a genius to see the 
environmental injustice being served the working poor of the 
inland West of this bill. I encourage you to give H.R. 1975 the 
right red light it deserves, not a green light because it seems 
from your distance the politically correct and politically 
possible thing to do.
    Thank you.
    [The prepared statement of Mr. Vincent follows:]

            Statement of Bruce Vincent, Executive Director, 
                   Communities for a Great Northwest

    Mr. Chairman and members of the Committee: I am honored to testify 
today.
    I am a fourth generation Montanan and a third generation practical 
applicator of academic forest management theory, a logger. I moved back 
to Montana, after completing college, for two environmental reasons. 
The natural environment of clean air, clean water, abundant wildlife 
and beautiful tree shrouded mountains and the cultural environment of 
rural resource managers.
    I soon learned of a third environment that would dictate the health 
of the natural and cultural environments I love--the political 
environment.
    My county, Lincoln County, Montana, is 80 % federally owned. For 
the past 20 years I have been thoroughly involved in local, regional 
and national attempts to make sense of the laws governing the 
management of the public forest resource that I live in, work in, play 
in and love. I volunteer as executive director of Communities for a 
Great Northwest--a group that provides input on forest resource 
management in our area and has made a decades long commitment to good 
faith efforts at working in a productive relationship with the forest 
service.
    I helped coordinate the Kootenai Forest Congress--a local group of 
resource managers, conservationists, and community leaders that 
developed and worked hard at moving toward a vision of the future for 
our forest that includes healthy ecosystems and healthy social and 
economic systems. I currently serve on our local RAC, work with a local 
stakeholder collaboration group, and I am a twenty-year member of our 
Grizzly Bear Community Involvement Team--a broad-based group that 
attempts to work with the U.S. Fish and Wildlife Service in recovering 
the grizzly bear in our ecosystem.
    While reading over HR1975, one thing kept jumping up at me: 
environmental justice. The definition of environmental justice is: the 
fair treatment and meaningful involvement of all people--regardless of 
race, ethnicity, income or education level--in environmental decision 
making. Environmental Justice programs promote the protection of human 
health and the environment, empowerment via public participation, and 
the dissemination of relevant information to inform and educate 
affected communities.
    This bill is classic environmental injustice at its worst. The 
perpetrators of this huge wilderness scheme note in their findings that 
the people of the Northern Rockies have suffered from histories of 
``economic instability and high unemployment rates.'' They fail to 
mention that the record unemployment rates set in the region have come 
from the actions of an environmental conflict industry that has reduced 
the timber management of federal lands to one tenth of the growth of 
timber on federal lands and forced the closure of scores of family 
owned mills and the loss of thousands of logging jobs since 1990.
    For over one hundred years, communities like mine underwent periods 
of years of recession that tracked with the timber market. But with the 
total collapse of public land timber management we no longer have 
periods of recession--we have persistent poverty with permanently 
closed sawmills. When Mike Garrity of the Alliance for the Wild Rockies 
did the economic impact study for this bill he failed to mention this 
fact.
    The proponents of this bill also do not mention that on the 
Kootenai forest a recent study found that 93% of the recreational use 
of the forest was road access dependent use. This fact is ignored when 
the proponents say in the findings of the bill that setting aside over 
a million acres of the area I live in as wilderness will help to 
sustain the economy through activities on the forest. This finding is 
simply inaccurate at its best. When we decommission roads we will 
decommission recreational sales in our town. You can bet on it.
    The bill proponents also state that the local economies will thrive 
with remediation jobs in the forest areas where road decommissioning 
needs to take place and where forest restoration work needs to be done. 
What they fail to mention is that these jobs are not sustainable by the 
letter of this bill for in fact, when the areas recovered are 
sufficiently de-roaded, they will be included in the wilderness 
preservation system. Then we will get to rely on the non-existent 
recreation jobs from the wilderness designation.
    Our local groups are currently busy working on solutions to our 
fuel loaded timberlands that are light on the land and have long term 
ecological benefit for the specific area being treated. Oftentimes 
these treatments do not need the use of roads. Sometimes these 
treatments need the use of existing roads that need brought to modern 
water quality standards. The treatment of the timber often pays for the 
maintenance of or the decommissioning of roads. This bill would derail 
a great deal of our local work on these areas. The work being done in 
these local groups is the true work of sustainability. The forests that 
have grown too thick with time are going to grow back again. Using ever 
increasingly low impact management techniques and utilizing the biomass 
in ever more environmentally friendly ways (biofuels?) the future for 
our rural Northern Rockies communities lies in living with a management 
regime that protects both their economy and their ecology. This bill 
falls short on both counts.
    The bill proponents also state the age-old and tired argument that 
by passing this bill, the burden of below cost timber sales will be 
removed from the public and the tax burden of managing our public lands 
will be reduced. This flies in the face of what is asked for in the 
bill. How in the world will a new division of the Forest Service be 
formed (the National Wildland Recovery Corps) and capitalized with no 
burden to the taxpayer? How in the world will 6000 miles of road be 
decommissioned within the wilderness Areas proposed and another unknown 
number of miles of road be decommissioned in the biological corridors 
with no cost to the public? At least with timber sales there was some 
revenue coming back to the public in the form of stumpage. In this bill 
there is no revenue stream. It is all cost. Cost to the taxpayer and 
cost to the environment.
    There was also no mention that the anti-mining and anti-oil and gas 
exploration conflict industry has successfully driven scores of 
resource companies out of the Northern Rockies and into nations such as 
Venezuela and Bolivia where environmental and employee standards are 
less than American standards of thirty years ago. Under this bill 
millions more acres of federal land will permanently be taken off of 
our domestic radar for getting off of the foreign tit of oil and gas.
    It is also interesting that this bill's management regime for the 
Biological Corridors states that no ``even aged management of timber 
will be used.'' And yet, in the area I come from--the Cabinet/Yaak 
Ecosystem--much of our area and a great deal of what they propose for 
wilderness and biological corridors and ultimately wilderness is the 
mature, single age class, lodgepole remnants of the largest fire in 
North America history--the 1910 blaze. That fire burned 3,000,000 acres 
in two days and the resulting 3,000,000 acres of single age class 
regrowth is ready to regenerate.
    In fact, the 1998 GAO Study on Forest Health stated that the single 
biggest threat to the forest of the inland west were single event, 
catastrophically huge, catastrophically hot stand destroying, watershed 
destroying wildfires. Since 1998 we have seen this to be true and have 
watched as our forests endangered species habitat has been burned and 
watersheds as large as the one serving the city of Denver have been 
turned to ashes. Under this legislation, the proponents are suggesting 
that those of us who live in and around these areas where years of fire 
suppression have left us with overstocked, unhealthy forests should 
pretend that we have no responsible methods of restoring the health of 
the land except for set asides in the wilderness system. In other 
words, we should be satisfied with allowing the fires we know to be 
imminent to blast out of the ``protected'' areas and into our living 
areas.
    The GAO report mapped the areas of the Northern Rockies that had 
the greatest risk of loss to fire in the near future. Many of the areas 
suggested for Wilderness in this act or for protection as Connecting 
Corridors and eventual wilderness or for Remediation areas and eventual 
wilderness are included in the ``high risk'' areas. The proponents 
would have us believe that setting these acres aside for management by 
fire is better for our wildlife, better for our watersheds, better for 
our airsheds, better for us.
    I disagree. Interestingly, these fires by-and-large use single age 
class management--sometimes 100,000 acres at a time.
    I also believe that our water should be adjudicated at the state 
level and that the potential for taking of water as stated in Section 
210 of this bill is untenable. I can envision a flurry of lawsuits 
aimed at the state of Montana and the federal government for not 
adjudicating ``enough'' water for the purpose of this act--and the 
deciding jurisdiction being the 9th Circuit. This, Mr. Chairman, is a 
lawyers dream and a state's rights nightmare.
    In fact, it is all of these facts from the impacted areas that 
frame the reasons that not one of the elected Representatives from the 
areas suggested for wilderness in this act are sponsors of the act. 
Those who live closest to the realities of the proposed set asides know 
that there are better options for our forests, our grasslands, our 
``habitat'' than those from thousands of miles away can envision.
    At the Earth Summit in Rio de Janeiro in 1990 sustainability was 
defined as ``providing for humankind today in a manner that does not 
compromise the ability of future generations to do the same.'' I 
concur. They went further, however, and said that sustainability was 
going to be defined and defended on a local landscape level with the 
indigenous population of stakeholders at the table of debate. 
Indigenous is not a term that is exclusive to people of color in 
Zimbabwe. It means local.
    This bill undermines the local efforts communities throughout the 
Northern Rockies are working on to find a sustainable future. It acts 
as a scud missile flying in from afar to smack right down in the table 
of trust that has been built between the resource community and the 
conservation community.
    I know that a lot of the sponsors of this bill are well 
intentioned. They believe that they are doing the ``right'' thing and 
believe that since the land at issue is public land they have a right 
to weigh in on behalf of their constituents. I also have a vested 
interest in the federally funded housing projects in places like the 
Bronx and have seen the stories of their decline into criminal infested 
enclaves over the last several decades. However, since I know very 
little about urban housing and the issues surrounding that complex 
issue, I would no sooner weigh in with a sledge hammer of a piece of 
legislation that mandated management of those projects than I would 
attempt to fly. I just wouldn't do it. It wouldn't be right. The local 
people would have to have a larger say in the management of those 
places than I could ever have.
    Again, the definition of environmental justice is: the fair 
treatment and meaningful involvement of all people--regardless of race, 
ethnicity, income or education level--in environmental decision making. 
This bill and the way it has been promoted has none of these traits and 
the local people of the Northern Rockies object to the environmental 
injustice of people from outside of our area mandating management 
regimes that ignore the realities we face on the ground as we attempt 
to define and defend our sustainability. I encourage you to give it the 
red light it deserves--not a green light just because it is politically 
possible to steamroll us.
                                 ______
                                 
    Mr. Sarbanes. Thank you, Mr. Vincent. Mr. Noel Williams, 
from the Montana Coalition of Forest Counties.

                STATEMENT OF NOEL E. WILLIAMS, 
              MONTANA COALITION OF FOREST COUNTIES

    Mr. Williams. Greetings from Montana. Thank you for this 
opportunity to appear before you and speak to the Northern 
Rockies Ecosystem Protection Act. I am Noel Williams, and I am 
here on behalf of many boards of county commissioners and 
appreciate Mr. Bishop recognizing an omission there in the 
past.
    I work particularly with Lincoln, Mineral and Sanders 
County but came here with the authorization from the Montana 
Coalition of Forest Counties, which includes 34--the boards of 
commissioners of 34 of Montana's 56 counties. As a former long-
time county commissioner and previous Director of Coalition of 
County Leaders in the 18 western-most States under the aegis of 
the National Association of Counties, I can assure you that the 
local elected officials for whom I speak, contrary to what we 
have heard occasionally earlier today, they really are the 
grassroots voice of the majority of the people in their 
respective areas. And further, their voices are united on this 
proposed legislation, one huge voice in opposition. And I think 
perhaps some earlier testimony could be used to illustrate a 
potential ratio. I recall Representative Maloney mentioning she 
had heard from one person in Manhattan, Montana, supporting 
this legislation. On the other hand, we heard from 
Representative Rehberg that he has heard from a dozen people 
from Manhattan, Montana, opposing this legislation. 1 to 12? I 
am not sure how illustrative that is. But further, among your 
own colleagues, I see no foundation of support from Members who 
represent the districts directly impacted.
    I agree, as do those I represent, with Representative 
Rehberg when he says, as Pat Williams said before him, that it 
is bad legislation because it considers neither input from--nor 
the impacts on local economies and communities. I have been 
involved in these wilderness debates and controversies for more 
than 20 years. And I am just now beginning to fully recognize 
the importance of local collaboration in achieving resolution 
one area at a time, a bite at a time.
    Collaborative groups consisting of diverse stakeholders at 
the local level are currently having great success in helping 
Federal agencies design projects on the forest that satisfy 
needed goals without inviting litigation. I see a trend toward 
using this successful process in future policy discussions 
relative to recreation travel and wilderness on our national 
forests. And those processes will necessarily use specific 
science, not general science.
    Legislation such as you are considering here today would 
devastate this process. Twenty-four million acres of new and de 
facto wilderness, about a third of which would be in my State 
of Montana all in one fell swoop, wow. And all promulgated with 
no consultation, no concurrence with our local leaders, our 
State officials, our Governor or our congressional delegation.
    Well, as some have so well stated here today, it is Federal 
land owned equally by all of us, not just by those of you who 
live in the proximity to it. We do--albeit reluctantly 
sometimes--accept that premise. However, we also accept that 
the people who live in communities proximate to these areas, 
communities whose history, whose culture, whose economy, social 
structure, employment opportunities and recreational 
opportunities are all entwined with these areas under 
consideration and how they are managed, they should be the 
first and most heavily weighted link in the chain of 
communication that results in such far-reaching management 
policy decisions for America.
    For example, those of us who are most proximate to the 
areas under consideration know that many thousands of acres 
included are seriously out of sync, as mentioned before. 
Wilderness designation does not solve the treatment problems 
needed. We know, for example, that many of those thousands of 
acres--or thousands of miles of streams envisioned to be added 
to the National Scenic, Recreation, or Wild Rivers would not 
necessarily fit. They are small tributaries, many of them, that 
dry up.
    Future active management activities that are desirable for 
the areas would simply be precluded by wilderness designations. 
Why should we want to give them up?
    Finally, I would like to provide legitimacy to this 
position. The Montana State Legislature in its recent 2007 
session passed a resolution urging Members of Congress to 
vigorously oppose this act and to vote against it at every 
opportunity.
    That concludes my testimony here, Mr. Chairman. Thank you 
once again.
    [The prepared statement of Mr. Williams follows:]

 Statement of Noel Williams, on Behalf of the Board of Commissioners, 
   Lincoln County, Montana; Board of Commissioners, Mineral County, 
 Montana; Board of Commissioners, Sanders County, Montana; and Montana 
                      Coalition of Forest Counties

    Mr. Chairman and Members of the Subcommittee:
    Greetings from the great state of Montana, and thank you for this 
opportunity to appear before you and speak to the proposed Northern 
Rockies Ecosystem Protection Act.
    My name is Noel Williams and I am here on behalf of the Boards of 
County Commissioners of Lincoln, Mineral, and Sanders counties in 
western Montana, and also with the authorization to speak for the 
Montana Coalition of Forest Counties, which includes in its membership 
the commissioners of 34 of Montana's 56 counties.
    As a former long-time county commissioner, and as a previous 
director of the Western Interstate Region--a coalition of county 
leaders in the 18 western-most states under the aegis of the National 
Association of Counties--I can assure you, ladies and gentlemen, that 
those local elected officials for whom I speak really are the voice of 
the people in their respective areas, and further, that their voices 
are united on this proposed legislation; one huge voice in opposition.
    Further, among your own colleagues I see no foundation of support 
from members who represent the districts directly impacted by this 
proposal, and who should have the greatest voice in promulgating policy 
affecting their constituencies. I and those I represent agree with 
Representative Rehberg of Montana when he says this is bad legislation 
because it is a ``top-down'' approach that considers neither input 
from, nor impacts on, local economies and communities. I have been 
involved in wilderness debates and controversies for more than 20 
years, and am just now beginning to fully recognize the importance of 
local collaboration in achieving resolution, one area at a time. 
Collaborative groups consisting of diverse stakeholders at the local 
level are currently having great success in helping federal agencies 
design projects on the forests that satisfy needed goals without 
inviting litigation. I see a trend toward using this successful process 
in future policy discussion relative to recreation, travel, wilderness, 
etc. on our National Forests. Legislation such as you are considering 
here today would devastate this process.
    Twenty-five million acres of new wilderness and de-facto 
wilderness, about a third of which would be in my state of Montana, all 
in one fell swoop! Wow! And all promulgated with no consultation or 
concurrence with our local leaders, our state officials, our governor, 
or our congressional delegation. ``Well,...you might say,...it is 
federal land owned equally by all of us, not just by those of you who 
live in proximity to it.'' We do accept that premise; however, we also 
accept that the people who live in communities proximate to these 
areas, communities whose history, culture, economy, social structure, 
employment opportunities, and recreational opportunities are all 
entwined with these areas and how they are managed, should be the first 
and most heavily weighted link in the chain of communication that 
results in management policy decisions.
    For example, those of us who are most proximate to the areas under 
consideration know many thousands of acres included are seriously out 
of sync with historic conditions, have missed several cycles of natural 
burns, and are heavily laden with hazardous fuel loads. This, in 
conjunction with recent drought conditions, insures a future of 
catastrophic stand-replacing wildfires that will not be contained 
without spreading to adjacent public and private lands. Wilderness 
classification does not provide for the active management treatments 
needed to provide for reducing this risk.
    For example, those of us who are most proximate to the areas under 
consideration know that among the thousands of miles of streams 
envisioned by this proposal to be added to our National Scenic, 
Recreation, or Wild Rivers System, there are far too many small 
tributaries, some of which nearly disappear in dry years. Attendant 
restrictions would result in the loss of adaptive management 
capabilities that could stave off future wildfires that would 
obliterate that which the proposal deems to ``save''.
    Overall, this proposal seems to us to simply articulate the entire 
wish list of those who have long yearned to remove humans from 
environmental equations. The limits called for here are not 
responsible. We are not, by opposing this legislation, calling for more 
development, more roads, more resource extraction, or more ecological 
degradation; rather, we do recognize the importance of implementing 
wildlands protection policies and perpetuating opportunities for 
wilderness experiences. Further, we believe this can be done without 
the rigid inflexibility of formal Wilderness designation on such a 
large scale, a designation that disallows a broad range of uses that 
the resources could potentially allow, and precludes the kind of future 
active management activities that might become desirable given 
inevitable unforeseen and ever-changing needs in our physical or social 
environment.
    Why, we ask, should we want to give up many of the management 
options, opportunities, and tools that when used reasonably and 
scientifically, can add ecological diversity and enhancements for 
forest vegetation, for wildlife, and for humans?
    I am reminded here of a statement in the Public Lands Policy of the 
Montana Association of Counties, to wit: ``... the resolution of 
conflicts will most often be found in a multiple-use format that 
conserves and not preserves, that uses but not wastes, that respects 
but not abuses, and that shares but not hoards the many resources on 
our public lands.''
    Finally, to provide added legitimacy to our position, I would 
remind this subcommittee that the Montana State Legislature, in its 
2007 session, passed a resolution urging Members of Congress to 
``vigorously'' oppose this act and to vote ``against...at every 
opportunity.''
    That concludes my testimony here today, Mr. Chairman, and once 
again we thank you for this hearing and for this opportunity.
                                 ______
                                 
    Mr. Sarbanes. Thank you, Mr. Williams. We will now hear 
from Mr. Larry Smith.

STATEMENT OF LARRY E. SMITH, EXECUTIVE DIRECTOR, AMERICANS FOR 
                RESPONSIBLE RECREATIONAL ACCESS

    Mr. Smith. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify on H.R. 1975. My name is Larry Smith, 
and I serve as Executive Director of Americans for Responsible 
Recreational Access.
    To say that H.R. 1975 is far-reaching legislation is an 
understatement. We are not opposed to creating new wilderness 
areas when and where appropriate, but we do have reservations 
about any legislation that seeks to change the management of 
more than 23 million acres of public land in one fell swoop. 
The magnitude of this measure is too much to comprehend and has 
the markings of a legislative process run amok.
    H.R. 1975 seems more akin to a major rewrite of our tax 
laws with the annual omnibus appropriations measure too large 
and complicated for any Member of Congress to understand the 
potential danger that after final passage too many unintended 
consequences will emerge that will prove too difficult to fix. 
I am not sure this is the way to legislate new policy governing 
our public lands.
    H.R. 1975 covers public lands in five western states, 
Montana, Idaho, Washington, Oregon, and Wyoming. If the authors 
of this legislation are serious about the measure, why not 
divide the legislation up into five separate bills, one for 
each State affected? Hearings then could be held not only here 
in the Nation's capital but, more importantly, out in the 
actual States where the designations will occur. Why not seek 
the opinion of the local citizens and the governmental entities 
most affected by these policy decisions?
    One of the areas slated for expansion under H.R. 1975 is 
the Hells Canyon Recreation Area in eastern Oregon. Back in the 
1970s I worked for a Senator from the State of Oregon who was 
the original sponsor of the Hells Canyon legislation. The 
legislation, when introduced, had already been carefully vetted 
with citizens groups in Oregon, State and local government 
officials, as well as the pertinent Federal agencies. This was 
not a top-down process coming from the Nation's capital, but 
rather a process that began in the State of Oregon and had the 
consensus of Oregonians before Congress was even asked to 
consider the legislation. It seems to me this is the preferable 
way for moving wilderness legislation forward. First, seek the 
support of local communities surrounding the area in question, 
and then seek the support of the Congress.
    To be honest, I am highly suspect of any wilderness 
legislation so massive in size that it comprises an area larger 
than the States of New York, Connecticut, Vermont, and Rhode 
Island combined. I am highly suspect of any wilderness 
legislation that affects five western states when the prime 
sponsor hails from a congressional district in downtown 
Manhattan.
    While the author's intentions are no doubt well meaning, I 
would have greater comfort about the scope of this legislation 
if it were undertaken by the very Members elected to represent 
the affected congressional districts.
    I note that not one House Member representing the affected 
areas has chosen to cosponsor this bill. What is the message of 
this lack of endorsement? Maybe it means that the local 
citizens of the affected area also fail to see any merit to 
H.R. 1975.
    Mr. Chairman, since the passage of the 1964 Wilderness Act, 
some marvelous and special areas in this country have been 
preserved in a State ``where the Earth and its community of 
life are untrammeled by man, where man himself is a visitor who 
does not remain.''
    Since 1964, Congress has done a very good job of finding 
and so designating such areas. Today we find that nearly 700 
tracts of land, encompassing a whopping 106 million acres are 
in the wilderness system. To put the current size of the 
wilderness system in perspective, it is the equivalent of the 
total land mass of California and Maryland combined.
    Should Congress designate more wilderness areas? Maybe. But 
before doing so, it should seek the input of those American 
citizens most affected by those decisions. Before doing so, it 
should find out what economic and social impacts such 
designations will have on those citizens living in the 
vicinity.
    Break H.R. 1975 apart into five separate bills, then take 
each measure and ask local citizens what they think of the 
potential designation, and if the response is in the 
affirmative like it was with the original Hells Canyon 
Recreation Area was proposed, then give each the congressional 
seal of approval.
    Our public lands deserve nothing less than a serious, 
deliberative process. Mega-bills like H.R. 1975 are not an 
appropriate vehicle for protecting public lands for future 
generations.
    Finally, Mr. Chairman, in addition to making my whole 
statement a part of the record, I would also ask that I be able 
to submit a copy of an op-ed I wrote on the subject of 
wilderness legislation that appeared in the September 27 
edition of the Washington Times.
    Mr. Sarbanes. Without objection, that will be entered.
    [The article submitted for the record has been retained in 
the Committee's official files.]
    [The prepared statement of Mr. Smith follows:]

           Statement of Larry E. Smith, Executive Director, 
             Americans for Responsible Recreational Access

    Mr. Chairman:
    Thank you for giving me an opportunity to testify on H.R. 1975, the 
Northern Rockies Ecosystem Protection Act. My name is Larry E. Smith 
and I serve as Executive Director of Americans for Responsible 
Recreational Access (ARRA). ARRA is an organization that promotes the 
responsible use of our public lands for a variety of recreational uses 
including horseback riding, senior citizens active in the outdoors, 
off-highway vehicle and snowmobile riders and other outdoor 
enthusiasts.
    To say that H.R. 1975 is far reaching legislation is an 
understatement. We are not opposed to creating new wilderness areas 
when and where appropriate, but we do have serious reservations about 
any legislation that seeks to change the management of more than 23 
million acres of public land in one fell swoop. The magnitude of this 
measure is too much to comprehend and has the markings of a legislative 
process run amok. H.R. 1975 seems more akin to a major rewrite of our 
tax laws or the annual omnibus appropriations measure; too large and 
complicated for any Member of Congress to understand with the potential 
danger that after final passage, too many unintended consequences will 
emerge that will prove too difficult to fix. I am not sure this is the 
way to legislate new policy governing the use of our public lands.
    H.R. 1975 covers public lands in five western states, Montana, 
Idaho, Washington, Oregon and Wyoming. The legislation would designate 
new wilderness areas totaling more than 23 million acres and nearly 
2,000 miles of wild and scenic rivers. I am not here to suggest that 
some of this designation isn't appropriate or needed. What I am here to 
suggest is that it is humanly impossible to understand the far reaching 
ramifications of this bill.
    If the authors of H.R. 1975 are serious about this measure, why not 
divide the legislation up into five separate bills, one for each state 
affected? Hearings then could be held not only here in the Nation's 
Capital, but more importantly, out in the actual states where these 
designations will occur. Why not seek out the opinion of the local 
citizens and governmental entities most affected by these policy 
decisions?
    One of the areas slated for expansion under H.R. 1975 is the Hells 
Canyon Recreation Area in eastern Oregon. Back in the 1970's, I worked 
for a Senator from the State of Oregon who was the original sponsor of 
the Hells Canyon designation. The legislation, when introduced, had 
already been carefully vetted with citizens groups in Oregon, state and 
local government officials as well as the pertinent federal agencies. 
This was not a top down process coming from the Nation's Capital, but 
rather a process that began in the State of Oregon and had the 
consensus of Oregonians before Congress was even asked to consider the 
legislation.
    It seems to me this is the preferable way for moving wilderness 
legislation forward. First, seek the support of the local communities 
surrounding the area in question and then seek the support of the 
Congress--in that order and not the other way around. To be honest, I 
am highly suspect of any wilderness legislation so massive in size that 
it comprises an area larger than the States of New York, Connecticut, 
Vermont and Rhode Island combined. I am highly suspect of any 
wilderness legislation that affects five western states when the prime 
sponsor hails from Manhattan. While the author's intentions are no 
doubt well meaning, I would have greater comfort about the scope of 
this legislation if it were undertaken by the very members elected to 
represent these affected congressional districts.
    I note that not one House member representing the affected areas 
has chosen to co-sponsor H.R. 1975. What is the message of this lack of 
endorsement? Maybe it means that the local citizens of the affected 
areas also fail to see any merit in H.R. 1975.
    Mr. Chairman, since the passage of the 1964 Wilderness Act, some 
marvelous and special areas in our country have been preserved in a 
state ``where the Earth and its community of life are untrammeled by 
man, where man himself is a visitor who does not remain.'' Since 1964, 
Congress has done a very good job of finding and so designating such 
areas. Today, we find that nearly 700 tracts of land encompassing a 
whopping 106.6 million acres are in the wilderness system. To put the 
current size of the wilderness system into perspective, it's the 
equivalent of the total land mass of California and Maryland combined.
    Should Congress designate more wilderness areas? Maybe. But before 
doing so, it should seek the input of those American citizens most 
affected by such decisions. Before doing so, it should find out what 
the economic and social impact such designations will have on those 
citizens living in the vicinity of these areas.
    Break H.R. 1975 apart into five separate bills. Then take each 
measure and ask local citizens what they think of the potential 
designation. And if the response is in the affirmative like it was when 
the original Hells Canyon Recreation Area was proposed, then give each 
the Congressional seal of approval. Our public lands deserve nothing 
less than a serious, deliberative process. Mega-bills like H.R. 1975 
are not an appropriate vehicle for protecting public lands for future 
generations. There must be a better way. There is a better way, and I 
hope this subcommittee and committee reaches out to those who know 
these areas best, the people who live and work there.
    Finally, Mr. Chairman, in addition to my statement being made a 
part of the record of this hearing, I would also like to submit a copy 
of an Op-Ed that I wrote on the subject of wilderness legislation that 
appeared in the September 27th edition of the Washington Times.
                                 ______
                                 
    Mr. Sarbanes. Thank you all for your testimony. I have no 
questions. Mr. Bishop may.
    Mr. Bishop. I will just ask a couple. I will go very 
quickly down the row. Mr. Vincent, you talked about the next--
well, first of all, when you are talking about the water 
issues, are there historic water concerns that bring you to 
question the portion of this bill in section 110?
    Mr. Vincent. Well, the whole question of what is enough, 
who is going to determine what is enough for the life flow of 
an ecosystem? And conservation biology is defined as half art. 
So when we are defining the life flow of an ecosystem and then 
going to try to attribute or adjudicate a certain amount of 
water to that so that the stream flow downstream is sufficient, 
who is going to tell that? And then when we have an 
overabundance of trees in the riparian areas of the upstream 
wilderness area, a full-grown pine tree will suck 200 to 300 
gallons of water out of the ground a day. So when we have a 
normal water year in the Northern Rockies, our forest is out 
there expressing drought and inviting bugs and doing all the 
things that a drought-depleted forest does. So when we have all 
these trees sucking our headwater streams dry and we can't do 
anything about it, what does that do to the downstream when we 
are trying to adjudicate the water? And what happens when the 
Ninth Circuit is the jurisdiction that we will adjudicate that 
in?
    So those are my questions.
    Mr. Bishop. Let me also ask you and I will try to do this 
quickly, you talked about the nexus of roads and access for 
recreation purposes.
    Mr. Vincent. Well, we have great concern. We know that 
recreation is going to be a piece of our overall economic pie, 
and so we are trying to figure out how we do that. We also know 
that industrial tourism and the places where it has worked has 
shown to be more damaging than any of our other attempts to 
coexist with our ecosystem. We have learned that in Yosemite, 
we have learned it in Yellowstone, we have learned it in 
Glacier. We don't think we need to learn it everyplace else in 
the West.
    Mr. Bishop. Let me come back to you in a second if I could.
    Mr. Williams, I wasn't able to hear very clearly. The 
legislature in Montana that passed legislation in opposition to 
this, what year was that?
    Mr. Williams. This year. 2007.
    Mr. Bishop. OK. Can you in some way--we have heard about 
the concept, this is a grassroots movement. Can you in some way 
kind of coalesce these two concepts, that it is a grassroots 
movement but at the same time there are no elected officials in 
this area of the grassroots movement that are supportive of it, 
or are there? Are there any commissioners out there that are 
actually saying yes to this?
    Mr. Williams. No.
    Mr. Bishop. Of which you are aware?
    Mr. Williams. No. Not that I am aware of. What I would like 
to do is to connect the commissioners to their grassroots 
constituency and help the commissioner provide a voice to that. 
They are not two separate. They are the same. Grassroots and 
the commissioners, I intended to put in the same basket.
    Mr. Bishop. Thank you, sir.
    Mr. Smith, you talked about unintended consequences very 
early on in your spoken testimony. Do you want to elaborate? 
What do you mean by that?
    Mr. Smith. You know, I was struck when the Congresswoman 
from Manhattan said that her goal was to provide greater access 
to public lands. Well, if this legislation were adopted, we are 
talking about less access. We are talking about no roads into 
these areas. That means people cannot enter unless by foot or 
on horseback. You talk about the hunting industry or the people 
that desire to fish, yes, they are going to walk into these 
areas at a certain distance. But they are not going to travel 5 
or 10 miles on foot in order to be able to enjoy their sport.
    So I think we are talking about--I mean, the wilderness 
system already is over 100 million acres. This legislation 
talks about adding another 23 million acres. I would hope that 
this committee would go out into the congressional districts 
and have hearings similar to this and ask the local people what 
they think the impact is going to be, and I think you are going 
to get a very negative reaction on that.
    Mr. Bishop. Might not be a bad suggestion, get us out of 
Washington, back out to the West where it is nicer.
    What you have just said did hit a chord with me. We had a 
hearing in a full committee one time when we invited some union 
members as well as sports individuals to talk about what would 
happen if you opened up mining and exploration for minerals 
into some of the areas. And one of the things we found that was 
unique, especially from some of the union officials who were 
sportsmen as well, they actually recognized that as soon as you 
open up some of these things for exploration what happens is 
there were roads that were built which allowed them greater 
access to sports and recreation facilities than they had 
before. It was one of those unintended consequences or at least 
counterintuitive consequences that has to be there.
    I apologize. My time is up, and I don't want to go over 
again as I did with the first panel, unless any of you have 
specific answers to what I asked Congresswoman Maloney. I 
appreciate your time.
    Mr. Chairman, before I do that, I apologize. I would like 
to ask unanimous consent to place in the record a New York 
Times article by Kirk Johnson which is entitled, ``As Logging 
Fades, Rich Carve Up Open Lands in the West,'' which simply 
means that these lands, which once were doing certain kinds of 
economic activities are now becoming the playgrounds of people 
who have lots of money to play with it. I also have----
    Mr. Sarbanes. Without objection, that will be entered in 
the record.
    [The article submitted for the record has been retained in 
the Committee's official files.]
    Mr. Bishop. I was going to do this all at the same time. 
But I also have a folder--if this was not the folder for Mr. 
Rehberg, which I don't think it is--which has letters that have 
come to us in opposition from those people who are living in 
this area, including about eight public utility, public access 
groups that were there. And obviously this is a letter from 
Governor Otter in opposition to the bill. And I would like to 
thank all the witnesses. I am sorry.
    Mr. Sarbanes. Without objection, those items will also be 
entered into the record.
    [A statement submitted for the record by Congresswoman 
Barbara Cubin follows:]

  Statement submitted for the record by The Honorable Barbara Cubin, 
                     Representative for All Wyoming

    I am frankly disappointed, Mr. Chairman, that this Subcommittee has 
taken the time to hold a legislative hearing on a measure that was 
drafted with such little respect for the input of local communities or 
those Members like myself who represent them. However, such is the case 
with H.R. 1975, the Northern Rockies Ecosystem Protection Act. I know 
this, because my constituents have been very vocal in regards to this 
legislation, expressing to me valid concerns as to how this measure 
would affect their ability to access and recreate on Wyoming's public 
lands. With those concerns in mind, and noting that not one single 
Member of Congress who's district would be affected by this bill stands 
in support of it, I ask to submit this statement for the record in the 
strongest opposition possible to H.R. 1975.
    As advocates of this legislation are proud to proclaim, H.R. 1975 
would codify as formal wilderness areas nearly 24.5 million acres of 
public lands, and designate as wild and scenic approximately 1,886 
miles of river segments, currently open to multiple uses by the 
American public. As this Committee well knows, the Wilderness Act of 
1964 defines wilderness as an area ``where the earth and its community 
of life are untrammeled by man, where man himself is a visitor who does 
not remain.'' It is further defined as ``an area of undeveloped Federal 
land retaining its primeval character and influence, without permanent 
improvements or human habitation, which is protected and managed so as 
to preserve its natural conditions and which generally appears to have 
been affected primarily by the forces of nature, with the imprint of 
man's work substantially unnoticeable.''
    Unfortunately, we in the west have learned the hard way that simply 
roping off millions of acres of public lands from any formal management 
regime is the quickest way to condemn those lands to natural disasters 
such as wildfires, devastating beetle infestations, and invasive weeds, 
among others. Disasters like these don't respect federally outlined 
boundaries, and often bleed over to state or private lands that border 
currently existing wilderness areas. While I seriously doubt that was 
the original intent of our predecessors in this body when they created 
the wilderness designation, it does not make any easier the challenge 
western states like Wyoming have in managing those disasters when they 
strike.
    H.R. 1975 goes far beyond even the intent of the 1964 act, however, 
by ignoring the public process generally required for the 
identification and designation of public lands suitable for wilderness. 
Instead of collecting public comments or conducting a formal 
environmental impact statement, H.R. 1975 simply uses a brush stroke 
approach to determining what lands should be included in this proposal. 
I am curious as to how the sponsors of this legislation plan to deal 
with the immediate lawsuits that would be filed from energy development 
or timber companies that hold valid leases for development within the 
acreage identified by H.R. 1975, should this legislation be signed into 
law. Since most of these claims exist within the five-million-acre 
Wyoming portion of this bill's proposed designation, I can personally 
attest to the fact that it is not an issue that would be dealt with 
easily.
    As a fifth generation Wyomingite, I strongly believe that our 
national forests, parks, and public lands are treasures that must be 
protected for future generations. However, I feel that it is equally my 
responsibility in Congress to protect the public's abilities to utilize 
our federally managed lands for multiple uses, including agriculture, 
recreation, and environmentally responsible energy development. Public 
lands currently occupy roughly half of my home state and federal land 
management agencies already have significant difficulties in meeting 
the management needs of our parks, forests, and BLM lands.
    Frankly, I find it offensive that Members of Congress from the east 
coast would introduce legislation that would make such sweeping public 
lands policy decisions in the west as H.R. 1975 does, without first 
gaining the local support of the numerous constituencies that would be 
affected or even consulting with the Western Members like myself who 
represent them.
    I encourage any Member who holds dear the rights and 
responsibilities of this body to respect the best interests of local 
communities to join me in opposition of the Northern Rockies Ecosystem 
Protection Act.
                                 ______
                                 
    [NOTE: Additional letters submitted for the record have 
been retained in the Committee's official files.]
    Mr. Bishop. And I would personally like to thank all of the 
witnesses who have spent what, 3-1/2 hours here now, waiting 
for the chance to testify on this particular bill. You have all 
come a great distance and probably at some inconvenience and a 
great deal of expense on your parts. So we thank you for your 
time, your testimony, your perseverance and your willingness to 
share that with us.
    Mr. Sarbanes. I would like to echo that. Thank you very 
much for your testimony today. It was extremely thought 
provoking and informative. It was a long hearing, but I think 
the topic warranted it. So thank you very much. And this 
hearing is adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]

    [Additional material submitted for the record follows:]
    [A letter submitted for the record by the Idaho 
Conservation League, follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               <all>

</pre></body></html>
